<html>
<title> - TRADE AND COMMERCE AT U.S. PORTS OF ENTRY</title>
<body><pre>[Senate Hearing 115-815]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-815

               TRADE AND COMMERCE AT U.S. PORTS OF ENTRY

=======================================================================

                                HEARING

                               BEFORE THE

       SUBCOMMITTEE ON INTERNATIONAL TRADE, CUSTOMS, AND GLOBAL 
                            COMPETITIVENESS

                                 OF THE

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 18, 2018

                               __________

  
            Printed for the use of the Committee on Finance


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-448 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------


                          COMMITTEE ON FINANCE

                     ORRIN G. HATCH, Utah, Chairman

CHUCK GRASSLEY, Iowa                 RON WYDEN, Oregon
MIKE CRAPO, Idaho                    DEBBIE STABENOW, Michigan
PAT ROBERTS, Kansas                  MARIA CANTWELL, Washington
MICHAEL B. ENZI, Wyoming             BILL NELSON, Florida
JOHN CORNYN, Texas                   ROBERT MENENDEZ, New Jersey
JOHN THUNE, South Dakota             THOMAS R. CARPER, Delaware
RICHARD BURR, North Carolina         BENJAMIN L. CARDIN, Maryland
JOHNNY ISAKSON, Georgia              SHERROD BROWN, Ohio
ROB PORTMAN, Ohio                    MICHAEL F. BENNET, Colorado
PATRICK J. TOOMEY, Pennsylvania      ROBERT P. CASEY, Jr., Pennsylvania
DEAN HELLER, Nevada                  MARK R. WARNER, Virginia
TIM SCOTT, South Carolina            CLAIRE McCASKILL, Missouri
BILL CASSIDY, Louisiana              SHELDON WHITEHOUSE, Rhode Island

           Jeffrey Wrase, Staff Director and Chief Economist

              Joshua Sheinkman, Democratic Staff Director

                                 ______

                 Subcommittee on International Trade, 
                  Customs, and Global Competitiveness

                      JOHN CORNYN, Texas, Chairman

CHUCK GRASSLEY, Iowa                 ROBERT P. CASEY, Jr., Pennsylvania
PAT ROBERTS, Kansas                  DEBBIE STABENOW, Michigan
JOHNNY ISAKSON, Georgia              BILL NELSON, Florida
JOHN THUNE, South Dakota             CLAIRE McCASKILL, Missouri
DEAN HELLER, Nevada                  BENJAMIN L. CARDIN, Maryland

                                  (ii)


                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Cornyn, Hon. John, a U.S. Senator from Texas, chairman, 
  Subcommittee on International Trade, Customs, and Global 
  Competitiveness, Committee on Finance..........................     1
Casey, Hon. Robert P., Jr., a U.S. Senator from Pennsylvania.....     3

                         ADMINISTRATION WITNESS

McAleenan, Hon. Kevin K., Commissioner, Customs and Border 
  Protection, Department of Homeland Security, Washington, DC....     4

                               WITNESSES

Contreras, Sergio, vice chairman, Border Trade Alliance, Weslaco, 
  TX.............................................................    19
Saenz, Hon. Pete, Mayor, city of Laredo, and chairman, Texas 
  Border Coalition, Austin, TX...................................    21
Bucci, Mary Ann, Executive Director, Port of Pittsburgh 
  Commission, Pittsburgh, PA.....................................    22
Nagle, Kurt, president and chief executive officer, American 
  Association of Port Authorities, Alexandria, VA................    24

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Bucci, Mary Ann:
    Testimony....................................................    22
    Prepared statement...........................................    33
Casey, Hon. Robert P., Jr.:
    Opening statement............................................     3
    Prepared statement...........................................    38
Contreras, Sergio:
    Testimony....................................................    19
    Prepared statement...........................................    38
Cornyn, Hon. John:
    Opening statement............................................     1
    Prepared statement...........................................    43
McAleenan, Hon. Kevin K.:
    Testimony....................................................     4
    Prepared statement...........................................    44
    Responses to questions from subcommittee members.............    53
Nagle, Kurt:
    Testimony....................................................    24
    Prepared statement...........................................    84
Saenz, Hon. Pete:
    Testimony....................................................    21
    Prepared statement...........................................    88

                             Communications

Center for Fiscal Equity.........................................    95
National Treasury Employees Union (NTEU).........................    97
U.S. Travel Association..........................................   103

                                 (iii)

 
                         TRADE AND COMMERCE AT 
                          U.S. PORTS OF ENTRY

                              ----------                              


                        WEDNESDAY, JULY 18, 2018

                           U.S. Senate,    
           Subcommittee on International Trade,    
               Customs, and Global Competitiveness,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 3 p.m., in 
room SD-215, Dirksen Senate Office Building, Hon. John Cornyn 
(chairman of the subcommittee) presiding.
    Present: Senators Thune, Isakson, Portman, Cantwell, 
Nelson, Menendez, Carper, and Casey.
    Also present: Republican staff: Madison Smith, Legislative 
Assistant for subcommittee chairman Cornyn. Democratic staff: 
Livia Shmavonian, Legislative Assistant for subcommittee 
ranking member Casey.

  OPENING STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM 
TEXAS, CHAIRMAN, SUBCOMMITTEE ON INTERNATIONAL TRADE, CUSTOMS, 
        AND GLOBAL COMPETITIVENESS, COMMITTEE ON FINANCE

    Senator Cornyn. The Senate Committee on Finance 
Subcommittee on International Trade, Customs, and Global 
Competitiveness will come to order. Thank you all for being 
here today. I apologize, as I did to Senator Casey. We 
obviously had a vote on the floor, so we were delayed but glad 
to be here.
    The topic of today's hearing is trade and commerce at the 
U.S. ports of entry. It is one that is absolutely vital to my 
home State of Texas, but I would argue not just to Texas, but 
to the entire country. We are home to 29 air, land, and sea 
ports of entry, more than any other State. Included in that 
list are three of the five busiest land ports of entry and the 
number one inland port in terms of total volume along the 
entire U.S.-Mexico border. To put this in perspective, about 
half of all U.S.-Mexico trade comes through a Texas port of 
entry.
    I am pleased to have Kevin McAleenan with us today, the 
Commissioner of U.S. Customs and Border Protection. The 
Commissioner and the Office of Field Operations within Customs 
and Border Protection are charged with screening goods and 
travelers at these ports.
    We owe a great deal to you, Commissioner, and the men and 
women who serve at these ports of entry day in and day out. And 
I hope you will convey to them our appreciation for their 
service.
    Last year, CBP continued to experience remarkable growth in 
terms of travel and trade. More than 390 million travelers were 
screened at land, air, and sea ports and nearly $2 trillion 
worth of imports were processed. The volume of commerce 
crossing our borders has tripled in the last 25 years. While 
this continued growth is an overall positive for our economy, 
we simply will not be able to maintain it without adequately 
addressing staffing and infrastructure needs.
    While it is incumbent on the Federal Government to ensure 
that CBP has the resources needed to carry out its core 
functions, Congress must also conduct effective oversight to 
make sure they are meeting mandates, implementing GAO and OIG 
recommendations, and operating efficiently. It is concerning to 
me that as of 2017, despite congressional mandates to hire 
additional personnel, CBP still has staffing shortages of 2,500 
officers. And I know the Commissioner will be prepared to give 
the explanation for that.
    The Government Accountability Office continues to reiterate 
that the shortage in trade enforcement positions has led to 
increased wait times, which in some cases could result in 
shortened vetting processes and security risks, not to mention 
just the congestion, the air quality issues, and the like. In 
addition to staffing shortages, CBP officers are required to 
work in an outdated infrastructure, creating conditions that 
may affect their ability to expedite inspections and process 
travelers through high-volume ports.
    In 2015, CBP self-reported a study that revealed a need for 
$5 billion to meet its infrastructure and technology 
requirements. At the border, antiquated infrastructure often 
leads to unnecessary delays--as I said--which result also in an 
overall loss of commerce. In many instances, these delays are 
translated into costs for an entity that ultimately is passed 
on to the American consumer. So it is critical we make port of 
entry infrastructure investment a top priority so that we can 
adequately staff and fund the ports that make trade possible in 
the first place.
    I am proud to sponsor legislation, now a part of the law, 
which directly addresses this issue, The Cross-Border Trade 
Enhancement Act, which codified the reimbursable services 
program and donations acceptance program. Public-private 
partnerships are an effective way to give stakeholders and CBP 
the ability to make improvements to all types of ports while 
also saving taxpayer dollars. A number of Texas ports of entry, 
particularly in the land and air space, have already seen the 
benefits of this program.
    I also look forward to discussing today other initiatives, 
Commissioner, currently undertaken by CBP to ease the burden on 
trade and travel. Programs like the Customs-Trade Partnership 
Against Terrorism, the NEXUS/Preclearance Program, the FAST 
Program, and Global Entry can have big benefits for our 
national security, for the consumer, and for the traveler. 
Further programs like these allow CBP officers to focus on 
higher-risk goods and travelers.
    Finally, I look forward to hearing from the Commissioner on 
implementation of the Trade Facilitation and Trade Enforcement 
Act, which moved through this committee a couple of years ago. 
TFTEA, which officially authorized the Office of Field 
Operations and streamlined a number of trade enforcement and 
facilitations issues, has the potential to further enhance our 
Nation's trade policy.
    I would now like to recognize the ranking member of the 
subcommittee, Senator Casey, for any opening statement he would 
care to make.
    [The prepared statement of Senator Cornyn appears in the 
appendix.]

        OPENING STATEMENT OF HON. ROBERT P. CASEY, JR., 
                A U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey. Thanks very much. I want to thank Senator 
Cornyn for his work and our work together on what has become a 
series of subcommittee hearings on important matters for 
national security and our economic security.
    Our Customs officers protect both our national and economic 
security. A secure border must be a priority, and Democrats and 
Republicans have worked in a bipartisan way to secure $14 
billion in funding for Customs and Border Protection, including 
$1.6 billion for border security. As we work to secure our 
borders, it is also imperative that our immigration laws are 
humane and uphold American values. The administration's policy 
of separating children from their families is an insult to 
those values. And both parties must insist that families are 
reunited. The administration must get this done. There is no 
reason why we cannot develop a border policy that is both 
humane and protects our national security.
    It is also imperative that we ensure the safe and secure 
flow of commerce and have the appropriate staffing and funding 
levels to prevent unscrupulous actors and trade cheaters from 
profiting from the sale of dangerous or illicit goods. It has 
been 2 years since the enactment of the Trade Facilitation and 
Trade Enforcement Act, so-called TFTEA, where we worked in a 
bipartisan way to provide Customs with new and expanded 
authority to combat child and slave labor, to protect 
intellectual property, and to combat those attempting to evade 
our trade laws.
    Our Customs officers are on the front lines of this fight, 
working to prevent pirated goods from harming U.S. businesses, 
or dangerous fake goods from harming or even killing consumers. 
Our Customs officers are responsible for an enormous area of 
responsibility, from interdicting opioids like fentanyl, to 
illicit goods, adapting to an ever-evolving threat matrix, to 
our agricultural specialists who protect us from imported pests 
and disease, and to ensuring that countries like China that 
cheat on trade cannot circumvent our trade laws.
    But our Customs officers are increasingly under strain. 
Staffing shortages mean that officers are asked to work double 
shifts, 16-hour days. Some are asked to serve 90-day tours away 
from their home and families at facilities that are short-
staffed. It is impossible for this not to take a toll on an 
officer's family's home life. Commissioner McAleenan, I know 
that this is something that is important to you as well. And I 
appreciate that.
    Safeguarding our long-term competitiveness also means 
making a sustained and coordinated investment in our 
infrastructure. Trade is not simply about exports to the rest 
of the world; it is about American-made goods flowing to 
destinations across our Nation. Our inland waterways are 
critical to that competitiveness. Our inland waterways provide 
an economical, environmentally friendly mode of transportation. 
From Pittsburgh to Louisville to the Twin Cities to St. Louis, 
our inland waterways are responsible for shipping billions in 
American goods throughout our Nation.
    Our inland waterway systems served as an economic backbone 
for our country as we grew and expanded, connecting pioneers 
with the rest of our country, bringing goods from our 
landlocked States to the coast. This system remains the 
lynchpin of our intermodal system. One of the first things you 
see at the Port of Pittsburgh is the rail lines. They are truly 
integrated into the American supply chain, connecting 
businesses and their products to markets across the country. 
Keeping our waterway infrastructure navigable is critical to 
competitiveness for the entire Nation.
    To serve our growing U.S. markets, we must make the kind of 
concerted infrastructure investments that our parents had the 
good sense to provide for us. And we must ensure at the same 
time that agencies tasked with protecting our Nation have the 
funding they need to execute their jobs to the fullest.
    Mr. Chairman, thank you.
    Senator Cornyn. Thank you, Senator Casey.
    [The prepared statement of Senator Casey appears in the 
appendix.]
    Senator Cornyn. Commissioner McAleenan, if you have an 
opening statement, please go ahead. And if you will hold it to 
about 5 minutes, that will give us plenty of time for some Q&A.

STATEMENT OF HON. KEVIN K. McALEENAN, COMMISSIONER, CUSTOMS AND 
BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY, WASHINGTON, 
                               DC

    Commissioner McAleenan. Chairman Cornyn, Ranking Member 
Casey, distinguished members of the Subcommittee on Trade, I 
appreciate the opportunity to appear before you on these 
important matters today. U.S. Customs and Border Protection 
protects the people of the United States against dynamic 
threats while simultaneously facilitating lawful trade, travel, 
and commerce so vital to our Nation's economy. It is a broad 
and diverse mission.
    Over $4 trillion in international trade moves across our 
international borders each year--25 million cargo containers 
via sea, truck, and rail. The volume of packages that arrives 
via air due to the rise of e-commerce has grown dramatically 
over the past 5 years. During that time, CBP has seen nearly a 
50-percent increase in express shipments, while international 
mail shipments have increased fourfold from approximately 150 
million to 500 million. These shipments, like their 
containerized counterparts, post potential health and safety 
risks to the United States and to the American people.
    In terms of illicit narcotics, CBP continues to seize 
increasing levels of methamphetamines, heroine, and synthetic 
opioids at our ports of entry, both on our southwest border and 
in the small parcel environment. We continue to confront trade 
violations from dumping and duty evasion to intellectual 
property rights to elements of forced labor in our supply 
chains. CBP is undertaking a multifaceted effort to address 
these trends. It relies on our human capital, advanced 
technology and analytics, interagency and international 
partnerships, and innovative application of our authorities. To 
pursue these efforts, the men and women of CBP are our greatest 
asset.
    Over the past several years, CBP has faced challenges 
meeting our hiring goals, but we are taking those challenges 
head-on, making more than 40 improvements to our hiring 
process, resulting in significant recruitment and hiring gains 
despite record-low unemployment around the United States and 
intense competition for highly qualified, mission-inspired 
people. We have improved our administration of the polygraph 
examination, and we are working with the private sector on best 
practices for digital recruiting, applicant care, and 
automation to reduce our time to hire.
    We have demonstrated the tremendous value of our trade 
professionals, from import specialists to regulations and 
rulings attorneys, and the value they provide to the U.S. 
economy. And we have requested further investments, for which 
we will guarantee a return in these personnel, in our annual 
budget requests. We are not yet where we need to be on our 
staffing, but we are making progress across all categories of 
CBP professionals required for our critical mission, and hiring 
and sustaining a world-class workforce will continue to be my 
top mission support priority for CBP.
    Supporting our personnel is an array of technology as part 
of a multi-layered risk-based approach to target shipments and 
goods entering our country. For CBP, technology is a force 
multiplier that helps us work more efficiently with less risk 
to our front-line personnel. That starts at our national 
targeting center, where every day we analyze 2 million 
shipments through advanced systems. Through that intelligence 
analysis, comprehensive data analytics, anomaly identification, 
and identified trends of concern, CBP is able to segment out 
high-risk cargo for additional scrutiny while facilitating the 
flow of legitimate trade.
    In the field at our ports of entry, CBP utilizes 
nonintrusive inspection technology, or NII, to examine and 
identify anomalies in shipments or vehicles. These systems 
enable CBP officers to rapidly examine conveyances such as 
shipping containers or trucks and privately owned vehicles for 
presence of contraband. We are investing in new technologies 
and capabilities using our Laredo field office, encompassing 
several of our busiest land crossings--as you noted, Mr. 
Chairman--as a pilot location to continually improve the 
technology we use to inspect vehicles entering the country.
    Forensic analysis is used to inform our targeting, support 
prosecutions, and gather intelligence to continually refine our 
enforcement actions. We are expanding that capability to 
support controlled substances as well as radiological and 
nuclear materials.
    Lastly, infrastructure plays a key role in our ability to 
detect threats and facilitate trade at our ports of entry. Of 
our Nation's 328 official ports of entry, 110 are land ports. 
However, most of these inspection facilities were not built to 
support post 9/11 security and operational missions, much less 
the tremendous growth in international trade and travel. CBP 
continues to request funds to construct and modernize these 
ports of entry along our northern and southern borders and find 
innovative approaches to meet the growing need for new and 
expanded facilities.
    A key aspect of CBP's resource optimization strategy, in 
addition to the workload staffing model, is the exploration of 
public-private partnerships through activities such as the 
Reimbursable Services Agreements program and potential 
acceptance of donations. Thanks to the support of Congress and 
the chairman and members of this subcommittee, CBP has expanded 
authority to enter into these agreements and accept donations 
of real property, personal property, and non-personal services 
for activities at ports of entry. That is making an impact and 
providing a return on investment.
    Both international commerce and the threat environment are 
dynamic, and CBP continues to adapt our posture to protect 
American security and prosperity. I am proud of the CBP 
dedicated workforce. I appreciate your acknowledgment of them. 
They continue to meet these challenges with integrity and 
commitment.
    Thanks again for the opportunity to appear before you 
today. I look forward to your questions.
    [The prepared statement of Commissioner McAleenan appears 
in the appendix.]
    Senator Cornyn. Thank you, Commissioner. We will have 5-
minute rounds.
    Let me just start with something that I know will come up. 
Senator Casey raised the issue of families coming across the 
border.
    Secretary Nielsen said that if a family comes across a port 
of entry seeking asylum, they are not violating any U.S. 
criminal laws; are they?
    Commissioner McAleenan. That is correct, Mr. Chairman. They 
are not violating any laws presenting without documents and 
claiming fair return to their home country.
    Senator Cornyn. So the zero tolerance program of 100-
percent enforcement of illegal crossings would not apply in the 
case of people coming across the ports of entry; correct?
    Commissioner McAleenan. That is correct. There is no 
violation of law and no prosecution of those adults who are 
arriving at ports of entry.
    Senator Cornyn. And so the only time where the zero 
tolerance policy would apply, where somebody is committing an 
offense under the laws of the United States, would be if they 
attempt to enter the country between the ports of entry, which 
is illegal; correct?
    Commissioner McAleenan. That is correct.
    Senator Cornyn. Well I would say, just in conclusion, that 
I agree with Senator Casey. And I think all of us agree that 
every effort needs to be made to reunify these families. And 
Congress needs to come up with a solution here which only it 
can provide to that issue.
    You talked a little bit about technology at the border. I 
remember that years ago--we have been trying to come up with 
technology solutions for the U.S.-VISIT program where we are 
able to document everybody who enters the country and everybody 
who exits the country. I think there are some technological 
advances I believe you alluded to, particularly the facial 
recognition technology used at airports. Could you expand on 
that a little bit?
    Commissioner McAleenan. Sure. We are extremely excited 
about the developments in technology in facial recognition, in 
particular to meet our congressional mandate to take biometric 
captures of everyone departing the country. We are working with 
airports around the country, already in 12 airports, working 
with multiple air carriers, U.S. and international, to test 
this technology. We are piloting both an operation where it 
serves as the boarding pass for the traveler as well as just a 
comparison that allows our system to capture that that traveler 
effectively made an exit from the country. We are seeing 98 
percent match rates in those comparisons. It is working to help 
enable carriers to board aircraft more efficiently.
    A380s in Los Angeles International Airport, where we have a 
common gate for Lufthansa and British Airways and others, they 
are boarding them in half the time they were boarding before, 
using our technology, providing that boarding pass capability. 
So we think that is a tremendous answer for the entry-exit 
mandate and will be a key area of how we transform the arrivals 
process, again, to keep up with this growth.
    We have had 4-percent growth in international air arrivals 
every year since 2009. We are seeing that again this year. To 
keep up with that travel, which is so critical to our commerce, 
we are going to need to process those travelers more securely 
and more efficiently. And facial recognition is going to be a 
tremendous part of that. It is already in place in Miami and 
other key areas upon arrival, and we are looking forward to 
expanding that with our aviation stakeholder partners.
    Senator Cornyn. You alluded to this briefly, and it is the 
public-private partnerships at the border that help address 
some of the infrastructure deficits that we have. And I know 
this has been an area where CBP has experimented first with 
pilot projects and is now implementing the Border Trade 
Enhancement Act to take advantage of the generosity of local 
stakeholders, including our cities and counties. How has that 
turned out? How has that worked?
    Commissioner McAleenan. That has worked tremendously well.
    And yes, you are absolutely right, Mr. Chairman. We started 
with pilots, with your support and others in Congress, to prove 
that we could do this, that we could partner with private-
sector entities, with State and local governments in a way that 
provided a return on investment that enhanced the services that 
we could provide at ports of entry.
    So at this point we have 150 Reimbursable Services 
Agreements at 111 ports across the country. We are able to 
facilitate additional hours for officers either by overtime or 
augmenting staff during peak periods. We have had 23 
applications for our donation acceptance program, 12 of those 
in Texas, where it is going to make a big impact in improving 
the flow at our ports of entry on the land border. So we are 
very excited about these authorities, and we are trying to 
apply them faithfully and to expand our capacity to serve that 
commerce.
    Senator Cornyn. I recently heard a former head of Southern 
Command talk about the transnational criminal organizations 
that operate outside of the United States being commodity-
agnostic.
    Commissioner McAleenan. Yes.
    Senator Cornyn. Which I took to mean they will traffic in 
people, they will traffic in contraband like weapons, they will 
traffic in drugs, anything that suits their business model and 
generates a profit. But could you talk a little bit about the 
role of the ports of entry when it comes to illegal drugs, 
because it looks to me like the OFO seized 41,000 pounds of 
cocaine, 3,700 pounds of heroin, 228 pounds of marijuana, and 
52 pounds of methamphetamine. And that was just in fiscal year 
2008. But explain to us why it is so important to have the 
adequate staffing and the adequate infrastructure at the ports 
of entry when it comes to interdicting these illegal drugs.
    Commissioner McAleenan. Absolutely. And the TCOs are 
definitely commodity-agnostic. Drugs and illicit narcotics are 
still their number one profit center, but they are also 
profiting from moving people as well to a dramatic extent, 
multibillion dollars a year in Mexico alone.
    The ports of entry are critical for interdicting illicit 
narcotics. That is the pathway of choice into the U.S., across 
our southwest border, or through mail or express consignment. 
Having adequate personnel to accomplish all of our diverse 
missions, from the immigration side, to inspecting for 
narcotics, to processing for agriculture protection, to 
facilitating lawful trade and travel, is essential.
    In the technology investments, we received a significant 
plus-up in 2018 from Congress for our nonintrusive inspection 
technology. And that is going to let us put a number of 
conveyances through secondary examination and identify loads of 
drugs that we were not able to see before in both personally 
owned vehicles and trucks by actually keeping the travelers in 
the vehicle during the x-ray.
    The new systems are safe to use with people in vehicles, 
and it is a very exciting development. We appreciate Congress's 
support in that area.
    Senator Cornyn. Thank you very much, Commissioner.
    Senator Casey?
    Senator Casey. Thank you very much.
    Commissioner, I wanted to start with a topic that is 
important to me and I think important to people in both 
parties, and that is how we counter terrorism financing. I have 
had major legislation on this that focuses on this problem. I 
know there are a number of agencies and also a number of 
committees here in the Senate that focus on it.
    I know that when you were going through the confirmation 
process, you provided responses to us that we appreciated on 
this topic. I guess two basic questions--could you discuss, to 
the extent that you are able in this setting, the work that is 
ongoing within your agency to coordinate with the rest of the 
intelligence community to identify and investigate both 
suspected modes as well as means of terrorism finance, 
including trade-based money laundering and other means of 
threat finance?
    Commissioner McAleenan. Absolutely. Given CBP's posture at 
the border, we have unique regulatory responsibility and access 
to data on people and goods crossing that border. So we bring a 
tremendous amount to the table when we are working with 
interagency partners on investigative efforts to counter threat 
finance, specifically for terrorism groups that do use the U.S. 
economy to help raise money on the gray market, whether it is 
trafficking in used vehicles or just trade-based money 
laundering, intellectual property rights violations.
    We have had several significant cases that we have 
disrupted along with our partners at Homeland Security 
Investigations in Senator Menendez's State and others. And we 
have created a counter network division at the National 
Targeting Center to specifically address these kinds of 
concerns, where we can identify those connections between 
illicit parties trying to use our commerce to raise money and 
partnering with HSI right there at our NTC. They have a 
division at the National Targeting Center for Investigations 
sitting alongside us building these cases and then taking 
action.
    We are trying to use all of the authorities across the 
agency. We have seen Treasury name a number of parties, denied 
parties based on analysis that has been done at our National 
Targeting Center, to prevent them from using our banking system 
for accessing our commercial supply chain. We are very proud of 
this work. We have expanded it significantly with support from 
Congress over the last 5 years, and we intend to continue to 
drive forward in that area. It is a critical mission for us.
    Senator Casey. Thank you for that.
    I would ask you generally, but in particular in this area, 
if there are resources or authorities that you need to help 
you, over the course of today, would you present those to us or 
itemize them?
    I want to go back to, as well--in the remaining time I have 
in this round--to ask you about the budget again. I was 
highlighting before the staffing levels.
    According to your workload model, Customs would need to 
hire an additional 2,500 officers, 721 agriculture specialists 
to achieve its staffing targets. I know at the airport in 
Philly alone, just in that one place, we are short 8 to 10 
Customs officers. So there is an understaffing issue. To say I 
was disappointed is an understatement that Director Mulvaney 
did not ask for additional appropriated funds to address the 
shortfall. But we can work together here to address it. We have 
officers who are regularly asked to do double shifts, as I 
mentioned, assignments away from their families. That can 
affect the family as well as morale.
    Can you walk through some of the strains just by way, if 
you could, of itemizing where you need the most help in terms 
of getting those dollars up for staffing?
    Commissioner McAleenan. Sure. Thank you, Senator, for 
asking about our staffing approaches for the ports of entry. We 
were very pleased to receive support from Congress for 328 
officers in the fiscal year 2018 budget. We intend to make that 
hiring goal this year. We are making very good progress towards 
it. We also saw in the Senate Appropriations Committee markup 
continued support for CBP officers through appropriated 
dollars, 375 additional officers, which is outstanding.
    Just to clarify, this is an effort across the last two 
administrations to provide a workload staffing model that gives 
a good sense of the number of staff we need to carry out our 
mission effectively based on volume, workload, emerging and 
changing threats, but also the technology and the partnerships 
we were able to bring to bear on our mission set.
    Alongside that staffing model, we submitted to Congress 
authorizing language requesting the ability to increase our 
fees. In several cases, it has been over 15 years since we have 
had any update of those fees. They have not kept pace with 
inflation. And the requested increases in those fees we have 
asked for would meet and exceed, actually, the total number of 
staff that we have requested under the workload staffing model.
    So that is something we would like to partner on. We do 
believe that that is an ongoing partnership with the trade and 
travel industries to make sure that we can provide the services 
they need.
    Senator Casey. Great. Thank you very much, Commissioner.
    Senator Cornyn. Senator Isakson?
    Senator Isakson. Thank you, Senator Cornyn.
    Welcome. Glad to have you.
    At your confirmation, we discussed the numbers of employees 
in CBP at the port of Savannah. Since the time we passed the 
Border Jobs for Veterans Act of 2015, have you utilized any of 
the programs in the 2015 act to expand employment at Savannah 
or any other port in the country?
    Commissioner McAleenan. We have made use of every authority 
that Congress has given us in terms of streamlining and 
enhancing our hiring. About 30 percent of our workforce are 
veterans. We have done outreach to DoD across multiple major 
bases where we have significant numbers of transitioning 
members so that we can onboard them more efficiently--we can 
treat their outgoing medical exam as our inbound medical exam, 
for instance. And our hiring of veterans has increased.
    And Savannah is no exception. My head of trade relations is 
in Savannah today meeting with port authority leadership as 
well as our Office of Trade Executive Director talking about 
how we can keep up with the growth there in Savannah with the 
additional dredging and the depth of the channel that you have 
there. It is a critical port and an important partnership for 
us.
    Senator Isakson. We have 800,000 veterans in the State--
retirees. We have a number of bases in the State, many of them 
close to the port of Savannah.
    You probably do not have a better-qualified potential 
candidate for employment for your responsibilities than your 
veteran who has come back from training and services with the 
country. So I am glad you are utilizing that. I hope you will 
continue to.
    As chairman of the Veterans Committee in the Senate, any 
way we can be of help to you to promote your operation as a 
place for veterans to come and work, we will be sure to do 
that. Get in touch with our staff and give them any information 
you would like us to have. We will disseminate that information 
very readily.
    Second on the port of Savannah, we are very proud of that 
port. It is the largest boat port on the east coast of the 
United States and profitable. It is being expanded thanks to 
the graciousness of members of the House and Senate and the 
President of the United States, the last three Presidents of 
the United States. We are going to get to 47 feet within about 
3 to 4 years. It is going to be bringing in the new Seamax 
ships coming in, which carry 14,000 containers per boat. To 
give you a little comparison, the boats they get now carry 
9,000. So it is about a 30-percent increase in throughput.
    My question is this: we have the Elba Island liquefied 
natural gas port there. We have the tremendous number of tons 
of materials coming in there. We have lots of ships from all 
around the world coming in there. I am always concerned about 
the security and how well we are enforcing the security, vis-a-
vis the potential of a terrorist attack. We have not had one, 
and I hope we never do have one. But one of the reasons you do 
not ever have one is the preparation you do to prepare 
yourself--preparing for them.
    Could you tell me for a minute, in terms of that port, how 
you feel about our security in its current form? And do you see 
any additional needs that we need to provide for you to be sure 
it is as secure as possible?
    Commissioner McAleenan. Sure, Senator. So on our security, 
it is a collaboration with the U.S. Coast Guard. They are the 
lead for port security. As you know, Commandant Schultz, former 
Atlantic Area Commander, has a very good handle on other port 
security issues in Savannah and really all over the eastern 
seaboard and around the country.
    For CBP, we partnered directly with the Coast Guard, both 
at the national level and in the field. Coast Guard has their 
targeting unit sitting with us at our National Targeting 
Center. So we are looking at the same data collected under 
Coast Guard authority, but then processed and analyzed with CBP 
systems to provide targets for them to look at, both in terms 
of any risk presented by the passengers and crew on a vessel, 
but also the cargo on that vessel.
    So we have an integrated risk assessment process of the 
people and goods on that vessel that are then conveyed out to 
our field elements for appropriate action. The captain of the 
port then decides which vessels they need to escort in and 
provides safety.
    CBP helps--from an immigration perspective--determine which 
people and crew we might need to hold on board during their 
stay in the U.S. and make sure they are secured during the time 
they are in port. And that is a collaborative process, and I 
think it works very well.
    I will definitely circle back with my Coast Guard 
counterparts to see if there are unmet needs in that port 
security effort in Savannah or elsewhere. But we feel pretty 
good about our collaboration and our common operating picture 
that we have at this point.
    Senator Isakson. That did not prompt the question. What 
prompted the question, however, was to get a little information 
out to the public.
    I have people ask me sometimes, how in the world do you 
protect the port? And I start off by telling them about the 
known shipper program, and I tell them about the Coast Guard.
    The Coast Guard in Savannah flies out to the outer marker 
where the ships report that come in and have not filed a known 
shipper at the point of embarkation--when they left to come. 
That ship is searched 3 miles out with the help of the Coast 
Guard.
    Commissioner McAleenan. Right.
    Senator Isakson. The ships that are fully locked up, fully 
searched, and fully inventoried when they come in--they come in 
and can offload and unload pretty quickly. So the shippers are 
motivated to bring in a full cargo that is completely itemized, 
completely reported, easy to inspect. So you have a great 
secure system, and the Coast Guard does a magnificent job.
    Commissioner McAleenan. Tremendous.
    Senator Isakson. Seeing to it that we get those inspections 
done--so, I wanted that information to get out to every 
Georgian and really every American, because of the value of 
those ports.
    Thank you for your service.
    Commissioner McAleenan. Thank you.
    Senator Cornyn. Senator Portman?
    Senator Portman. Thank you, Mr. Chairman.
    Commissioner McAleenan, thank you for your service and that 
of your officers. We appreciate what they do every day, 
including of course, interdicting heroin, fentanyl, other drugs 
coming into our country. We are trying to help you on that, by 
the way.
    The STOP Act, as you and I have talked about many times, 
would be a tremendous help to give you the data that you need 
to interdict these packages that are coming in from overseas, 
primarily, mostly from China. As you know, fentanyl is now the 
number one killer in my home State, and I believe among the 
opioids, the number one killer in the country. So we hope to 
follow suit with the House very shortly and get you those 
tools.
    I talked to you very briefly before the hearing started to 
warn you about what I was going to talk about, but it is a big 
issue. But you have a specific role that would really help. And 
it has to do with these steel tariffs, their impact on our 
economy, and how we go about ensuring a level playing field.
    The section 232 measures which are under a national 
security waiver under our trade law, do not require us to show 
an injury to our industry. They do not require us to show any 
unfair trade. But as you can see, other countries are 
retaliating aggressively against us as we use this tool. My 
fear is those trade escalations will continue and it is going 
to hurt our consumers, but also our exporters and our 
manufacturers.
    So what is the problem? Well, the major problem--everybody 
seems to agree--is over-capacity, steel production in this 
world. And primarily that is China. About 15 years ago they had 
15 percent of the global production. Now they have about half 
of the global production. And they do sell their steel at below 
cost. We have been able to show that and win some trade cases 
on that. And I think that is good. One of the problems is, they 
try to ship it through other countries. And that is why, 
working with Senator Wyden and others, we passed this 
legislation called the Enforce and Protect Act, also known as 
the Enforce Act, because we recognized the overcapacity problem 
and wanted to deal with the duty evasion issue and the 
transshipment issue.
    And we have vested a lot of responsibility in you and your 
people. I know you have a lot to do with people and drugs, and 
other issues related to commerce. But this one is really 
important. And frankly, I do not know that we would need to 
have a 232 case and have all of the potentially negative 
consequences that come from that if we were doing a better job 
on transshipment.
    I know you appreciate its importance. We have had some 
successes in the wire coat hanger case. For example, the 
Enforce Act was essential in saving the last manufacturer in 
the United States. We could not have done it without the 
legislation, without your help. Unfortunately, with all of the 
things that distracted your people and your lack of hiring and 
so on--we talked about it earlier--the legislation remains 
underutilized. One reason, I think, is that we do not see as 
many allegations as we should, because we do not have this 
ability to have Administrative Protective Orders.
    The International Trade Commission, Department of Commerce 
both successfully used the APOs, Administrative Protective 
Orders, to facilitate confidential information-sharing with 
interested parties. And I strongly believe that there is an 
opportunity to apply that here to the Enforce Act.
    I have heard from a lot of stakeholders about this. They 
want this process at CBP, because they understand how useful it 
can be. I know you do not have the legal authority to do it 
yourself, but I want to hear from you today, do you believe 
that creation of an APO process under the Enforce Act would 
make the process more useful for petitioners, and thus increase 
the number of petitions?
    Commissioner McAleenan. Thank you, Senator, for the 
question and to the committee for the authority under the 
Enforce Act which we have taken on, implementing an interim 
final rule within 6 months of the passage of the Trade 
Facilitation and Trade Enforcement Act.
    We are now up to 20 investigations, 9 completed, $50 
million in evasion prevention accomplished. We have done 
foreign site visits in over 18 locations, which have really 
given us a sense of where there is a fraudulent issue, a fake 
transshipment, if you will. We are able to actually look at 
that factor using our international network, our partnership 
with foreign governments and with HSI.
    Senator Portman. By the way, your interim rules came out in 
August of 2016.
    Commissioner McAleenan. Correct.
    Senator Portman. We are still waiting for the final 
regulation. So if you could also tell us today when you expect 
those final regulations to come out, that would be helpful. Do 
you have an answer on that?
    Commissioner McAleenan. Actually, I think that depends on 
the second half of your question, the ongoing lessons learned 
from these 20 investigations and incoming allegations under the 
Enforce Act, the lessons we take from those and how we want to 
apply them in a final rule.
    The Administrative Protective Order process is something 
that we have looked at and that we are happy to have an ongoing 
conversation with Congress about. As you noted, we do not have 
the authority or the resources to implement it today.
    Senator Portman. Do you think it would be helpful?
    Commissioner McAleenan. I think that the key elements of 
it, the sharing of additional information----
    Senator Portman. Confidential----
    Commissioner McAleenan [continuing]. With interested 
parties is very helpful. And whether we can do that through a 
final rule on our own, or whether an APO would materially 
advance that, that is worth discussing. Absolutely.
    Senator Portman. But you want to get that confidential 
information. Another area where we can improve the Enforce Act 
would be to allow petitioners to file allegations when the 
importer is not known, because that is the case sometimes. They 
see innovation coming. They are tracking prices, market 
dynamics--they know it is happening. They just are not sure who 
is doing it.
    Again, legal authority aside, do you believe that 
permitting allegations when an importer is unknown would make 
the process more useful for petitioners and help increase the 
number of petitions?
    Commissioner McAleenan. Yes. We agree with that. That is an 
improvement we would like to make in the process.
    Senator Portman. That sounds like the first change you 
would like to make, whether it is through an APO or some other 
way, and the second one, you believe people ought to be able to 
file these cases without knowing the importer?
    Commissioner McAleenan. Correct.
    Senator Portman. Great. Thank you, Mr. Chairman.
    Senator Cornyn. Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Commissioner, let me first salute the men and women in the 
service who work at Port Elizabeth in Newark and Newark 
International Airport. They do a fantastic job at the mega-port 
of the east coast. We appreciate their work.
    But I want to turn to a line of questioning that started 
off where the chairman started off his line of questioning. On 
June 18th, Secretary Nielsen said that if an adult enters at a 
port of entry and claims asylum, they will not face prosecution 
for illegal entry. They have not committed a crime by coming to 
the port of entry.
    And the same day the Department of Homeland Security called 
it a myth that families who cross the borders seeking asylum at 
ports of entry are separated. But advocates and press stories 
tell us a different story.
    How many children were, in fact, separated from their 
parents at ports of entry during the family separation policy?
    Commissioner McAleenan. Under the zero tolerance and 
prosecutions, family separation efforts, zero. We had seven 
separations during that time period that were due to an 
unproven family relationship or an unrelated criminal history 
or violation.
    There were several thousand, 5,200 families, that arrived 
during that time frame. None of them was separated due to 
prosecution just for claiming asylum.
    Senator Menendez. None at a port of entry? You are telling 
me none at a port of entry was separated?
    Commissioner McAleenan. Not purely for the zero tolerance 
initiative. There had to be an underlying criminal history 
element or something else in the presentation, fraud or not a 
family relationship.
    Senator Menendez. That would be the only reason they would 
have been separated?
    Commissioner McAleenan. Correct.
    Senator Menendez. Let me ask you this: one of the things 
that we keep hearing about is that DHS has repeatedly 
encouraged migrants seeking asylum first to do it in their home 
country, but if not, to do it--to cross at ports of entry and 
not in between ports of entry.
    Now we have seen pictures of Customs officers standing on 
bridges on the border in El Paso keeping migrants on the 
Mexican side of the border. And that has prompted some of those 
seeking asylum to set up camps on the bridges while they are 
waiting to make an asylum claim. Now CBP claims that no one at 
a port of entry is being denied an opportunity to make a claim 
of asylum, but that there are capacity issues. Effectively, 
asylum seekers are being turned away at ports of entry and told 
to come back later.
    How long are the wait times at the port of entry on the 
southern border to receive families who are claiming asylum?
    Commissioner McAleenan. Sure. This is something we monitor 
very carefully. We have a daily report that I receive, that our 
Executive Assistant Commissioner for Field Operations receives. 
And on any given day at our 26 international crossings at that 
southwest border, there might be 3 to 4 ports that have any 
wait time for people who want to present without documents. 
Generally, one or two of the ports in Texas will have 10 to 50 
people waiting. They will be waiting a matter of hours, 
generally processed in the same day.
    The one outlier we have is the port of entry in San Isidro, 
which is between San Diego and Tijuana, as you know, where the 
majority of people arriving seeking asylum come in. There is a 
shelter network there. There is an effort coordinated by our 
Mexican counterparts to provide people awareness on when they 
can come to the port of entry--when we have space.
    But that balance to try to make sure that people are housed 
in space where we have capacity, where it is a safe and 
appropriate environment, as well as balancing across all of the 
other missions that we have talked about, is what we are trying 
to manage.
    Senator Menendez. How many potential asylum seekers are 
waiting on the other side--have waited, have presented 
themselves formally to a port of entry, but cannot be processed 
because of capacity issues?
    Commissioner McAleenan. Border-wide or in San Isidro?
    Senator Menendez. Let us start with San Isidro. You said 
that is the biggest.
    Commissioner McAleenan. San Isidro is--the 95-plus percent 
of the folks waiting are in San Isidro. It is over 1,000 right 
now.
    Senator Menendez. Over 1,000?
    Commissioner McAleenan. Correct.
    Senator Menendez. How long have they been waiting there?
    Commissioner McAleenan. On average, 7 to 14 days is the 
current information I have.
    Senator Menendez. And what have you instructed CBP 
officials to tell individuals seeking asylum when they come to 
a port of entry, and what are you doing to accelerate the 
ability to actually take their asylum applications?
    Commissioner McAleenan. So as you know, our ability to take 
people in depends on our counterparts in the immigration system 
to pick them up after we finish processing them at the port of 
entry. So it depends on ICE capacity to pick people up who are 
in our custody. It depends on our staffing capacity.
    Just to give the committee and the people watching a sense 
of how much effort goes into this, at San Isidro, where we have 
130,000 people arriving a day, 20-plus percent of our arrivals 
on the southwest border, we take about 10 to 15 percent of our 
staff----
    Senator Menendez. Those are not asylum seekers.
    Commissioner McAleenan. No. Those are lawful travelers for 
commerce. We take about 10 to 15 percent of our staff to focus 
on those arriving without documents. And we are taking in 
anywhere from 50 to 100 a day. So it is a huge effort to 
carefully process them, to do interviews and sworn statements. 
And we are trying to balance that against that lawful travel 
and the fact that San Isidro is one of our top locations for 
illicit narcotics trying to enter the country.
    So it is a balance every day. We are trying to take in as 
many people as we can who present without documents. As you 
point out, that is the lawful, appropriate way to seek asylum 
in the U.S.
    Senator Menendez. I will submit the question for the 
record, but I would like to know what is the totality of the 
other port sites. This is the largest one, obviously, but I 
would like to know the totality.
    Commissioner McAleenan. Today there was one port with 50, 
and another with 25 waiting.
    Senator Menendez. That is it.
    Commissioner McAleenan. Correct.
    Senator Menendez. That is it. Okay.
    Thank you very much. I appreciate it.
    Senator Cornyn. Thank you, Senator. Senator Carper?
    Senator Carper. Thanks, Mr. Chairman. Welcome, 
Commissioner. It is good to see you. Thank you very much for 
your service.
    A couple of weeks ago, I believe, the Vice President was 
going to head down to Latin America. He apparently had planned 
to make a stop in, I think, Guatemala. And it ended up being a 
longer stop than was initially anticipated.
    My understanding is that he may have met with the President 
of Guatemala, maybe the President of Honduras, and maybe the 
Vice President of El Salvador. I have not heard much at all 
about that meeting.
    But as you and I know, you and I and others on this 
committee, including our co-chairs, are interested in root 
causes, not just addressing symptoms of the problems, but root 
causes.
    I have not talked to the Vice President lately to see what 
kind of takeaways did he get from the meeting, what transpired. 
Did they discuss Alliance for Prosperity? Do you have any--can 
you shed any light on that?
    Commissioner McAleenan. Certainly. I appreciate the 
question, Senator Carper. Good to see you.
    I had a chance to talk to the Vice President about some of 
these issues before his trip, how important this engagement in 
Central America is. Secretary Nielsen has been championing this 
effort as well. She actually flew down and spent that day with 
the Vice President in Guatemala and then subsequently led a 
delegation down last Friday.
    I joined her, along with a number of State Department 
officials, Ron Vitiello, the Acting Director at ICE, to meet 
with our northern triangle counterparts, foreign ministers and 
interior ministers, but also Mexico, because it has to be a 
shared effort. Canada sent a delegation as well to participate 
in those discussions.
    Senator Carper. Give us a report on those discussions.
    Commissioner McAleenan. They were robust. Obviously, there 
was discussion about U.S. immigration policy and enforcement 
efforts, but also talk about how we can collaborate together on 
getting clear messaging to potential migrants leaving the 
northern triangle.
    Their desire is to keep their youth and energy home, to 
invest in them, to create economic opportunity. So they wanted 
us to share that effort to message. We also talked, of course, 
about tackling the smuggling organizations. But very 
importantly, we had an extensive dialogue about the economic 
prosperity opportunities.
    The government of El Salvador talked about the Customs 
union that they are creating among the three northern triangle 
countries. I will be going down in September to talk about how 
CBP, ideally with Mexico----
    Senator Carper. When in September?
    Commissioner McAleenan. Mid-September right now is the date 
we are planning.
    We want to bring a package of support, both on the security 
side where we are already having vetted units--we are already 
helping them with their targeting systems. But we want to add 
that Customs element. If they could collect duties and VAT 
taxes with integrity and transparency, that would add to the 
government collections, enable them to invest in their economic 
efforts. So it has really got to be multifaceted.
    We then met with the ambassadors 4 days later, on Thursday 
to----
    Senator Carper. Do we have ambassadors in all three 
countries?
    Commissioner McAleenan. We do. Yes, CBP has staff in all 
three countries on site as attaches, as well as advisors.
    Senator Carper. We have confirmed ambassadors in all three 
countries?
    Commissioner McAleenan. I am sorry about that. I do not 
know. I think we may have a charge in one of the three.
    Senator Carper. Okay.
    Commissioner McAleenan. But we met with the ambassadors 
from the northern triangle then, that Thursday. My team met 
with them again Monday on the messaging, and we have a vice-
ministerial meeting in Tegucigalpa on the 26th.
    So the root cause effort, which has had bipartisan support 
from Congress, to invest in the Alliance for Prosperity is 
robust. It is a strong commitment from State alongside Homeland 
Security, and CBP is committed to being part of that solution.
    Senator Carper. Good. Thanks. Let us stay in touch on this. 
I have a longtime interest and very much want to stay on top of 
it. That is good. I need to get back down there soon.
    Commissioner McAleenan. Okay.
    Senator Carper. Maybe September. We will see.
    Commissioner McAleenan. All right. That would be great.
    Senator Carper. I will be your wingman.
    Commissioner McAleenan. Okay.
    Senator Carper. Just to switch gears a little bit, aside 
from root causes and addressing the root causes, give us one or 
two other appropriate measures that are on your mind, the front 
of your mind, toward reducing migration from the northern 
triangle these days.
    Commissioner McAleenan. Right. So I think we have to have 
regional efforts to align migration policies and to make sure 
that there are safety valves for those who need protections 
without putting themselves in the hands of smugglers.
    The situation we have now, with the most vulnerable people 
in our hemisphere putting themselves in the hands of the most 
violent criminal organizations in the world, is not acceptable. 
They are profiting on the backs of these vulnerable people.
    They are fighting over the territory, the access to the 
river, in a way that is absolutely devastating to the people of 
Tamaulipas, where they have had a 100-percent increase in the 
murder rate in the last 18 months, based on an organization 
just fighting for that last inch to the river where they are 
able to charge an extra $500 to everybody trying to cross into 
the U.S. illegally.
    One hundred and twenty-two politicians were killed in 
Mexico in the last election cycle--122 candidates. That is 
fueled by our drug demand and fueled by our immigration policy.
    So we need to find a way with the transition process, with 
the new government, the President-Elect, to continue our 
collaboration on targeting these networks, to partner on 
migration flows in a way that reduces the demand and keeps it 
out of the hands of these criminals.
    Senator Carper. Thanks. I would just say to our chair and 
ranking member that maybe the idea of a Senate delegation with 
just Senators whose last names start with ``C'' should go down 
to visit the northern triangle this fall.
    Senator Cornyn. On some day that ends in ``y.'' [Laughter.]
    Senator Carper's comments about ambassadors, and about 
State Department and other staffing down in Central America, I 
think are entirely appropriate. Secretary Pompeo, whom I 
happened to talk to last night, confirmed that there are a lot 
of vacancies in U.S. representatives, ambassadors, diplomatic 
representation. And if we are going to try to figure out a 
solution to this problem on a regional basis, like the 
Commissioner said, we are going to have to have our best people 
confirmed and in place.
    Perhaps that is something we can work on together, along 
with our friend from Pennsylvania, because that should not be 
about politics. That ought to be about trying to advance 
American interests and come up with solutions. So I appreciate 
you raising that issue.
    Commissioner, thank you very much for being here. There is 
so much more we could talk about. But you have been very 
patient along with the rest of our second panel. So we will 
excuse you for now, and we will look forward to staying in 
touch and trying to support your mission the best we can.
    Thank you very much.
    Commissioner McAleenan. Thank you, Mr. Chairman and Ranking 
Member. Great panel behind me here, so I will get out of the 
way.
    Senator Cornyn. Thanks to our second panel for joining us 
today and providing your perspective on our Nation's ports of 
entry. I see two good friends there from Texas. The first is 
Mr. Sergio Contreras, the vice chairman of the Border Trade 
Alliance, who also serves as president of the Rio Grande 
Valley, Texas Partnership.
    Our second witness is my friend Pete Saenz, the honorable 
Mayor of Laredo, chairman of the Texas Border Coalition. And I 
am sure he will tell us about the number of trucks and trade 
that come across the border in Laredo, TX, which I think will 
blow everybody away. They have no idea of the volume of trade 
and legitimate commerce that crosses that land border.
    Our third witness today is Mary Ann Bucci. Mary Ann is 
Executive Director of the Port of Pittsburgh Commission. That 
is in Pennsylvania, is it not?
    Ms. Bucci. It is.
    Senator Cornyn. Okay. And finally, our fourth witness is 
Mr. Kurt Nagle. Mr. Nagle is the president and CEO of the 
American Association of Port Authorities. Mr. Nagle, welcome 
here today.
    I would ask each of you to provide some brief opening 
remarks. If you would keep it to 5 minutes or less, then that 
would give us a chance to have a conversation. So, Mr. 
Contreras, you are now recognized for your opening statement.

  STATEMENT OF SERGIO CONTRERAS, VICE CHAIRMAN, BORDER TRADE 
                     ALLIANCE, WESLACO, TX

    Mr. Contreras. Mr. Chairman, Ranking Member Casey, for the 
record, my name is Sergio Contreras. I am president and CEO of 
the Rio Grande Valley Partnership, a regional chamber of 
commerce in south Texas's Rio Grande Valley. I appear before 
you, however, in my capacity as vice chairman of the Border 
Trade Alliance, an organization that for 30 years has provided 
analysis and advocacy on issues pertaining to the U.S.-Canada 
and U.S.-Mexico border regions. I appreciate the invitation to 
provide a few remarks. I have also submitted a longer written 
statement for the record.
    We applaud the members of this subcommittee for taking the 
time to delve into the issues facing our ports of entry. Nearly 
9 million U.S. jobs depend on trade with Canada. Five million 
U.S. jobs can be attributed to trade with Mexico.
    Our three nations' supply chains are deeply integrated, 
which has created a highly efficient, just-in-time 
manufacturing environment that has resulted in an enhanced 
quality of life throughout the region. Just moving goods across 
the continent was responsible for nearly 50,000 jobs in the 
trucking industry alone in 2016.
    From fresh fruits and vegetables on their way to U.S. 
grocery stores, ensuring that produce is never out of season, 
to workers, shoppers, and tourists crossing to enjoy 
attractions on the other side of the border or to visit family 
and friends, or to component parts moving back and forth before 
they become a part of a finished product, by any measure, well-
functioning ports of entry are essential to our Nation's 
economic health and security. The BTA has long supported 
additional resources for Customs and Border Protection 
personnel for technology and infrastructure improvements to 
increase legitimate trade and protect our Nation. The reason is 
simple. More resources devoted to inspecting and clearing 
legitimate freight and travelers means more resources for 
interdiction.
    Here are a few items the BTA would urge you to keep in 
mind. CBP hiring takes too long, and it has too many unfilled 
positions. In an April 2016 hearing of the Border and Maritime 
Security Subcommittee of the House Homeland Security Committee, 
CBP acknowledged the agency's 18-month hiring process proves 
challenging to its recruitment efforts.
    Encouragingly, the trend lines of hiring appear headed in 
the right direction. But there is still plenty of room for 
improvement. According to a GAO report released last month, 
thanks to improved recruiting efforts, applications to CBP for 
fiscal year 2013 to fiscal year 2017 more than tripled. And a 
larger percentage of applicants are getting hired. 
Unfortunately, however, it still took more than 300 days on 
average for CBP officer applicants to complete the hiring 
process.
    Our organization and members of both parties have supported 
reforms that would ease CBP's hiring struggles, including 
legislation that would streamline recruiting by waiving the 
existing polygraph exams for current State or local law 
enforcement officers in good standing. Approaches to 
recruitment like this are important as we seek new ways to 
attract talented, qualified individuals into CBP careers.
    Border delays are expensive, and they hurt our 
competitiveness and quality of life. There have been 
deployments of late, however, that the BTA hopes are a sign of 
positive signs to come. The BTA is very encouraged by the 
concept of unified cargo processing, known as UCP, that has 
been deployed to ports of entry along the Mexico border whereby 
U.S. and Mexican personnel work side-by-side on U.S. soil to 
conduct outbound and inbound inspections.
    UCP represents an example of making our ports of entry more 
efficient through better regulations, while ensuring security 
and increasing capacity. Aging, outmoded infrastructure is also 
a major challenge for the trade community. But the trade 
community now has a viable option to work in tandem with State 
and Federal partners to supplement staffing levels and improve 
infrastructure to support secure international trade.
    Under Reimbursable Service Agreements, local governments 
and private-sector entities can apply available funds to secure 
expanded services at their ports to facilitate trade and travel 
processing. Federal agencies must recognize that a demonstrable 
return on investment will be critical to attract private 
dollars to these programs. CBP should be prepared to 
demonstrate the financial upside for private-sector 
participation, including through increased trade throughput.
    Finally, we would recommend that the construction of new 
ports of entry should only be undertaken where trade flows 
justify new facilities. We believe that infrastructure 
improvements and new construction should be made only at those 
land ports of entry where traffic volumes make such upgrades 
absolutely necessary. New construction where traffic volumes 
are flat or declining diverts limited resources, especially 
budget dollars allocated for inspection personnel, away from 
those locations where they are needed most.
    On behalf of the Border Trade Alliance, thank you for this 
opportunity. I look forward to your questions.
    Senator Cornyn. Thank you, Mr. Contreras.
    [The prepared statement of Mr. Contreras appears in the 
appendix.]
    Senator Cornyn. Mr. Saenz?

   STATEMENT OF HON. PETE SAENZ, MAYOR, CITY OF LAREDO, AND 
          CHAIRMAN, TEXAS BORDER COALITION, AUSTIN, TX

    Mayor Saenz. Yes, thank you so much.
    Mr. Chairman, committee members, I am Pete Saenz, Mayor of 
the city of Laredo, chairman of the Texas Border Coalition, 
TBC, speaking on behalf of more than 2 million Texans in 17 
border counties of the 1,250 mile Texas-Mexico border. Thank 
you for the opportunity to speak before you today regarding the 
role border ports of entry play in our Nation's economy and its 
security, and the improvements needed to increase efficiencies 
in all such areas.
    The widening U.S. trade war with Mexico, with Canada, 
Europe, and China threatens sustained economic growth. Congress 
and the White House need to end tariff uncertainty and improve 
NAFTA, which is the North American Free Trade Agreement. NAFTA 
modernization is needed to address changes in economic climates 
and technology. But we propose that it be done in a manner that 
does no harm.
    CBP is the second-largest revenue collection agency and 
collects more than $44 billion in revenue per year for the 
Federal Government. Some of it is used at ports of entry. We 
need more money.
    The three key elements of ports of entry operations revolve 
around staffing, as you have discussed, infrastructure, and 
technology. The combination of higher volumes of goods crossing 
our ports of entry and the enhanced post-September 11, 2001 
security procedures have led to longer wait times.
    The Joint Economic Committee of the U.S. Congress finds 
that border delays cost the U.S. economy as much as $5.8 
billion each year. The fiscal year 2018 workload staff model 
and the agriculture resource allocation model show we are 
understaffed 2,516 CBP officers and 721 agriculture 
specialists. While the administration's fiscal year 2019 budget 
provides no new funding to address the CBP officer staffing 
shortage, we truly appreciate your, the Senate's, allocation of 
375 new officers.
    Also integral to the reduction of wait times is the 
continued implementation of CBP operational strategies. We 
support: (1) the dual U.S.-Mexico Federal inspection program; 
(2) the expansion of certified trusted carrier programs, to 
include pre-cleared certified mechanical truck and trailer 
inspections as well, and utilization of dedicated FAST lanes; 
and (3) increased inspection lanes and staff, and the 
installation of state-of-the-art technology at land ports and 
also Border Patrol highway checkpoints. We cannot forget about 
those, and we are also in support of interagency data sharing 
between Customs and Border Patrol highway stations to reduce 
the duplication of inspections. Roads and highways leading to 
and from border points of entry are equally important to the 
free flow of goods and services.
    We fully support innovative financing mechanisms that 
enhance public-private partnerships, including Senator Cornyn's 
and Senator Warner's proposal to improve private activity 
bonds. Thank you.
    While the donation asset program has successfully offered 
and acquired donated assets at our border crossings, the $50-
million limit set for new Federal Government-owned land ports 
of entry is a barrier and does not allow for that return on 
investment needed when considering higher-cost projects. One 
such project is the need of financing the city of Laredo I-35, 
I-69 west corridor leading to and from the World Trade Bridge 
port of entry. The total project cost is estimated to be $130 
million, of which $78 million could be and would be federally 
funded.
    In regard to border security, the Texas Border Coalition 
proposes that a one-size-fits-all barrier approach to border 
security is not the solution. CBP data suggests between 80 and 
85 percent of smuggled cocaine, heroin, methamphetamine, and 
fentanyl enters the U.S. through the ports of entry. As stated 
before, to combat the drug supply, we must increase personnel, 
technology, and infrastructure needed at the ports of entry.
    In terms of building a border wall, it is vital to consider 
the border terrain. TBC supports that a mile-by-mile test be 
conducted to determine whether a physical, or a virtual wall, 
or other tactic would be the least costly and most effective 
security solution.
    Finally, it is important to add that we support the work of 
ICE and their efforts to ensure homeland security and public 
safety. However, zero tolerance must be redefined to ensure the 
humane treatment of persons and families. We urge Congress to 
pass a permanent legislative solution protecting against a 
separation of families at the border and the indefinite 
detention of families.
    On behalf of TBC, thank you so much for the opportunity to 
contribute to these important matters. And I will answer any 
questions that you may have at the appropriate time.
    Senator Cornyn. Thank you, Mayor.
    [The prepared statement of Mayor Saenz appears in the 
appendix.]
    Senator Cornyn. Ms. Bucci?

   STATEMENT OF MARY ANN BUCCI, EXECUTIVE DIRECTOR, PORT OF 
             PITTSBURGH COMMISSION, PITTSBURGH, PA

    Ms. Bucci. Chairman Cornyn, Ranking Member Casey, and 
members of the subcommittee, I thank you for the opportunity to 
testify today. My testimony will focus on the importance of 
ports in the waterway transportation system, and their 
importance to our national economy, trade, and competitiveness.
    I am the Executive Director of the Port of Pittsburgh 
Commission, located in Pittsburgh, PA. In order to create jobs 
and improve the quality of life in southwestern Pennsylvania, 
it is the mission of the Port of Pittsburgh Commission to 
promote commercial use and development of the inland waterway-
intermodal transportation system and to integrate that system 
into an economic, recreational, environmental, and intermodal 
future for all the residents and industries in southwestern 
Pennsylvania.
    There are 12,000 miles of navigable inland and intra-
coastal waterways transporting more than 550 million tons of 
cargo valued at over $300 billion. The Port of Pittsburgh 
handled 22.5 million tons of cargo in 2016. This included 15 
million tons of coal and over 1 million tons of petroleum 
products. Another 5 million tons was comprised of sand, gravel, 
and other basic building materials. Because cargo must pass 
through several locks as it moves through our port, our locks 
are quite busy, locking through an average of 100 million tons 
of cargo or 130,000 barges.
    Beyond enabling commercial and recreational transportation, 
the inland waterways provide flood control, enable stable water 
supply for communities and industries, facilitate hydroelectric 
power, offer recreation such as fishing and water sports, 
enhance regional economic development, and secure our national 
defense. The ports and inland waterways also provide one of the 
best returns on investment. According to the Corps of 
Engineers, for every dollar expended by Corps Civil Works 
Mission projects, $16 is generated in annual net economic 
benefits to the Nation. According to the International Trade 
Administration, Pennsylvania has 176,000 jobs that are 
supported by exports, ranking 11th among all States.
    America's inland waterways system is number one in the 
world, but it is not without its challenges, as international 
competitors continue to improve their systems and facilities. 
More than half of the locks and dams on the U.S. inland 
waterways are past their 50-year design life, with most locks 
and dams built in the 1930s. In fact, Pittsburgh has some of 
the oldest locks and dams in the Nation. Our locks and dams, 
and our ports, require attention and financial recapitalization 
for operation and maintenance, dredging, and channel and harbor 
improvements to maintain reliability and sustain the Nation's 
economic well-being and standard of living.
    Currently, there are 25 high-priority inland projects 
underway or awaiting construction on the inland waterways 
system. A top priority project is the Lower Monongahela Locks 
2, 3, and 4, located in my backyard of Pittsburgh. The problem 
is that the process to construct the lock and dam projects in 3 
to 6 years--as they were built in the 1930s and 1940s--take 
decades.
    The Lower Mon project is in its 24th year of construction, 
a project that should have been completed in 20 years. Not only 
are we in the 24th year of a 10-year project, the project will 
come in under-delivered with only one reliable lock chamber 
being completed. The initial project cost was $750 million with 
an estimated completion date of 2004. The current cost is now 
$1,230,000,000 with an estimated completion date of 2022.
    For Pittsburgh and America to stay competitive in foreign 
markets, we must get back to constructing navigation projects 
in less than 5 years. The Upper Ohio Navigation Study has been 
going on for 17 years at a cost of over $19.5 million thus far. 
It is now in its third iteration of the study. Each year the 
project delay costs approximately $1.3 billion in economic 
loss. A major failure on the Upper Ohio River would shut down 
the entire port of Pittsburgh.
    New industries are coming to Pittsburgh, such as the Shell 
Chemical plant. The plant will support 600 permanent jobs and 
will utilize 6,000 construction workers. It will consume 
105,000 barrels of ethane per day and produce 1.6 million tons 
of polyethylene pellets per year.
    The waterways truly deliver for southwestern Pennsylvania, 
for the Ohio Valley, and the Nation. But the current rate of 
investment means that many priority projects will not begin 
construction within the next 20 years, as our foreign 
competitors outspend us to modernize their infrastructure to 
get ahead.
    As this subcommittee continues to consider trade and 
commerce in the United States, I urge you to appreciate the 
conduit of the inland waterways and the port system to American 
competitiveness and growth. Modernizing our ports and rivers is 
an investment in our Nation's continued economic prosperity, 
because grain, petroleum, steel, chemicals, building materials, 
and over a half-million jobs are riding on our waterway 
transportation system and through our ports.
    This concludes my testimony, Mr. Chairman. Thank you for 
providing me this opportunity to be here today and address this 
critically important subject.
    Senator Cornyn. Thank you very much.
    [The prepared statement of Ms. Bucci appears in the 
appendix.]
    Senator Cornyn. Mr. Nagle?

STATEMENT OF KURT NAGLE, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
    AMERICAN ASSOCIATION OF PORT AUTHORITIES, ALEXANDRIA, VA

    Mr. Nagle. Thank you, Mr. Chairman and Ranking Member 
Casey. Thank you for inviting the American Association of Port 
Authorities to testify at this hearing on trade and commerce at 
U.S. ports of entry. At a time when the Federal Government is 
focused on creating American jobs, propelling the economy, and 
modernizing infrastructure, the role played by the Nation's 
ports and freight transportation system is more critical than 
ever.
    U.S. ports serve as a critical link in our Nation's 
international trade. Throughout our Nation's history, seaports 
have served as vital economic engines that connect American 
farmers, manufacturers, and consumers to the global 
marketplace. They deliver critical goods to consumers, ship 
U.S. exports, create jobs, support our military, and promote 
local and national economic growth. Cargo activity at American 
seaports accounts for over 23 million American jobs, and 
accounts for over one-quarter of the U.S. economy.
    With 95 percent of the world's population and 80 percent of 
global consumption located out of the United States, sustained 
investment in modern, well-maintained seaports and connecting 
infrastructure is vital to America's prosperity and long-term 
global trade competitiveness. AAPA was pleased to hear that 
both the administration and Congress called for increased 
investment in infrastructure, followed by Congress's budget 
agreement to spend $10 billion in fiscal year 2018 and fiscal 
year 2019 on new infrastructure investments. AAPA has 
determined that the needs of the seaport industry--including 
the Great Lakes--is $66 billion over a 10-year period. That 
includes roughly $34 billion for waterside projects and roughly 
$32 billion in landside projects. There are projects where 
ports partner with the Federal Government. Our written 
testimony goes into more detail on that $66 billion dollars in 
identified need.
    The key Federal programs that support seaport 
infrastructure are the U.S. Army Corps of Engineers Navigation 
Program and the Department of Transportation's discretionary 
grant programs, including the TIGER/BUILD and INFRA programs, 
as well as the Formula Freight programs established under the 
FAST Act. DOT financing programs can also be of assistance.
    Local public seaports and their private-sector partners 
plan to invest $155 billion in infrastructure improvements over 
a 5-year period. However, these investments are reliant on the 
Federal Government doing its part by modernizing and 
maintaining the land and water-side connections to seaports to 
ensure that that cargo is able to flow efficiently and also to 
minimize congestion and impacts on the local communities. With 
Congress devoting $10 billion in funds in fiscal year 2019 for 
infrastructure improvements, we urge that Federal programs that 
support seaport projects be more adequately funded.
    Importantly, there is also an opportunity to fix a 
longstanding problem with the way we fund harbor maintenance. 
As you know, in 1986 this committee established the Harbor 
Maintenance Tax, which requires users of the system to fully 
fund its maintenance. Unfortunately, over time a sizable amount 
of this revenue has not been used for its intended purposes, 
resulting in our Federal navigation channels not being properly 
maintained as well as an inequitable distribution of those 
funds.
    Earlier this year, I am pleased to say that AAPA members 
were able to reach a historic industry agreement on a long-term 
funding solution for port maintenance that represents a 
culmination of many years of industry deliberations. I have 
attached a more detailed description of this plan to my written 
testimony, and I hope that members of this committee will be 
supportive of adopting the AAPA HMT funding solution.
    Customs and Border Protection programs are also important 
to international trade handled through seaports and have an 
impact on port efficiency. Each year, roughly 1.2 billion 
metric tons of foreign trade cargo, including more than 32 
million TEUs in containers arrive at U.S. seaports. 
Additionally, many international passengers begin and end their 
cruises at U.S. seaports.
    Two key programs for seaports are CBP inspection programs 
and design standards for Federal inspection stations at those 
ports. We urge a close look at how to improve these programs 
and also to make them more fair and responsive.
    Finally, let me end with a deep appreciation from the port 
industry to this committee on the final version of the tax bill 
that did allow private activity bonds to remain, with their tax 
benefits. These are a very important tool in funding port 
infrastructure projects. Similarly, we urge the committee to 
identify a fix to restore the authority for advance refunding 
of municipal bonds.
    Again, thank you very much for the opportunity to share the 
port industry's thoughts on these key issues today.
    Senator Cornyn. Thank you, Mr. Nagle.
    [The prepared statement of Mr. Nagle appears in the 
appendix.]
    Senator Cornyn. Mr. Contreras, let me talk to you a little 
bit about NAFTA. Mayor Saenz talked a little bit about the 
trade controversies we are having, tariffs and the like, and 
the uncertainty that that brings to our economy. What was the 
figure you mentioned? How many American jobs depend on Mexican 
trade?
    Mr. Contreras. There are currently 14 million jobs, 9 being 
with Canada, 5 being with Mexico.
    Senator Cornyn. Okay.
    I think that is an important number, because I think most 
people think that NAFTA is really more just a border issue, 
when in fact, it does affect job creation and the economy of 
the entire country.
    I know that talking to Secretary Mnuchin following his 
visit to Mexico City with Secretary Pompeo and others, he told 
me that his hope is that they can quickly consummate a 
modernization of NAFTA following the election that recently 
took place in Mexico. Now they know who is going to be in 
charge and apparently, that provides a better condition to 
hopefully consummate that here quickly. But what would be the 
impact on Texas nationally if NAFTA were terminated?
    Mr. Contreras. Mr. Chairman, thank you for the question.
    It would put at risk close to 382,000 jobs in the State of 
Texas alone. It would put at risk the trade between the U.S. 
and Mexico, which is worth more than $1 million in goods every 
minute. In addition to that, it would place at risk the 
unemployment rate in our region, the Rio Grande Valley.
    Governor Abbott recently pointed out the unemployment rate 
was close to 23 percent in our region at the time of the 
agreement of NAFTA. Currently it is close to as low as 4.5 in 
some of our cities that depend closely on international trade 
agreements.
    So there would be several factors that would impact our 
communities in a negative way.
    Senator Cornyn. So it is true that NAFTA is largely 
responsible or at least contributes to the continued economic 
growth of not only the border region, the Rio Grande Valley, 
but also to the southwest border region generally?
    Mr. Contreras. Yes, Mr. Chairman. In fact, we see 
tremendous growth when it comes to legitimate trade across from 
California all the way to Texas through the ports of entry that 
generate economic impact.
    Senator Cornyn. As far as what you see happening in Mexico 
these days, politically and economically, what would be your 
best projection or estimate of whether we will continue to see 
that trade grow or contract or be stagnant? What is your best 
guess?
    Mr. Contreras. The guess assessment would be continued 
growth. There is obviously concern with security that is 
occurring in Mexico. However, legitimate trade, we continue to 
see that.
    Also, primarily in the fresh vegetables and fruits that are 
crossing from Mexico into the United States through our ports 
of entry, we have seen two international bridges, one being in 
Pharr, another one in Arizona, continue to see increase of 
trade when it comes to produce. That is part of our dinner 
table.
    Senator Cornyn. Mayor Saenz, I know Laredo was--is it the 
largest inland port in the country?
    Mayor Saenz. Laredo is the first inland port in the entire 
country, as we call it--we are the number two port overall in 
the country, after Long Beach.
    Senator Cornyn. And how many trucks cross the U.S.-Mexico 
border at Laredo each day?
    Mayor Saenz. Well, I am told recently that it is 16,000, 
that is 8,000 going north and about 8,000 going south. So there 
is a tremendous flow of traffic and commerce that flows through 
the Laredo ports.
    Senator Cornyn. And how quickly and how efficiently that 
flows is dependent on the infrastructure you talked about and 
the staffing at the ports of entry, right?
    Mayor Saenz. Well, yes--personnel staffing and 
infrastructure, obviously, and of course, the close 
coordination that we have with our Mexican counterparts as 
well.
    See, it begins in Mexico, and we need to coordinate or 
align that flow into the United States. So this is why it is 
important to maintain good relationships with the Mexican 
counterparts as well.
    Senator Cornyn. And so far as security is concerned--and I 
know we are primarily focused on trade here and legitimate 
traffic and travel across the ports of entry. But 
unfortunately, when we were unsuccessful in achieving some 
bipartisan compromise on the DACA issue, the Deferred Action on 
Childhood Arrivals, as you probably know, there was roughly $25 
billion that would be set aside for border security. But $5 
billion of that was going to be directed toward infrastructure, 
technology, and staffing at the ports of entry.
    And it is unfortunate we were unable to achieve a 
resolution of that. But I know you know that I am well-aware of 
the challenges that you face in Laredo and the Rio Grande 
Valley on a daily basis, and we are determined not only to get 
a solution to some of our broken immigration system, but also 
to make sure that while we secure the border, we also make sure 
that we can facilitate legitimate trade and commerce across the 
border. It is the lifeblood of that region, certainly, and of 
our country.
    Let me close on one last question. How important in your 
view, Mayor, is it to improve the ports of entry from the 
standpoint of illegal drugs coming across? I think you said 75 
to 80 percent of the illegal drugs that come across come in at 
the ports of entry?
    Mayor Saenz. Data shows that it is between 80 and 85 
percent.
    Senator Cornyn. Eighty and eighty-five percent.
    Mayor Saenz. Obviously, we have two factors. We have the 
demand factor from the U.S.
    Senator Cornyn. Right.
    Mayor Saenz. And of course we have the supply factor coming 
from Mexico and other areas. But again, it goes back to the 
main points we have been trying to emphasize here--by all of us 
here--which are, if we could put more personnel for inspection, 
better technology to interdict and detect, and of course the 
infrastructure too, the proper lanes for better inspection, 
so----
    Senator Cornyn. I think that is an important point.
    Thank you for your comment about demand. Secretary Kelly, 
actually when he was General Kelly, before he became Secretary 
of Homeland Security, now of course Chief of Staff to the 
President of the United States--when I would talk to him about 
his experience with Southern Command--when he was in the Marine 
Corps, he was in charge of everything south of Mexico, Central 
America, and South America--he would constantly make the point 
to me that we were not going to solve the illegal drug problem 
until we did something about the demand side, which perhaps is 
the hardest part of all.
    But we know that the opioid crisis, which manifests itself 
in prescription drug abuse, also extends to heroin, which 
mainly comes now across the southwestern border from Mexico, as 
well as fentanyl synthetic opioids that are imported from China 
and come up through Mexico into the United States.
    So it is critical not only for commerce and trade and jobs, 
but also in terms of our ability to control the flow of illegal 
drugs in the United States, particularly the opioid crisis, for 
us to upgrade and improve our ports of entry from a technology, 
infrastructure, and as you said, from a staffing perspective.
    Senator Casey?
    Senator Casey. Mr. Chairman, thanks very much.
    I want to thank the panel for being here today and for 
testifying. I am going to start with the Pennsylvanian, Mary 
Ann Bucci.
    Mary Ann, thank you for being here. I have known Mary Ann 
for years. I know of her good work at the port of Pittsburgh, 
18 years now. And she does it all, and I am grateful that she 
is with us.
    Mary Ann, I wanted to start with the inland waterways 
system, just generally, because I sometimes think we do not 
have an appreciation for that system here in Washington. Every 
once in a while we get a good reminder both by way of the 
impact it has on the country, the impact it has, of course, on 
commerce itself, but just the volume of commerce.
    Can you give us some perspective? I know in your testimony 
you highlighted some of the data, but just by way of an example 
or some data, just give us a sense of the impact on commerce 
and what you see at the port of Pittsburgh.
    Ms. Bucci. Well, from a national standpoint, like I said in 
my testimony, it is over 550 million tons of freight on the 
inland waterways worth over $300 billion. And when you look at 
how it affects individuals or a consumer, when you transport 
goods, or when you buy a product, you are paying the 
transportation costs. Whether it is a TV or a boat or a car, 
you are paying the transportation costs of that product.
    Barge costs are about 1 to 2 cents per pound on whatever 
commodity you are shipping. Rail would run around 4 to 6 cents, 
and trucking is 10 to 15 cents. So it is a huge economic 
savings when barges are part of the equation on the end use of 
a product to consumers. It is the cheapest and most 
environmentally friendly mode of transportation. It has not 
changed much in over 100 years. It pretty much moves up and 
down the rivers the way it always did, but obviously it needs 
good infrastructure. It needs to be reliable, and we need to 
get containers on the river, is what we need to do.
    Senator Casey. Well, you and others have given me a great 
education. I want to go back in time a little bit to just back 
in 2014 where we were working on this issue here in the Senate. 
I was working with Senator Alexander from Tennessee, who 
understands it from the perspective of his State and his work.
    At the time we were trying to raise the inland waterways 
trust fund user fee by 9 cents per gallon of barge fuel, which 
would help pay for infrastructure improvements in the system.
    Senator Cornyn knows as well as I do, it is rare when a 
group of constituents from any State comes up to you and says, 
``Charge us more.'' It does not happen too often. But they were 
willing to increase that barge fee, and that gave us the 
resources. The Congressional Budget Office estimates that this 
change alone would raise something on the order of $260 
million. And I guess my question for you, Mary Ann, about this 
is, can you tell us how this change, which was, of course, 
supported by industry, has benefited the inland waterways 
system both in Pennsylvania--I would say particularly in 
Pennsylvania because of your work, and the harm that comes from 
not adequately funding the Army Corps and the trust fund?
    Ms. Bucci. Well, that goes back to--you introduced the 
RIVER Act in 2012. And the whole industry thanks you and 
Senator Alexander for getting that done, because it was a real 
turning point in moving these projects forward. So what the 
RIVER Act did was the beginning of the Water Resources Reform 
and Development Act of 2014. What that did for inland waterway 
infrastructure is, it changed the dynamics of the Olmsted cost 
sharing.
    So in any of these capital development projects, 50 percent 
is from the general fund, 50 percent is from the commercial 
barge users. And they are the only users of the river that 
actually pay additional money to be there. Once that mechanism 
happened, that allowed us to free up money, because Olmsted was 
bankrupting the trust fund. So the only project for a year that 
was being done was Olmsted. And all the other projects were 
just sitting still.
    What the barge users and the industry supporters decided 
is, really the match needed to be picked up too. And that was a 
45-percent increase they took from 20 to 29 cents. I think the 
actual figure is about $360 billion. I think every penny 
generated $9 million worth of revenue, according to the Corps 
of Engineers. And that allowed four projects to get fully and 
efficiently funded in the last 5 years since WRRDA 2014.
    Olmsted is going away, and if that mechanism, that $400 
million, is where we are at right now to keep five projects 
ongoing fully and efficiently funded, if that goes away, the 
trust fund gets between $115 and $120 million per year. That 
construction project will go down to $220 million. You are 
going to lose two projects of the five, and you are going to go 
back into that rotation of it taking decades. And in order to 
get through the 25 projects on the Capital Development Plan, it 
will take over 40 years versus trying to get through it in 20. 
So full and efficient funding is very important.
    Senator Casey. Thanks for laying all of that out.
    I wanted to--I know we have to move on. I guess the other 
part that is important to highlight with the waterways system 
is just the impact it has on the multi-modal part of our 
commerce. If you could just give us examples from the Port of 
Pittsburgh vantage point about the impact of the system on what 
some call inter-modal, and in this case it is really multi-
modal.
    Ms. Bucci. Right. And that is how we view barge, as part of 
the entire supply chain. Any of the terminals that are along 
the river systems in the Port of Pittsburgh Commission are 
connected to a rail line, whether it be the CSX, the Norfolk 
Southern, the Wheeling and Lake Erie. There is not one that 
does not have access to a rail line or a truck, because the 
water only goes to where it goes.
    And you, obviously, need to be connecting to rail and to 
truck. So where some people think we compete against rail, we 
do not. We just need to be the more economical sense of the 
whole supply chain in order to kind of reduce the costs for the 
consumer, and we are just one of three pieces.
    So that is very important. And if you look at how the 
inland waterways play an important part on a national level--
people in St. Louis are now reverting containers back into 
Baton Rouge and Memphis because it is less expensive than 
trying to railroad or truck back empty containers for 
exporting.
    Senator Casey. Mary Ann, thanks very much. I know we are 
out of time.
    Senator Cornyn. Thank you, Senator.
    One more question for Mr. Contreras and Mayor Saenz. This 
has to do with funding, which is always an issue.
    In the absence of adequate Federal funding to deal with 
ports of entry infrastructure and staffing--I know we have been 
able to work on creative pilot projects, and now the Cross 
Border Trade Enhancement Act that was signed into law in 2016 
allows the Federal Government to partner with local 
jurisdictions and stakeholders to help provide enhanced 
infrastructure and staffing.
    Mr. Contreras, would you mind sharing with us your 
experience? Certainly we do not want the Federal Government to 
foist off on local stakeholders its responsibility to deal with 
international borders. But what is your experience dealing with 
the Cross Border Trade Enhancement Act in these private-public 
partnerships?
    Mr. Contreras. Well, Mr. Chairman--and thank you for your 
leadership in those initiatives. They have provided a 
tremendous opportunity impact as a tool for our ports of entry 
to engage in such agreements which are, at this point, 
primarily used through local governments that are supported, 
such as the Hidalgo-McAllen Bridge, Laredo, as well as Pharr.
    What we encourage--and we look forward to working with the 
committee and also Congress--is identifying measuring tools 
that provide an opportunity for private business to be able to 
get a return on their investment. Currently, it is local 
governments that are investing in the program. However, we look 
forward to working with your office to be able to identify some 
of those.
    And an opportunity could be where businesses may be able to 
write down any debt that they may incur as a part of their 
donation. And this, again, is from private business.
    It is a tremendous tool for our ports of entry.
    Senator Cornyn. How about Laredo, Mayor?
    Mayor Saenz. Yes. We are very excited, as you know, 
Senator. We do have a contract--it is ongoing--where the city 
of Laredo has entertained and now is constructing a FAST lane 
through State monies--and indirectly or directly through 
Federal monies as well through the State. And of course, 
locally, $10.3 million is now being expended on a FAST lane at 
the World Trade Bridge. That, obviously, is going to be donated 
to the Federal Government as well. And that is going to 
facilitate the fluidity of commerce through the World Trade 
Bridge, which is basically the number one land port of the 
Nation.
    So it has its place. Again, I would echo the same sentiment 
here: if we could open it up, incentivize more the private 
sector to participate where they can get some return on their 
investment, I think that would be helpful. But currently it is 
public-public, cities with the Federal Government engaging in 
these arrangements.
    Senator Cornyn. So it is public-public partnerships, as you 
said.
    Mayor Saenz. Correct.
    Senator Cornyn. And it applies, of course, to air- and 
seaports.
    Mr. Nagle, does your association, your membership, have 
much experience with using this public-public or public-private 
partnership under the Cross Border Trade Enhancement Act to 
enhance seaports?
    Mr. Nagle. Well, in general, most of what our members do is 
related--in terms of infrastructure development, et cetera--is 
generally related to some level of a public-private 
partnership.
    The $155 billion that is planned to be invested, much of 
that is working with their private-sector partners that provide 
those capabilities to help identify financing and funding in 
those projects.
    Senator Cornyn. Senator Casey?
    Senator Casey. Just one quick question--I think it will be 
very quick.
    Mr. Nagle, in your testimony on page 3, I guess it is the 
third paragraph, you said--referring to Congress tripling the 
TIGER/BUILD program for fiscal year 2018, bringing it to about 
$1.5 billion, you said, ``TIGER/BUILD is a vital program for 
port infrastructure both inside the gate and to support the 
connecting road and rail infrastructure.''
    So I guess my question, and I am assuming the answer will 
be ``yes,'' is that you did not agree with Director Mulvaney 
when he proposed eliminating the TIGER program, which we now 
call BUILD in the last two budgets?
    Mr. Nagle. That is correct, sir.
    We did not, certainly, approve of the President's budget 
that included an elimination of the TIGER, now BUILD, program. 
We were very pleased that Congress did triple the level of 
funding to $1.5 billion for this year. And we are also 
supportive of the efforts that are currently underway in terms 
of fiscal year 2019 and that program. It has been an incredibly 
valuable program not only for ports, but for much in terms of 
freight transportation and moving goods into and out of our 
Nation.
    For our members, it is the only general funding source that 
is available for port-related infrastructure that is 100-
percent multi-modal and does not limit the--much of the 
projects in and around ports are multi-modal, to your question 
earlier. And the INFRA program through the FAST Act has a 
multi-modal cap that limits that availability, whereas the 
BUILD program is available for many of those projects, again, 
both inside the gate as well as the connections outside the 
gate. And we just did a study recently that identified $20 
billion in multi-modal needs in and around seaports. So the 
BUILD program is vitally important toward that effort.
    And again, I would just quickly note that, again, these are 
generally last dollars to cobble together the funding to enable 
these important projects to move forward. And then they 
complement the other investments that are being made at the 
local and the private-sector level in terms of that overall 
supply chain in and out of our ports.
    Senator Casey. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Cornyn. Well, thanks to each of you for your 
important contribution to this hearing today. I want to thank 
Senator Casey and his staff for working with us on this 
hearing. And as a reminder, the deadline for filing any 
additional questions or statements for the record will be 2 
full weeks from today.
    So at this time, the Senate Committee on Finance stands 
adjourned.
    [Whereupon, at 4:40 p.m., the hearing was concluded.]

                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


                 Prepared Statement of Mary Ann Bucci, 
           Executive Director, Port of Pittsburgh Commission
    Chairman Cornyn, Ranking Member Casey, and members of the 
subcommittee, I thank you for the opportunity to testify before you 
today on ``Trade and Commerce at U.S. Ports of Entry.'' My testimony 
will focus on the importance of ports and the inland waterways 
transportation system, and their importance to our national economy, 
trade, and competitiveness.

    I am Executive Director of the Port of Pittsburgh Commission, 
located in Pittsburgh, PA. In order to create jobs and improve the 
quality of life in southwestern Pennsylvania, it is the mission of the 
Port of Pittsburgh Commission to promote the commercial use and 
development of the inland waterway-intermodal transportation system and 
to integrate that system into the economic, recreational, 
environmental, and intermodal future for the residents and industries 
of southwestern Pennsylvania.
                        founding fathers' vision
    From the United States' founding, even before the U.S. Constitution 
was adopted, the inland waterways system was recognized as an 
invaluable natural asset. President George Washington wrote 225 years 
ago: ``Prompted by these observations, I could not help taking a more 
contemplative and extensive view of the vast inland navigation of these 
United States, from maps and the information of others; and could not 
but be struck with the immense diffusion and importance of it, and with 
the goodness of that Providence, which has dealt her favors to us so 
profuse a hand. Would to God we may have wisdom enough to improve 
them.'' Due to the bounty of our Nation's geography, we remain blessed 
with the world's preeminent inland waterways transportation and port 
system. There are 12,000 miles of navigable inland and intra-coastal 
waterways transporting more than 550 million tons of cargo valued at 
$300 billion (2016).

    The Port of Pittsburgh handled 22.5 million tons of cargo in 2016. 
This included 15 million tons of coal and over 1 million tons of 
petroleum products. Another 5 million tons was comprised of sand and 
gravel and other basic building materials. Because cargo must pass 
through several locks as it moves through the port, our locks are quite 
busy, locking through an annual average of 100 million tons of cargo or 
about 130,000 barges.

    To keep the ``building block'' commodities--agricultural and energy 
products, building materials, and over-sized cargoes such as NASA 
rocket boosters or the pre-fabricated components of a $6-billion 
ethylene cracker plant being built in western Pennsylvania--moving on 
the waterways, there are 219 locks and 176 sites on the inland system. 
These locks and dams allow users of all types--commercial and 
recreational--to navigate their transit across the system while being 
assured that the depths those users require are available.

    Beyond enabling commercial and recreational transportation, the 
inland waterways provide flood control, enable stable water supply for 
communities and industries, facilitate hydroelectric power, offer 
recreation such as fishing and water sports, enhance regional economic 
development, and secure our national defense. The ports and inland 
waterways also provide one of the best returns on investment, 
generating $10 in annual net economic benefits to the Nation for every 
$1 expended by Corps of Engineers' Civil Works Mission projects 
(source: U.S. Army Corps of Engineers). According to the International 
Trade Administration, Pennsylvania has 176,000 jobs that are supported 
by exports, ranking 11th among all States.

    America's inland waterways system is number one in the world, but 
is not without its challenges, as international competitors continue to 
improve their systems and facilities. More than half of the locks and 
dams on the U.S. inland waterways are past their 50-year design life, 
with most locks and dams built in the 1930s under The New Deal of 
President Roosevelt. In fact, Pittsburgh has some of the oldest locks 
and dams in the Nation. Some system segments, particularly older 
portions located on the Upper Mississippi, Illinois, and Tennessee 
Rivers, rely on antiquated 600-foot-long locks that are unable to 
accommodate today's standard 15-barge tows, impacting shippers' 
efficiency and competitiveness to reach the world stage.

    Our locks and dams, and our ports, require attention and financial 
recapitalization for operations and maintenance, dredging, and channel 
and harbor improvements to maintain reliability and sustain our 
Nation's economic well-being and standard of living.
                 american, pennsylvania competitiveness
    Currently, there are 25 high-priority inland projects either 
underway or awaiting construction on the inland waterways system. A top 
priority project is the Lower Monongahela Locks 2, 3, and 4, located in 
my backyard of Pittsburgh. This project will replace three nearly 100-
year old locks and dams. The problem is that the process to construct 
lock and dam projects in 3 to 6 years--as they were built in the 1930s-
1940s--today takes decades. The Lower Mon project is going on its 24th 
year of construction, a project that should have been completed in 10 
years. Not only are we in the 24th year of a 10-year project, the 
project will come in under-delivered with only one reliable lock 
chamber being completed. The initial project cost was $750,000,000, 
with an estimated completion date of 2004, and the current cost is now 
$1,230,000,000, with an estimated completion date of 2023. The 
estimated cost to complete the entire project, which includes a second 
lock chamber and a railroad bridge modification, would come in at a 
cost of $2,760,000,000 and a completion date in the year 2061. For 
Pittsburgh and America to stay competitive in foreign markets, we must 
get back to constructing navigation projects in less than 5 years. The 
Upper Ohio Navigation Study has been going on for 17 years at a cost of 
over $19.5 million thus far. It is now on its third iteration of the 
study. Each year the project is delayed costs the region $1.29 billion 
in economic loss. A major failure on the Upper Ohio River would shut 
down the entire port of Pittsburgh.

    New industries are coming to Pittsburgh, such as the Shell Chemical 
Appalachia Cracker plant. This plant will support 600 permanent jobs 
and will utilize 6,000 construction workers. It will consume 105,000 
barrels of ethane per day, and produce 1.6 million tons of polyethylene 
pellets per year.

    The waterways truly deliver for southwestern Pennsylvania, for the 
Ohio Valley region, and the Nation. But the current rate of investment 
means that many of the priority projects will not begin construction 
within the next 20 years, as our foreign competitors outspend us to 
modernize their infrastructure to get ahead.

    As this subcommittee continues to consider trade and commerce in 
the United States, I urge you to appreciate the conduit of the inland 
waterways and port system to American competitiveness and growth. 
Modernizing our ports and rivers is an investment in our Nation's 
continued economic prosperity because grain, petroleum, steel, 
chemicals, building materials, and over a half-million jobs are riding 
on our waterways transportation system and through our ports.

    This concludes my testimony, Mr. Chairman. Thank you for providing 
this opportunity to be here today to address this critically important 
subject.

Figure 1--U.S. National Defense is still a critical role of the inland 
  waterways. Shown here, military equipment transits through Kentucky 
                              Lock, 2018. 
[GRAPHIC] [TIFF OMITTED] T1818.001


  Figure 2--The M/V Big Eddie of Crosby Marine is seen at Monaca, PA 
 (Mile 27.9 of the Ohio River) on May 30 with a deck barge carrying a 
  large refiner vessel for the Shell Oil Corporation ethylene cracker 
plant under construction. Shown here are pumps used to level the barge 
  for unloading, and the heavy-duty flatbed carrier to transport the 
    equipment to the construction site. (Photo by Eric M. Johnson, 
                          Waterways Journal ) 
[GRAPHIC] [TIFF OMITTED] T1818.002

 Figure 3--Braddock Dam being floated up the Monongahela River on July 
                               26, 2001. 
[GRAPHIC] [TIFF OMITTED] T1818.003


     Figure 4--Elizabeth Lock dewatered revealing its deteriorated 
                              condition. 
[GRAPHIC] [TIFF OMITTED] T1818.004

 Figure 5--The Port of Pittsburgh is able to support growth industries 
                    such as building of new barges. 
[GRAPHIC] [TIFF OMITTED] T1818.005

   Figure 6--The Port of Pittsburgh even supports such industries as 
                      luxury river cruise lines. 
[GRAPHIC] [TIFF OMITTED] T1818.006


                                 ______
                                 
           Prepared Statement of Hon. Robert P. Casey, Jr., 
                    a U.S. Senator From Pennslvania
    I want to thank Senator Cornyn for his work and our work together 
on what has become a series of subcommittee hearings on important 
matters for our national security and our economic security. Our 
Customs officers protect both our national and economic security. A 
secure border must be a priority, and Democrats and Republicans have 
worked in a bipartisan way to secure $14 billion in funding for Customs 
and Border Protection, including $1.6 billion for border security. As 
we work to secure our borders, it's also imperative that our 
immigration laws are humane and uphold American values. The 
administration's policy of separating children from their families is 
an insult to those values and we must insist that families are 
reunited. The administration must get this done. There's no reason why 
we cannot develop a border policy that is both humane and protects our 
national security. It is also imperative that we ensure the safe and 
secure flow of commerce and have the appropriate staffing and funding 
levels to prevent unscrupulous actors and trade cheaters from profiting 
from the sale of dangerous or illicit goods.

    It has been 2 years since the enactment of the Trade Facilitation 
and Trade Enforcement Act, so called TFTEA, where we worked in a 
bipartisan way to provide Customs with new and expanded authority to 
combat child and slave labor, to protect intellectual property, and 
combat those attempting to evade out trade laws.

    Our Customs officers are on the front lines of this fight, working 
to prevent pirated goods from harming U.S. businesses, or dangerous 
fake goods from harming or even killing consumers. Our Customs officers 
are responsible for an enormous area of responsibility, from 
interdicting opioids like fentanyl, to illicit goods, adapting to an 
ever-evolving threat matrix, to our agricultural specialists who 
protect us from imported pests and disease, and ensuring countries like 
China that cheat on trade cannot circumvent our trade laws.

    But our Customs officers are under strain. Staffing shortages mean 
that officers are asked to work double shifts--16-hour days. Some are 
asked to serve 90-day tours away from their home and families at 
facilities that are short-staffed. It's impossible for this not take a 
toll on an officer's family's home life. Commissioner McAleenan, I know 
this is something that's important to you as well, and I appreciate 
that.

    Safeguarding our long-term competitiveness also means making a 
sustained and coordinated investment in our infrastructure. Trade is 
not simply about exports to the rest of the world; it's about American-
made goods flowing to destinations across our Nation. Our inland 
waterways are critical to that competitiveness.

    Our inland waterways provide an economical, environmentally 
friendly mode of transportation. From Pittsburgh to Louisville to the 
Twin Cities to St. Louis, our inland waterways are responsible for 
shipping billions in American goods throughout our Nation.

    Our inland waterway system served as an economic backbone for our 
country as we grew and expanded, connecting pioneers with the rest of 
our country, bringing goods from our landlocked States to the coast. 
This system remains the linchpin of our intermodal system. One of the 
first things you see at the port of Pittsburgh is the rail lines; they 
are truly integrated in the American supply chain, connecting 
businesses and their products to markets across the country.

    Keeping our waterway infrastructure navigable is critical to 
competitiveness for the entire Nation. To serve our growing U.S. 
markets, we must make the kind of concerted infrastructure investments 
that our parents had the good sense to provide for us. And we must 
ensure at the same time that agencies tasked with protecting our Nation 
have the funding they need to execute their jobs to the fullest.

                                 ______
                                 
                Prepared Statement of Sergio Contreras, 
                  Vice Chairman, Border Trade Alliance
    The Border Trade Alliance thanks the committee for the opportunity 
to provide this written testimony for the record and to provide oral 
testimony at the hearing on July 18, 2018.

    The BTA is committed to working with the administration and 
Congress to devise policies that ensure our ports of entry are best 
equipped to speed the passage of legitimate trade and travel, while 
preventing the entrance of contraband or individuals who would seek to 
do harm.
                       the border trade alliance
    For over 30 years, the BTA has provided a forum for analysis and 
advocacy on issues pertaining to the U.S.-Canada and U.S.-Mexico border 
regions. A network of public and private sector representatives from 
all three NAFTA nations, our organization has been involved in a number 
of important border issues, ranging from the implementation of the 
North American Free Trade Agreement, to the original organization of 
the Department of Homeland Security, to the perennial issues of 
staffing, infrastructure, and trade processes.
    ports of entry: gateways to u.s. commerce, last line of defense
    Nearly 9 million U.S. jobs depend on trade with Canada. Five 
million U.S. jobs can be attributed to trade with Mexico. Our three 
nations' supply chains are deeply integrated, which has created a 
highly efficient, just-in-time manufacturing environment that has 
resulted in an enhanced quality of life throughout the region. Just 
moving goods across the continent was responsible for nearly 50,000 
jobs in the trucking industry alone in 2016.\1\
---------------------------------------------------------------------------
    \1\ American Trucking Associations' Economics Department.

    Our ports of entry are where we see this incredible enterprise take 
place. Component parts moving back and forth before they become part of 
a finished product. Fresh fruits and vegetables on their way to U.S. 
grocery stores ensuring that produce is never out of season. Workers, 
shoppers, and tourists crossing to enjoy attractions on either side of 
the border or to visit family and friends. By any measure, well-
functioning ports of entry are essential to our Nation's economic 
---------------------------------------------------------------------------
health.

    But our ports of entry are also highly integral to our country's 
security. Without the proper resources--personnel, technology, and 
infrastructure--our ports can be exploited by smugglers or others with 
motives that run counter to the rule of law.

    The BTA has long supported additional resources for Customs and 
Border Protection personnel at the ports of entry. The reason is 
simple: more resources devoted to inspecting and clearing legitimate 
freight and travelers mean more resources for interdiction.
               ensuring our ports are adequately staffed
    The U.S.-Canada and U.S.-Mexico borders are challenging 
environments for those of us whose daily livelihoods depend on cross-
border trade. Most U.S. citizens also benefit from this trade, which 
delivers greater variety and lower prices on store shelves.

    Staffing levels by our inspection agencies, specifically Customs 
and Border Protection, are not commensurate with today's trade volumes. 
Despite funding provided previous budget agreements to hire thousands 
of new CBP officers, a large percentage of those allocated positions 
remain unfilled.

    In an April 2016 hearing of the Border and Maritime Subcommittee of 
the House Homeland Security Committee, CBP acknowledged the agency's 
18-month hiring process proves challenging to its recruitment 
efforts.\2\ Earlier this year, that same House subcommittee heard 
testimony from CBP's employee union that the agency has nearly 1,200 
open positions.\3\
---------------------------------------------------------------------------
    \2\ https://mcsally.house.gov/media-center/press-releases/us-rep-
mcsally-leads-hearing-border-infrastructure-manning-needs.
    \3\ https://federalnewsradio.com/hiring-retention/2018/01/as-trump-
debates-border-security-field-agents-decry-existing-dire-staffing-
shortages/.

    I can assure you, if those of us in the private sector took 18 
months to recruit new talent, or if we were unable to fill positions 
essential to our economic success, we would soon be facing a 
---------------------------------------------------------------------------
catastrophe.

    Encouragingly, the trendlines on hiring appear headed in the right 
direction, but it is a process that is still taking too long.

    According to a GAO report released last month, thanks to improved 
recruiting efforts, applications to CBP (Office of Field Operations, 
Border Patrol, and Air and Marine) for FY 13-FY 17 more than tripled, 
and a larger percentage of applicants are getting hired. Unfortunately, 
however, it still took more than 300 days, on average, for CBP officer 
applicants to complete the hiring process.\4\
---------------------------------------------------------------------------
    \4\ https://www.gao.gov/products/GAO-18-487.

    Our organization and members of both parties have supported reforms 
that would ease CBP's hiring struggles, including legislation that 
would streamline the recruitment process by waving the existing 
polygraph exam process for current State or local law enforcement 
officers in good standing if they have already completed a polygraph 
examination as a condition of their employment or, in the case of 
Federal law enforcement officials, if they have already completed a 
---------------------------------------------------------------------------
Tier 4 or 5 background investigation.

    Approaches to recruitment like these are important as we seek new 
ways to attract talented, qualified individuals into CBP careers with 
as few redundant, bureaucratic hurdles as possible, while still 
strengthening border security and ensuring the highest degree of 
confidence in new recruits.

    The BTA also appreciates the efforts of the chairman, who has 
pursued legislation in previous Congresses that would authorize funding 
for CBP staffing increases directed specifically to land border ports 
of entry and to infrastructure upgrades.

    The BTA recognizes that Federal budget dollars are not unlimited, 
and there are plenty of interests competing for funding attention on 
Capitol Hill. However, we believe strongly that the American taxpayer 
would be well served by Federal spending on CBP port personnel.

    The National Center for Risk and Economic Analysis of Terrorism 
Events at the University of Southern California found in 2013 that the 
addition of just one CBP officer can inject $2 million into the U.S. 
economy and create 33 jobs.\5\ Quite simply, trade means jobs. The 
private sector cannot wait until the government makes the necessary 
budget corrections to meet the market-driven demands of trade and 
commerce.
---------------------------------------------------------------------------
    \5\ http://www.cbp.gov/border-security/ports-entry/new-report-
links-cbp-officer-staffing-economic-growth.
---------------------------------------------------------------------------
                    innovative inspection processes
    Delays at the border lead to increased costs for consumers, poorer 
air quality in and around border communities due to idling trucks, and 
diminish the overall competitiveness of the U.S.-Canada and U.S.-Mexico 
regions.

    There have been developments of late, however, that the BTA hopes 
are a sign of positive things to come.
Unified Cargo Processing
    The BTA is very encouraged by the concept of unified cargo 
processing (UCP) that has been deployed at ports of entry along the 
Mexico border.

    Under UCP, U.S. and Mexican Customs personnel work side by side on 
U.S. soil to conduct outbound and inbound inspections. Each country's 
officer can make the determination as to whether to send a shipment to 
secondary inspection. Even in the case where a more invasive inspection 
is required, UCP ensures that a shipment is only unloaded once, if at 
all, rather than what exists under the legacy inspection model, whereby 
a truck could be unloaded in its country of origin and its country of 
destination.

    UCP represents an example of making our ports of entry more 
efficient through better regulations, while ensuring security and 
increasing capacity. Coupled with new technology that increases non-
intrusive cargo searches, the port of the future will deliver real 
improvements in security and freight mobility, which will expand job-
creating commerce and trade.

    In the case of the international bridge in Rio Grande City, TX, for 
example, 100 percent of northbound cargo is eligible for UCP, 
essentially doubling the bridge's importing infrastructure capacity. 
The port still maintains the ability to electronically scan 100 percent 
of cargo and share inspection images with Mexico.

    We're seeing the concept in the air environment too. At the Phoenix 
Mesa Gateway Airport outside Phoenix, UCP now allows Mexican-bound 
cargo flights to depart the airport as Mexican domestic flights because 
the cargo has already been inspected by U.S. and Mexican Customs.

    UCP represents an approach to inspections that should be the norm 
in a 21st-
century economy in the world's most consequential trade pact. It also 
reflects the incremental progress achieved in previous pilot programs 
conducted between the U.S. and Canada and the U.S. and Mexico to 
inspect cargo before it leaves its country of origin.
   border infrastructure that leads to fewer delays, less congestion
    Aging, outmoded infrastructure is also a major challenge for the 
trade community. Land border ports of entry average 40 years in age, 
many built before the North American Free Trade Agreement was even a 
consideration.\6\ As a result, their configurations are oftentimes not 
well suited to the throngs of commercial trucks they must process on a 
daily basis.
---------------------------------------------------------------------------
    \6\ http://www.bloomberg.com/news/articles/2013-05-15/border-
delays-cost-u-s-7-8-billion-as-fence-is-focus.

    The trade community's concerns over staffing levels and 
infrastructure are not mutually exclusive. Both must be addressed if we 
---------------------------------------------------------------------------
are to realize the full benefits of international trade.

    For example, Nogales, AZ's Mariposa port of entry is home to one of 
the Nation's busiest commercial ports for produce, specifically winter 
fruits and vegetables grown in Mexico.

    In order to keep pace with the Mariposa port of entry's ever-
growing trade volumes, the General Services Administration in fall 2014 
officially completed an 8-year-long $250 million reconfiguration of the 
port campus that doubled from four to eight the number of commercial 
lanes. The port was originally constructed in 1973 and was not suited 
to process the nearly 4,000 trucks that make their way through it each 
day.

    Unfortunately, the port is not reaching its full potential due to 
CBP's struggles to staff the port at full capacity during peak traffic 
periods, which leads to lane closures.\7\ As you can imagine, a 
remodeled Mariposa port of entry that is not fully operational is a 
source of frustration for the produce community and Nogales-area 
stakeholders.
---------------------------------------------------------------------------
    \7\ http://tucson.com/news/local/border/staffing-shortages-keep-
expanded-port-of-entry-partly-closed/article_6bd41f7e-6304-5d43-b259-
3dfda6daca96.html.

    Similarly, the growth in south Texas ports of entries from 
manufacturing to produce was predictable 10 years ago when Mexico 
started making significant infrastructure improvements like new 
transnational highways and the construction of the world's highest 
---------------------------------------------------------------------------
suspension bridge.

    We would encourage congressional committees with relevant 
jurisdiction, as they consider future border station construction, to 
work closely with committees with oversight over CBP staffing, Federal 
and State highway needs, Department of Transportation and State DOT 
inspection staffing issues. Better coordination will help ensure that 
precious taxpayers dollars pay dividends to our citizens and the 
businesses that drive our economy by aligning infrastructure 
expenditures with staffing expenditures.
   leveraging private-sector resources to improve border crossings: 
                              section 560
    Section 560 (and its successor, section 559) is, in many ways, part 
of the answer to the trade community's ongoing calls for a creative 
response to consistent concerns over border port infrastructure 
challenges, while also an acknowledgement that Federal budgets are 
tight and that we must fund future construction in new ways.

    Thanks to innovative thinking within the Department of Homeland 
Security, CBP, and leaders in Congress, the trade community now has a 
viable option to work in tandem with State and Federal partners to 
supplement staffing levels and improve infrastructure to support secure 
international trade.

    Under these reimbursable service agreements, local governments and 
private sector entities can apply available funds to secure expanded 
services at their POE to facilitate trade and travel processing. Under 
the agreements, CBP must exhaust its available budgeted resources 
before tapping those of its partners.

    Beginning in 2014, section 559 expanded its eligible service 
offerings to include customs, agricultural processing, border security 
services, and immigration inspection-related services at POEs. Section 
559 also opened the possibility of infrastructure improvements under a 
donation acceptance authority with CBP and the General Services 
Administration, which allows for the transfer of real or personal 
property intended for the construction of a new POE or the maintenance 
of an existing one.\8\
---------------------------------------------------------------------------
    \8\ https://www.cbp.gov/newsroom/blog/meeting-challenge-
alternative-funding-helps-cbp-serve-stakeholders.
---------------------------------------------------------------------------
             flexibility and roi: making the dap attractive
    While we applaud the Donation Acceptance Program, or DAP, between 
CBP and GSA, which allows a local government or private sector entity 
to donate real or personal property to the Federal Government, the 
Federal agencies must recognize that a demonstrable return on 
investment will be critical to attract private dollars.

    To be blunt, real estate investors and members of the international 
trade community are not charities. CBP should be prepared to 
demonstrate the financial upside for a private sector participant in 
the DAP, including increased trade throughput, whether by value of 
commodities or traffic volumes.

    The BTA has had conversations with CBP, and will continue to do so, 
regarding our belief that new mechanisms to pay off the debt on donated 
priorities must be developed in order to encourage greater 
participation in the program.
                       responding to the skeptics
    We occasionally hear from some corners that these reimbursable 
service agreements have set an unhelpful precedent by shifting to local 
governments and the private sector responsibilities that should be 
borne solely by the Federal Government as part of its obligation to 
manage the Nation's borders.

    We are sensitive to critics' arguments and, in a perfect world, 
would prefer that Federal budget allocations were able to keep pace 
with growing trade volumes. But these Reimbursable Services Agreements 
have given the trade community something it did not have before: 
choice.

    Before the law that made these agreements possible went into 
effect, we had no options to help alleviate the long backups at our 
ports and had to suffer the consequences and the loss of 
competitiveness and tax dollars. Now we have the choice to enter into a 
contract with CBP to augment the agency's services to respond to our 
most pressing needs and, hopefully, receive a strong return on that 
investment. We hope our contributions can be replaced when budgets can 
pay for federally delivered services.
                        making wise investments
    A final note about infrastructure: the BTA recommends that 
construction of new ports of entry should only be undertaken where 
trade flows justify new facilities.

    The planned construction of a new international bridge linking 
Detroit, MI and Windsor, Ontario, Canada, is an example of a new 
facility that we believe should not be a priority and is unnecessary at 
this time. Its construction would be an unwise use of budgetary 
resources that would create an ongoing financial burden for United 
States taxpayers and run counter to Congress's appropriations role.

    The BTA believes strongly that our Nation's land border 
infrastructure is central to our country's ability to maintain its 
physical security, efficiently process trade and travel, and secure its 
economic competitiveness.

    In light of finite Federal resources, and because of 
infrastructure's importance to the U.S., we also believe that 
infrastructure improvements and new construction should be made only at 
those land ports where traffic volumes make such upgrades absolutely 
necessary. New construction where traffic volumes are flat or declining 
diverts limited resources--especially budget dollars allocated for 
inspection personnel--away from those locations where they are needed 
most.

    Construction of the Gordie Howe International Bridge would prove to 
be one such resource diversion. The Ambassador Bridge, a privately 
owned bridge in the region, already is meeting the area's traffic 
needs. That bridge's owners are the midst of preparing plans for the 
construction of a new span at a cost of $400 million that will replace 
the current 90-year-old bridge. Traffic volumes in Detroit and across 
the U.S.-Canada border indicate that the $2-billion Gordie Howe is 
unnecessary at this time.

    According to data compiled by the Public Border Operators 
Association, which is comprised of representatives of border crossings 
linking Ontario with New York and Michigan, commercial truck traffic 
across the existing Ambassador Bridge fell nearly 27 percent between 
2000 and 2016, and 20 percent across the PBOA ports combined. Total 
traffic--private vehicles, commercial trucks, and buses--fell nearly 45 
percent in the same 16-year span at the Ambassador Bridge, and over 35 
percent total across all of PBOA's Michigan and New York crossings. 
This is hardly an environment that would necessitate the construction 
of a new bridge to supplement the existing bridge.

    Advocates for the construction of the Gordie Howe argue that the 
government of Canada will bear 100 percent of the bridge construction 
costs. The BTA believes, however, that the Gordie Howe project fails to 
account for the ongoing U.S.-funded resources that a new bridge would 
require.

    The Department of Homeland Security estimates that inspection 
personnel costs would be $100 million in the first year and 
approximately $50 million annually thereafter, which undercuts 
Congress's role as appropriator and could run afoul of the Anti-
Deficiency Act and other laws limiting authority to accept donations. 
U.S. taxpayers will also be responsible for ongoing maintenance costs 
and non-agency support staff.

    Committing U.S. taxpayer dollars to an ongoing expenditure should 
be the responsibility of the U.S. Congress, not a foreign government. 
Further, ongoing expenditures should be used wisely. In the case of 
international trade-facilitating infrastructure and inspections, 
resources should be aligned with real need. Such a need does not 
currently exist in the Detroit-Windsor trade corridor.

    We would encourage this committee to investigate the impact the 
Gordie Howe International Bridge's construction would have on CBP's 
ability to securely process existing cross-border trade and travel 
volumes if, as we believe, the new bridge's construction would require 
the diversion of significant ongoing investments by the U.S. Federal 
Government.

    Once again, the BTA thanks the committee for the opportunity to 
share our organization's collective insights on issues facing our ports 
of entry. Please do not hesitate to count on the BTA as a resource to 
you in the future.

                                 ______
                                 
                Prepared Statement of Hon. John Cornyn, 
                       a U.S. Senator From Texas
    Good afternoon. Thank you for being here today. The topic of 
today's hearing, ``Trade and Commerce at U.S. Ports of Entry,'' is one 
that is absolutely vital to my home State of Texas. Texas is home to 29 
air, land, and sea ports of entry, more than any other State in the 
Nation.

    Included in that list are three of the five busiest land ports of 
entry, and the number one inland port, in terms of total volume, along 
the entire U.S.-Mexico border. To further put this into perspective--
about half of all U.S.-Mexico trade moves through a Texas port of 
entry.

    I am pleased to have Kevin McAleenan with us today, the 
Commissioner of U.S. Customs and Border Protection. Commissioner 
McAleenan and the Office of Field Operations within CBP are charged 
with screening goods and travelers at these ports. We owe a great deal 
to the men and women who serve at these ports of entry day in and day 
out.

    Last year, CBP continued to experience remarkable growth in terms 
of travel and trade. Over 390 million travelers were screened at land, 
air, and sea ports, and nearly $2 trillion worth of imports were 
processed. The volume of commerce crossing our borders has tripled in 
the last 25 years.

    While this continued growth is an overall positive for our economy, 
we simply won't be able to maintain it without appropriately addressing 
staffing and infrastructure needs. While it is incumbent on the Federal 
Government to ensure that CBP has adequate resources to carry out its 
core functions, Congress must also conduct effective oversight to make 
sure they're meeting mandates, implementing GAO and OIG recommendations 
and operating with efficiency.

    It is concerning to me that as of 2017, despite congressional 
mandates to hire additional personnel, CBP still has a staffing 
shortage of 2,500 officers. The GAO continues to reiterate that this 
shortage in trade enforcement positions has led to increased wait 
times, which in some cases could result in shortened vetting processes 
and security risks.

    In addition to staffing shortages, CBP officers are forced to work 
in outdated infrastructure, creating conditions that may affect their 
ability to expedite inspections and process travelers through high-
volume ports.

    In 2015, CBP self-reported a study that revealed the need for $5 
billion to meet its infrastructure and technology requirements. At the 
border, antiquated infrastructure often leads to unnecessary delays, 
which result in an overall loss of commerce. In many instances, these 
delays are translated into costs for an entity that ultimately are 
passed on to the American consumer.

    It is critical that we make port of entry infrastructure investment 
a top priority--so that we can adequately staff and fund the ports of 
entry that make trade possible in the first place. I am proud to have 
sponsored legislation, now in law, that directly addressed this issue--
the Cross-Border Trade Enhancement Act, which codified the Reimbursable 
Services Program and the Donations Acceptance Program.

    Public-private partnerships are an effective way to give 
stakeholders and CBP the ability to make improvements at all types of 
ports, while also saving taxpayer dollars. A number of Texas ports of 
entry, particularly in the land and air space, have already seen the 
benefits that this program can provide.

    I also look forward to discussing today other initiatives currently 
undertaken by CBP to ease the burden on legitimate trade and travel. 
Programs like the Customs Trade Partnership Against Terrorism (CTPAT), 
the NEXUS/Preclearance Program, the FAST Program, and Global Entry can 
have great benefits for our national security and for the consumer and 
traveler. Further, programs like these allow CBP officers to focus on 
higher-risk goods and travelers.

    Finally, I look forward to hearing from Commissioner McAleenan on 
implementation of the Trade Facilitation and Trade Enforcement Act 
(TFTEA), which moved through this committee a couple of years ago. 
TFTEA, which officially authorized the Office of Field Operations and 
streamlined a number of trade enforcement and facilitation issues, has 
the potential to further enhance our Nation's trade policy.

                                 ______
                                 
     Prepared Statement of Hon. Kevin K. McAleenan, Commissioner, 
     Customs and Border Protection, Department of Homeland Security
                              introduction
    Chairman Cornyn, Ranking Member Casey, and distinguished members of 
the subcommittee, thank you for the opportunity to appear today to 
discuss trade and commerce at our Nation's Ports of Entry (POEs). As 
the lead U.S. Department of Homeland Security (DHS) agency for border 
security, U.S. Customs and Border Protection (CBP) works closely with 
our domestic, international, and industry partners to protect the 
Nation from a variety of dynamic threats, including those posed by 
cargo arriving at our POEs, while facilitating lawful trade and 
commerce.

    The United States experiences an immense volume of international 
trade, a critical component of our Nation's economic security and 
competitiveness. In fiscal year (FY) 2017, more than 11 million 
maritime containers arrived at our seaports, while another 10 million 
arrived by truck and three million arrived by rail at our land ports. 
In addition, more than half a billion postal and express consignment 
packages arrived through air travel. Among these were the 110 million 
express consignment carrier (ECC) shipments and 500 million 
international mail shipments that arrived in the United States in FY 
2017.

    CBP's cargo security and trade facilitation missions are mutually 
supportive: by utilizing a risk-based strategy and multilayered 
security approach, CBP can focus time and resources on those suspect 
shipments that are high-risk. With Congress's continued support of 
CBP's dedicated men and women, we will continue to keep Americans and 
our economy safe, while facilitating the ever-increasing volume of 
international trade and travel.
                         growing our workforce
    The people of CBP do the critical, sometimes dangerous, work of 
keeping Americans safe. The FY 2018 Omnibus provides $7.7 million to 
hire 328 new CBP officers. CBP officers are multi-disciplined and 
perform the full range of inspection, intelligence analysis, 
examination, and law enforcement activities relating to the arrival and 
departure of persons, conveyances, and merchandise at air, land, and 
sea POEs, including the interdiction of narcotics at POEs, in the 
international mails, and in ECC environments.

    CBP has faced challenges in the past in meeting our hiring goals. 
However, we have taken decisive action, while recognizing that much 
work remains to be done to ensure we have enough officers and agents to 
meet our needs well into the future. Over the last 2 years, more than 
40 individual improvements to CBP's hiring process have resulted in 
significant recruitment and hiring gains, despite record low 
unemployment around the United States and intense competition for 
highly qualified, mission-inspired people. With Congress's support, we 
are making investments in our capability and capacity to hire across 
all frontline positions. We are focusing our efforts to attract 
qualified candidates and expedite their progress through the CBP hiring 
process.

    CBP has embraced the use of social media, and is working to more 
effectively identify the best return on investment in digital media. 
CBP has introduced a mobile app for applicants in our hiring pipeline 
to keep them engaged during the process. CBP will also introduce an 
``applicant care'' component whereby a dedicated employee is assigned 
to an applicant to help them navigate the process. CBP is leveraging 
private-sector expertise and experience in recruiting and human 
resources to provide additional capacity.

    CBP's streamlined front-line hiring process has led to significant 
reductions in the average time to hire. In the last 12 months, close to 
60 percent of new CBP officers on-boarded in 313 days or less, with 
more than 17 percent on-boarding within 192 days. While work remains to 
be done to improve the process, the current overall CBP officer average 
of 294 days to on-board is a significant improvement from the 469-day 
overall baseline established in January 2016. This streamlined process 
has helped us to grow our workforce by reducing the number of qualified 
candidates who drop out due to either process fatigue or accepting 
timelier job offers elsewhere. CBP's background investigation time is 
approximately 90 days for a Tier 5 level investigation, which is 
required for all of CBP's law enforcement officer applicants, and 90 
percent of CBP applicants overall. This is considerably faster than the 
government average for the same level of investigation. CBP is also 
recognized as having a best practice quality assurance program, which 
other agencies regularly drawn upon.

    In addition, to improve CBP staffing at certain locations, CBP 
utilizes group incentives such as recruitment incentives for several 
hard-to-fill locations, including Raymond, Montana; Jackman/Colburn, 
Maine; and many locations across Texas, Arizona, North Dakota, and 
Southern California.

    As a result of these and other improvements, CBP's FY 2017 hiring 
totals surpassed FY 2016 totals, including an increase of 21 percent 
for CBP officers. The total number of CBP officer applicants increased 
by 89 percent between FY 2015 and FY 2017, including a 45 percent 
increase from FY 2016 to FY 2017.

    CBP recognizes how critical our trade enforcement and facilitation 
role is in protecting our Nation's economic security. We know that for 
every dollar invested in CBP trade personnel, we return $87 to the U.S. 
economy, either through lowering the costs of trade, ensuring a level 
playing field for domestic industry, or by protecting innovative 
intellectual property. We are working to ensure a fair and competitive 
trade environment where the benefits of trade compliance exceed the 
costly consequences of violating U.S. trade law. The FY 2019 Budget 
request includes $2.1 million to fund 26 positions to support CBP's 
implementation of the Trade Facilitation and Trade Enforcement Act of 
2015 (TFTEA), one of the most impactful pieces of trade legislation for 
CBP in more than a generation. TFTEA specifies new trade facilitation 
and enforcement operational requirements, organizational changes, and 
new authorities and services. TFTEA includes substantial changes to 
trade enforcement, particularly in the area of Anti-Dumping and 
Countervailing Duties; establishes processes for investigating claims 
of evasion of anti-dumping orders; enables the use of donations of 
technology from the private sector for enforcing intellectual property 
rights; and simplifies drawback processing to spur domestic 
manufacturing and exports.
                 protecting our nation and our economy
    CBP uses a multi-layered, risk-based approach to target those 
shipments deemed to be of highest risk. Once a high-risk shipment is 
identified, CBP utilizes technologies including large-scale x-ray and 
gamma-ray imaging systems, as well as a variety of portable and 
handheld technologies, canines, and radiation detection technologies at 
our land, air, and sea POEs. For CBP, technology is a force-multiplier 
that helps us work more efficiently, with less risk to our front-line 
personnel.
Centers of Excellence and Expertise
    CBP created the ten Centers of Excellence and Expertise (Centers) 
to strategically enforce customs laws while also facilitating the flow 
of legitimate trade. The Centers focus on three primary goals: 
facilitating legitimate trade through risk segmentation; improving 
trade enforcement efforts; and enhancing expertise within CBP. The 
Centers centralize and consolidate post-release activities of importers 
on an account basis. This means that they manage all entry summaries 
for an importer, where previously, these entry summaries would need to 
be processed at each POE where the cargo entered. Transforming how CBP 
processes trade increases uniformity of practices across POEs, 
facilitates the timely resolution of trade compliance issues 
nationwide, and further strengthens critical agency knowledge on key 
industry practices.

    Aligning CBP's trade approach to the industry level sets the 
foundation for understanding business decisions and incorporating that 
knowledge into the operational execution of effective and focused 
enforcement efforts. As the Centers increase their industry level 
expertise, they provide a basis for scoping out risk within their 
respective industries from a national perspective, with an approach 
that balances compliance and enforcement and reaches down to the 
commodity and account level. The national authority afforded to the 
Centers broadens CBP's capacity for identifying systemic trade 
violations and strengthening detection and intervention techniques. The 
Centers also regularly engage with the trade community to gain 
invaluable information on legitimate business practices, which can be 
used to fine-tune detections of illegitimate business practices.

    As an example of the Centers' enforcement and compliance efforts 
that level the playing field for businesses, the Pharmaceuticals, 
Health and Chemicals Center collaborated with U.S. Immigration and 
Customs Enforcement (ICE) Homeland Security Investigation (HSI), the 
U.S. Food and Drug Administration (FDA) and foreign Customs 
counterparts to stop the importation of illicit pharmaceuticals and 
medical equipment. In FY 2017, enforcement operations resulted in 
seizures of over 500 counterfeit, controlled, or FDA regulated goods, 
eliminating a significant amount of illegal pharmaceuticals from the 
supply stream. Additionally, the Base Metals Center coordinated special 
operations nationwide to target complex transshipment schemes to evade 
Anti-Dumping and Countervailing Duties resulting in over $15 million in 
recovered revenue. The Centers continue to strengthen America's 
economic competitiveness and security through integrated industry 
knowledge and expertise, innovative trade processing procedures and 
trend analysis, and strategic and impactful trade enforcement actions.
National Targeting Center (NTC)
    At CBP's NTC, advance data and access to law enforcement and 
intelligence records converge to facilitate the targeting of travelers 
and cargo that pose the highest risk to our security in all modes of 
inbound transportation. The NTC takes in large amounts of data and uses 
sophisticated targeting tools and subject matter expertise to analyze, 
assess, and segment risk at every stage in the cargo/shipment and 
travel life cycles. As the focal point of that strategy, the NTC 
leverages classified, law enforcement, commercial, and open-source 
information in unique, proactive ways to identify high-risk travelers 
and shipments at the earliest possible point prior to arrival in the 
United States.

    The NTC operates 24 hours a day, in collaboration with Federal, 
State, local, and international partners, to effectively identify, 
target, screen, and interdict inbound and outbound passengers and cargo 
across all international modes of transportation that pose a threat to 
national security, public safety, agriculture, lawful trade, and safe 
travel. The NTC also works to detect anomalies, trends, and violations 
in the global supply chain to target high-risk shipments. This high-
level analysis, as well as the development of analytical tools, helps 
CBP identify emerging threats, including those posed by transnational 
criminal organizations, and take action to counter them. Furthermore, 
CBP collaborates with the trade community on illicit trade threats by 
utilizing information received from the trade community to enhance 
targeting capabilities.

    The NTC has established the Integrated Trade Targeting Network 
(ITTN) as an integrated operational network between all CBP's trade 
targeting assets to improve communications, coordinate actions, and 
standardize procedures for more effective trade targeting. In addition 
to the ITTN, the NTC also partners with ICE-HSI on the Tactical Trade 
Targeting Unit to utilize all available trade data for further research 
to bolster trade and targeting operations related to fraud and trade 
based money laundering investigations.

    To bolster its targeting mission, the NTC collaborates with 
critical partners on a daily basis, including ICE-HSI, the Drug 
Enforcement Administration (DEA), the Federal Bureau of Investigation 
(FBI), the U.S. Postal Inspection Service (USPIS), and members of the 
Intelligence Community (IC). ICE-HSI and USPIS investigative case data 
is fused with CBP targeting information to bolster investigations 
targeting illicit narcotics smuggling and trafficking organizations. 
Moreover, the NTC works in close coordination with several pertinent 
task forces, including the Organized Crime Drug Enforcement Task Forces 
(OCDETF), the High Intensity Drug Trafficking Areas, the Joint 
Interagency Task Force-West (JIATF-W), the DHS Joint Task Force-West 
(JTF-W), and DHS Joint Task Force--Investigations (JTF-I). Effective 
targeting and interdiction prevents inadmissible high-risk passengers, 
cargo, and agriculture and bioterrorism threats from reaching U.S. 
POEs, extending our border security initiatives outward and making our 
borders not the first line of defense, but one of many.
Non-Intrusive Inspection (NII) Technology
    CBP uses NII equipment and radiation detection technologies to 
maintain robust cargo, commercial conveyance, and vehicle inspection 
regimes at our POEs. NII technologies deployed to our Nation's land, 
sea, and air POEs include large-scale x-ray and gamma-ray imaging 
systems, as well as a variety of portable and handheld technologies. 
CBP currently has 304 large-scale NII systems and over 4,500 small-
scale systems deployed to, and between, POEs. NII systems enable CBP 
officers to examine cargo conveyances such as shipping containers, 
commercial trucks, and rail cars, as well as privately owned vehicles, 
for the presence of contraband without physically opening or unloading 
them. CBP is establishing the Model Port concept as the guiding 
framework to streamline the cargo and passenger vehicle inspection 
process to increase the volume of vehicles examined. We anticipate 
completing testing and evaluation of drive-through x-ray system pilot 
programs this year. Additionally, we anticipate completing the 
technical architectural framework that will be used within the design 
for the Donna, Texas land POE through the Donations Acceptance Program 
(DAP). We will continue to adapt our deployment of NII systems so that 
we can work smarter and faster in detecting contraband, while 
expediting legitimate trade and travel.

    Scanning all arriving conveyances and containers with radiation 
detection equipment prior to release from the POE is an integral part 
of CBP's comprehensive strategy to combat nuclear and radiological 
terrorism. In partnership with the Countering Weapons of Mass 
Destruction Office's Domestic Nuclear Detection Office (DBDO), CBP has 
deployed nuclear and radiological detection equipment, including 1,280 
Radiation Portal Monitors (RPM), 3,319 Radiation Isotope Identification 
Devices, and 35,294 Personal Radiation Detectors to all 328 POEs 
nationwide. Utilizing RPMs, CBP is able to scan 100 percent of all mail 
and express consignment mail and parcels; 100 percent of all truck 
cargo; 100 percent of personally owned vehicles arriving from Canada 
and Mexico; and nearly 100 percent of all arriving sea-borne 
containerized cargo for the presence of radiological or nuclear 
materials. Since the RPM program began in 2002, CBP has scanned more 
than 1.41 billion conveyances for radiological contraband.

    CBP officers also utilize NII, as well as spectroscopic and 
chemical testing equipment and narcotics detection canines, to detect 
and presumptively identify illicit drugs, including illicit opioids, at 
international mail and express consignment carrier facilities. In 2016, 
CBP tested four handheld tools and a new reagent test kit to provide 
immediate presumptive testing for fentanyl. Based on the results of the 
pilot, the Office of Field Operations (OFO) procured 12 systems for 
further testing across San Diego, Tucson, El Paso, and Laredo Field 
Offices. Last year CBP purchased over 90 handheld analyzers for 
deployment. Handheld analyzers improve officer safety, and provides a 
near real-time capability to increase narcotic interdiction.

    Between October 1, 2003 and April 30, 2018, CBP conducted more than 
87 million NII examinations, resulting in more than 20,000 narcotics 
seizures and more than $79.2 million in currency seizures.
Automated Commercial Environment (ACE)
    We are committed to making sure that international commerce is 
secure and streamlined by continuing to invest in the Automated 
Commercial Environment (ACE). ACE is the ``Single Window'' through 
which all import and export data are reported by industry to more than 
47 partner government agencies, automating 269 different forms and 
streamlining trade processes. Built on a modernized platform, ACE has 
resulted in a 44-percent reduction in wait times for truck processing 
at land POEs and a bond processing time that is 68 times faster. With 
the strong support of Congress, in February 2018, CBP deployed the last 
of the seven major scheduled core ACE deployments, and all phases of 
cargo processing are now in ACE. Looking ahead, CBP is focused on 
sustaining all deployed ACE capabilities and ensuring ACE operates as a 
highly available and reliable system.

    In addition to funds for sustaining core ACE, CBP received $30 
million in the FY 2018 Omnibus for enabling ACE enhancements, which 
have been publicized to CBP, trade, and PGA users. These enhancements 
enable further streamlining of aspects for the trade process for both 
industry and government and also strengthen trade security. For 
example, system enhancements to enable de minimis functionality will 
provide CBP access to previously unavailable admissibility data for low 
value shipments, resulting in improved cargo processing and use of 
enforcement resources.

    CBP's strategic goals and priorities are informed, in part, by the 
Customs Commercial Operations Advisory Committee (COAC) and through 
active dialog with CBP, industry, government agency and congressional 
stakeholders. The resulting CBP trade mission agenda includes program 
initiatives for advancing trade facilitation, security and enforcement 
objectives. There is an ongoing demand for ACE capability enhancements, 
and CBP follows a governance process to prioritize funding for 
initiative automation based on evaluation criteria that account for the 
interests of the trade community, the potential to reduce burden on the 
trade community, impact to CBP users, the nexus to existing and 
emerging priorities and workload efficiency and operational improvement 
opportunities. In addition to this list of funded ACE enhancements, CBP 
is continuing to work through additional emerging requirements and 
securing funding for their development. CBP will continue to solicit 
input from the trade community on these efforts.
Looking to the Future
    CBP continues to look for more capable technologies that are more 
efficient and effective, and CBP is actively engaging with our Nation's 
best minds in and outside of government to find innovative solutions to 
the challenges facing our country. For example, a key enabler of RPM 
efficiencies in the maritime environment is employing the concept of 
remotely operated RPM lanes at select seaports. CBP, together CWMD/
DNDO, worked on a pilot throughout FY 2017 to pilot RPM remote 
operations at the seaport in Savannah, Georgia. The goal is to provide 
CBP field offices and ports with increased flexibility to reduce RPM 
operations staffing demands and redirect staff to other high priority 
mission areas where and when feasible.

    CBP is also partnering with DHS Science and Technology (S&T) to 
access emerging technologies and tools from start-ups and others. From 
innovative surveillance approaches that can provide multi-sensor data 
direct to our agents, to tools to protect our canines and blockchain 
technology to increase transparency in supply chains, CBP will continue 
to push for more efficient and effective ways to support our personnel 
and carry out our mission. For example, S&T is conducting proof of 
concepts deployments in partnership with CBP that are directly focused 
on applications of blockchain and distributed ledger technology to 
shipping, logistics, and customs by providing visibility into globally 
distributed supply chains to help facilitate the movement of legitimate 
goods while combating the distribution of counterfeit goods.
                facilitating trade through partnerships
    CBP is committed to fulfilling our complex missions, and to do 
that, we are working with our partners across the country and around 
the world. I am actively seeking to deepen our partnerships across all 
levels of government and with our international counterparts to ensure 
that information is shared quickly, resources are spent where they are 
most needed, and that the American people and economy are kept safe.
Unified Cargo Processing
    CBP and the Mexican tax service recently signed a memorandum of 
understanding on Unified Cargo Processing (UCP). UCP currently operates 
at eight POEs along the U.S.-Mexico border, with the memorandum merging 
two former cargo pre-inspection sites into UCP. UCP eliminates 
duplicative inspection efforts while reducing border wait times and 
costs for the private sector. The new arrangement looks to expand the 
process to possibly more than a dozen locations. CBP and the National 
Service for Agro-Alimentary Public Health, Safety and Quality--Mexico's 
agency responsible for inspecting incoming goods for pests and 
diseases--also signed a memorandum to enable collaboration between the 
two agencies on agriculture safeguarding, agriculture quarantine 
inspections at ports of entry, and information sharing. The memorandum 
promotes cooperation and information sharing to enable the United 
States to handle legitimate and safe shipments quickly while addressing 
those that pose a risk.
Partnerships in the International Mail and ECC Environment
    E-commerce and international mail and ECCs play an increasingly 
important role in the U.S. economy. Evolving business models, with 
increasing volumes of imports of small, just-in-time packages, have 
significantly altered the dynamic of the international trade 
environment and CBP's enforcement of trade laws, including those 
related to intellectual property rights and import safety.

    This shift in international commerce has created significant 
benefits for U.S. businesses and consumers. It has also created 
operational challenges for CBP. 
E-commerce shipments pose the same health, safety, and economic 
security risks as containerized shipments, but the volume is higher and 
growing. Over the past 5 years, CBP has seen a nearly 50-percent 
increase in express consignment shipments, and an astonishing 200-
percent increase in international mail shipments.\1\
---------------------------------------------------------------------------
    \1\ In FY 2013, CBP processed more than 76 million express bills; 
in FY 2017, CBP processed approximately 110 million bills. In FY 2013, 
CBP and the USPS processed approximately 150 million international mail 
shipments; in FY 2017, the number of international mail shipments 
swelled to over 500 million shipments.

    Rapidly increasing shipment volumes strain already limited CBP 
resources, particularly at express consignment hubs and International 
Mail Facilities (IMFs). In addition to sheer volume challenges, e-
commerce shipments often involve other risks, such as undervaluation, 
and are a higher risk for import safety or intellectual property rights 
(IPR) violations, and illegal drugs. For example, of the more than 
34,000 seizures of counterfeit and pirated goods in FY 2017, 
approximately 90 percent were in the express carrier and international 
mail environments.\2\
---------------------------------------------------------------------------
    \2\ FY 2017 IPR statistics are reported online: https://
www.cbp.gov/sites/default/files/assets/documents/2018-Apr/ipr-seizure-
stats-fy2017.pdf.

    To address the numerous complexities that have emerged from the 
growth of e-commerce, in 2016, CBP established a dedicated E-Commerce 
and Small Business Branch. CBP has been actively engaging with 
Congress, the trade community, and other domestic and international 
government agencies to find solutions to personnel and other 
operational challenges posed by the shift to e-commerce. As a result of 
the Branch's efforts, CBP finalized an e-commerce strategy that focuses 
on adapting CBP's workforce staffing models and operations to implement 
a more agile and effective enforcement of e-commerce shipments, 
creating better compliance through new incentives and measures, and 
educating and engaging all our stakeholders to facilitate lawful e-
commerce opportunities and address threats. The strategy will 
strengthen CBP's ability to protect U.S. consumers, improve targeting 
and management of threats in the e-commerce environment, maximize trade 
revenue collection, increase international mail enforcement, and create 
---------------------------------------------------------------------------
stronger partnerships here and abroad.

    With the support of Congress, CBP has made significant investments 
in and improvements to our drug detection and interdiction technology 
and targeting capabilities in the international mail and ECC 
environments. CBP receives advance electronic data (AED) on over 40 
percent of all international mail shipments with goods. An increasing 
number of foreign postal operators provide AED to the U.S. Postal 
Service (USPS), which is then passed on to CBP to target high-risk 
shipments.

    CBP, in close coordination with USPS and U.S. Food and Drug 
Administration, provided technical assistance on the ``Synthetics 
Trafficking and Overdose Prevention (STOP) Act'', which were largely 
incorporated into H.R. 5788, the ``Securing the International Mail 
Against Opioids Act of 2018,'' which the House passed on June 14th.

    This legislation seeks to address these challenges in a multi-phase 
process which emphasizes risk-assessment, technology, and collaboration 
across the Federal government and with our international partners. We 
support efforts to expand the ability of USPS to greatly increase the 
availability of AED (which is the foundation of a sound targeting 
mechanism) for international mail, to develop new scanning technology, 
and to collect fees to help cover the cost of customs processing of 
certain inbound mail items.

    CBP and USPS now have an operational AED targeting program at five 
of our main International Mail Facilities (IMF) with plans for further 
expansion. USPS is responsible for locating the shipments and 
delivering them to CBP for examination. Thus far in FY 2018, CBP has 
interdicted 186 shipments of fentanyl at the John F. Kennedy 
International Airport (JFK) IMF, a participant in the AED program. One 
hundred and twenty-five of those interdictions can be attributed to AED 
targeting. CBP and USPS continue to work with foreign postal operators 
to highlight the benefits of transmitting AED.
Preclearance
    First established in Toronto, Canada in 1952, preclearance has 
since expanded to operations in 15 airport locations and one land 
border ferry operation in six countries, which include Aruba, the 
Bahamas, Bermuda, Canada, Ireland, and the United Arab Emirates. 
Staffing consists of more than 600 CBP Officer and Agriculture 
Specialist positions. Preclearance supports DHS's extended border 
strategy and CBP's layered border strategy by preventing terrorists, 
criminals, and other national security threats from boarding commercial 
aircraft bound for the United States, as well as protecting U.S. 
agricultural infrastructure from invasion by foreign pests, disease, 
and global outbreaks. CBP intends to match the speed at which host 
countries and airports are willing to move forward with negotiations 
and airport designs, and we look forward to working with our partners 
to expand this program.
Private-Sector Partnerships
    An essential component of CBP's trade facilitation operations is 
our close and effective collaboration with our private industry 
partners. For example, CBP works with the trade community through the 
Customs Trade Partnership Against Terrorism (CTPAT) program, which is a 
public-private partnership program wherein members of the trade 
community volunteer to adopt tighter security measures throughout their 
international supply chains in exchange for enhanced trade 
facilitation, such as expedited processing. CTPAT membership has 
rigorous security criteria and requires extensive vetting and on-site 
visits of domestic and foreign facilities. This program has enabled CBP 
to leverage private sector resources to enhance supply chain security 
and integrity while facilitating legitimate trade.

    CTPAT membership has grown from just seven companies in 2001 to 
more than 11,000 certified partners today, accounting for more than 54 
percent by value of goods imported into the United States. The CTPAT 
program continues to expand and evolve as CBP works with foreign 
partners to establish bilateral mutual recognition of respective CTPAT-
like programs. Mutual recognition as a concept is reflected in the 
World Customs Organization's Framework of Standards to Secure and 
Facilitate Global Trade, a strategy designed with the support of the 
United States, which enables customs administrations to work together 
to improve their capabilities to detect high-risk consignments and 
expedite the movement of legitimate cargo. These arrangements create a 
unified and sustainable security posture that can assist in securing 
and facilitating global cargo trade while promoting end-to-end supply 
chain security. CBP currently has signed Mutual Recognition 
Arrangements with New Zealand, the European Union, South Korea, Japan, 
Jordan, Canada, Taiwan, Israel, Mexico, Singapore, and the Dominican 
Republic and is continuing to work towards similar recognition with 
China, Brazil, Peru, Uruguay, Australia, and India.

    CTPAT is also transitioning the Importer Self-Assessment program 
into CTPAT Trade Compliance, thus aligning with the World Customs 
Organization Authorized Economic Operator model. This effort includes 
the extensive development of new benefits. New benefits include AQUA 
lane, an expedited clearance system for CTPAT sea carriers. AQUA lane 
allows CTPAT terminal port operators that qualify under a set of 
predetermined mandates to immediately unlade their cargo upon arrival 
in the United States. CBP is currently piloting advanced unlading at 20 
seaports; in FY 2018, the trade community requested advanced unlading 
nearly 10,000 times. CBP granted permission at a rate of almost 80 
percent. Other benefits under development include Importer of Record 
identity theft monitoring, known as CTPAT Defender. CTPAT Defender will 
provide a level of protection for our trusted partners.

    CBP has also been re-engineering our operations in collaboration 
with the Port of Los Angeles's Trans Pacific Container Service 
Corporation (TraPac). The TraPac terminal in the Port of Los Angeles 
has invested in technology and infrastructure to upgrade the terminal 
to an automated terminal environment that supports both the targeted 
NII x-ray/gamma-ray imaging of targeted commerce, and the 100 percent 
mandated radiation scanning of all incoming commodities at the TraPac 
terminal. In a joint effort, TraPac, DNDO, and CBP developed a new and 
innovative method for automated radiation scanning of inbound 
containers in the terminal's intermodal rail yard. Since December 2016, 
the terminal's automated conveyor systems transport inbound containers 
through CBP RPMs before the containers are loaded onto railcars.

    Similar to TraPac, through a public-private partnership agreement, 
CBP and DNDO continue to work with the Northwest Seaport Alliance to 
employ a straddle carrier portal at the Pierce County Terminal in 
Tacoma, WA. The straddle carrier portal will provide a fixed portal 
radiation scanning capability that will require fewer CBP personnel to 
conduct radiation scanning of cargo containers and will allow the port 
to regain some of its operational footprint and more quickly process 
cargo destined for rail transportation.
                             infrastructure
    CBP supports a vast and diverse real property portfolio, consisting 
of more than 4,300 owned and leased buildings, over 28 million square 
feet of facility space, and approximately 4,600 acres of land 
throughout the United States. Effective and efficient POE 
infrastructure is critical to CBP's mission to secure and facilitate 
lawful trade and travel.
Land Border Ports of Entry Modernization
    Of the Nation's 328 official POEs, 110 are land POEs responsible 
for operating 167 separate crossings along our borders with Mexico and 
Canada. Most of the land POE inspection facilities were not designed to 
meet the post-9/11 security and operational missions of CBP. Rather, 
they were built to support the distinct operations of legacy DHS 
components, such as the U.S. Customs Service, the Animal and Plant 
Health Inspection Service of the U.S. Department of Agriculture, and 
the U.S. Immigration and Naturalization Service.

    Today, CBP's operations entail sophisticated targeting and 
communication systems, state-of-the-art detection technology, and a 
cadre of professional law enforcement personnel to identify, screen, 
and inspect high-risk persons and cargo and maintain an efficient 
stream of cross-border travel and trade. However, the success of our 
operational strategy depends heavily on the condition and operational 
utility of the inspection facilities and the availability of CBP 
personnel. Several land POEs were built more than 70 years ago and 
require renovation or replacement to meet present-day operational and 
security standards. Many constructed as recently as 15 to 20 years ago 
also require significant modernization to address growing demands for 
additional processing capacity, new security requirements and 
enforcement technologies, and the need to maximize the efficiency of 
existing personnel and resources. To construct and sustain these land 
POE inspection facilities, CBP works in close partnership with the 
General Services Administration (GSA), which manages the majority of 
the land POE facilities.

    GSA, in coordination with CBP, continues to construct and modernize 
land POEs along the northern and southern borders, and to complete 
additional enhancement and expansion projects. Thanks to the funding 
provided in the FY 2018 Omnibus, CBP is working with GSA to ensure that 
our priority requirements in locations including Otay Mesa, CA and 
Alexandria Bay, NY receive much-needed updates.\3\ In Texas, the two 
large-scale modernization projects are Laredo I and II. Laredo Bridge I 
was completed in April, and pedestrian, bicycle, and POV traffic 
resumed at this crossing on April 20, 2018. Laredo Bridge II is on 
track for completion in December 2018. We look forward to working with 
GSA and Congress to ensure that our physical infrastructure meets CBP's 
needs now and in the future, such as the planned Phase II construction 
of the Calexico West land port of entry in California.
---------------------------------------------------------------------------
    \3\ Alexandria Bay, NY; Lewiston Bridge, NY; San Luis I, AZ; Otay 
Mesa, CA; Blaine, WA have been identified as priority requirements to 
be funded from the proposed $14.8 million.

    A key aspect of CBP's three-pronged Resource Optimization Strategy 
is the exploration of partnering with public-private sector through 
such activities as reimbursement and potential acceptance of donations. 
Thanks to the support of Congress, CBP received authority to enter into 
agreements under section 560 of division D of the Consolidated and 
Further Continuing Appropriations Act, 2013, Pub. L. No. 113-6 (section 
560); section 559 of title V division F of the Consolidated 
Appropriations Act, 2014, Pub. L. No. 113-76 (section 559); and section 
550 of the Consolidated Appropriations Act of 2016, Pub. L. No. 114-53, 
and more recently under sections 481 and 482 of the Homeland Security 
Act, 2002, as amended by the Cross-Border Trade Enhancement Act, 2016 
---------------------------------------------------------------------------
(codified at 6 U.S.C. Sec. Sec. 301 et seq.).

    Under section 560, CBP received authority allowing the Commissioner 
to enter into no more than five agreements, under certain conditions, 
to provide new or enhanced services on a reimbursable basis at U.S. 
POEs. CBP implemented this authority, entering into agreement with the 
participating locations \4\ before the December 31, 2013 statutory 
deadline. In January 2014, CBP received additional authority under 
section 559, which authorized CBP to enter into partnerships with 
private sector and government entities at POEs to reimburse the costs 
of certain CBP services and to accept donations of real and personal 
property (including monetary donations) and non-personal services. 
Sections 481 and 482 supplanted section 559 while making permanent 
CBP's donation acceptance and reimbursable services authorities in 
addition to removing the annual statutory limit on the number of air 
reimbursable services agreements. This allows for small air POEs with 
fewer than 100,000 international passenger arrivals annually to 
compensate CBP for the salaries and expenses of up to five CBP officers 
and authorizing the Commissioner to determine if advanced payment is 
warranted to enter into an agreement in place of cost reimbursement.
---------------------------------------------------------------------------
    \4\ The section 560 participating partners are the Dallas/Fort 
Worth International Airport Board, the city of El Paso, Miami-Dade 
County, the city of Houston/Houston Airport System, and the South Texas 
Assets Consortium.

    Each provision responds to CBP's efforts to find innovative 
approaches to meet the growing demand for new and expanded facilities 
and, in particular, the ongoing modernization needs of CBP's land POE 
portfolio.
Reimbursable Services Agreements
    Section 481 expands CBP's authority to enter into Reimbursable 
Services Agreements (RSAs) similar to the FY 2013 ``section 560'' 
authority and FY 2014 ``section 559'' authority. This authority allows 
CBP to support requests for expanded services, including customs, 
agricultural processing, border security services, and immigration 
inspection-related services at U.S. POEs or any facility in which CBP 
provides or will provide services; salaries for additional staff; and 
CBP's payment of overtime expenses at airports. There is no limit on 
the number of agreements CBP can enter into at POEs or facilities. 
However, at airports with fewer than 100,000 arriving international 
passengers annually, section 481 only expanded the authority to permit 
CBP to be reimbursed for the salaries and benefits of no more than five 
full-time equivalent CBP officers beyond the number of such officers 
currently assigned. These provisions will allow CBP to increase the 
impact of this program to additional stakeholders and the traveling 
public. Additionally, the law stipulates that agreements may not unduly 
and permanently impact existing services funded by other sources.

    CBP evaluates each RSA proposal based on a single set of objective 
and carefully vetted criteria to ensure that final recommendations will 
be most beneficial to CBP, to the requesting parties, and to the 
surrounding communities. The main factors of consideration include the 
impact on CBP operations; funding reliability; community and industry 
concerns; health and safety issues; local/regional economic benefits; 
and feasibility of program use.

    RSAs enable stakeholders to identify enhanced services needed to 
facilitate growing volumes of trade and travel at specific POEs, and 
enable CBP to receive reimbursement so that we can fulfill those 
requirements. The section 481 authority provides stakeholders and CBP 
the flexibility to meet situational or future demand for extended or 
enhanced services to secure and facilitate the flow of trade and travel 
at participating ports. At land POEs, this authority enables CBP to 
open and staff additional lanes or provide services for extended hours 
to reduce wait times and expedite commercial and personal traffic. At 
airports, RSAs enable CBP to staff additional booths on an overtime 
basis during peak hours. At seaports, RSAs enable CBP to provide 
additional processing of cruise passengers and commercial cargo, 
furthering the facilitation of travel and trade.

    In the first 5 years of the program, CBP will have entered into 
agreements with 149 stakeholders, providing more than 483,000 
additional processing hours at the request of our partners--accounting 
for the processing of more than 10.2 million travelers and nearly 1.43 
million personal and commercial vehicles. The program continues to 
expand as new agreements are signed every year, as authorized by the 
section 481 legislation.\5\
---------------------------------------------------------------------------
    \5\ A full list of current participants is available at http://
www.cbp.gov/RSP.
---------------------------------------------------------------------------
Donation Acceptance Authority
    Section 482, the Donation Acceptance Authority, authorizes CBP and 
GSA to accept donations of real property, personal property, including 
monetary donations, and non-personal services from public and private 
sector entities for OFO activities at certain ports of entry. Accepted 
donations may be used in support of POE construction, alterations, 
operations, or maintenance-related activities, including but not 
limited to: land acquisition, design, and the deployment of equipment 
and technologies. These donations are expected to reduce border wait 
times, support increased traffic flow and volume, create jobs, and 
address critical operational and regional border master plan 
infrastructure and technology priorities across the United States.

    Since standing up in FY 2015, the CBP Donation Acceptance Program 
(DAP), which oversees implementation of section 482, has approved 22 
donation proposals, totaling approximately $206 million in planned and 
realized improvements in U.S. POE and important CBP initiatives. Of the 
22 donation proposals approved to date, 13 entail small to large-scale 
improvements to the land POE infrastructure, primarily along the U.S. 
southern border. These infrastructure improvements, some of which 
entail state of the art inspection technologies and joint binational 
processing enhancements, have and will continue to lend themselves to a 
more secure, reliable, and efficient cross-border transportation 
network.

    The DAP continues to grow and mature, as has its ability to 
explore, foster, and facilitate partnerships in support of non-
infrastructure initiatives, including luggage for canine training 
purposes and the provision of passenger biometrics services and data at 
major air POEs.

    In sum, CBP is implementing business improvements, thoroughly and 
systematically analyzing POE infrastructure needs and exploring 
alternative sources of funding to bridge current and anticipated 
mission resource gaps. Both the Reimbursable Services Authority and the 
Donation Acceptance Authority enable CBP to build effective 
partnerships with stakeholders to address the port requirements 
necessary to support growing volumes of travel and trade.
                               conclusion
    International commerce is dynamic and requires continual adaptation 
to respond to emerging threats and rapidly changing conditions. I am 
proud of CBP's dedicated workforce, which continues to meet these 
challenges with integrity and commitment. With the ongoing support of 
Congress, CBP will continue to protect the people and economy of the 
United States while facilitating legitimate trade and travel. Chairman 
Cornyn, Ranking Member Casey, and distinguished members of the 
subcommittee, thank you for the opportunity to appear today.

                                 ______
                                 
     Questions Submitted for the Record to Hon. Kevin K. McAleenan
                Questions Submitted by Hon. John Cornyn
         donations acceptance and reimbursable services program
    Question. While the Donations Acceptance Program and the 
Reimbursable Services Program are valuable tools for CBP/DHS to address 
staffing and infrastructure needs, I am concerned, based on feedback 
from my constituents, that the programs could be overused as a way for 
CBP to avoid contributing its share to needed projects, especially ones 
it can afford and where there is a Federal appropriation.

    Do you share this concern, and if so, how can we ensure we are 
striking a strong balance?

    Answer. The Donations Acceptance Program (DAP), while a viable and 
effective alternative to Federal appropriations, has not replaced or 
negated the agency's process for prioritizing and budgeting for 
critical infrastructure needs. Rather, the DAP is a mechanism through 
which to invest in and expedite port of entry improvements that may 
otherwise remain unfunded or underfunded. The DAP has not yet approved 
a proposed partnership project that was to be imminently funded using 
Federal appropriations or for which Federal funding was on the horizon.

    The Reimbursable Services Program (RSP) provides an alternative 
source of funding for services beyond CBP's appropriated budget and 
allows our partners to target where they desire CBP to provide 
additional services. Entering into an agreement under the RSP is at the 
discretion of the interested party. Requests for services under the RSP 
are voluntary, and there is no minimum number of requests required to 
maintain a stakeholder agreement. Under section 481 of the Homeland 
Security Act, 2002, CBP is statutorily prohibited from shifting the 
cost of services funded in any appropriations Act to RSP stakeholders 
and from entering into a fee agreement if such agreement would unduly 
and permanently impact services funded in any appropriations act.
                    facilitating trade and commerce
    Question. At the end of 2016, my bill, the Cross-Border Trade 
Enhancement Act, was signed into law. This legislation was the product 
of multiple years of work to expand a very successful pilot program 
that allows for public-private partnerships at land, air and sea ports 
of entry. I have been very pleased to see the widespread interest on 
both sides in expanding its application.

    What more can Congress and other Federal agencies, such as the 
Department of Transportation and the General Services Administration, 
do to assist CBP in the Donations Acceptance Program and Reimbursable 
Services Programs specifically and to facilitate trade and commerce at 
U.S. ports more generally?

    Answer. CBP appreciates the expansion of its pilot program DAP 
authorities, which have and continue to be used successfully to partner 
on infrastructure improvements, the provision of canine enforcement 
training aids, product authentication tools in support of CBP's 
intellectual property rights enforcement efforts, and more.

    The Reimbursable Services Program (RSP) is currently subject to 
overlapping congressional reporting requirements. Responding to these 
reporting requirements draws CBP resources that could be allocated to 
interfacing with interested parties and expanding and enhancing the 
program. The RSP is subject to submitting or contributing to three 
similar annual reports to Congress.

    Section 907 of the Trade Facilitation and Trade Enforcement Act, 
2015 requires CBP to report to Congress within 1 year after entering 
into fee agreements for the provision of certain CBP services, and 
annually thereafter. This report requires specifics on the development 
of the program, the entities with which CBP has entered into 
agreements, the amounts reimbursed, the economic and security benefits 
of the program, the services provided by CBP, the amount of fees 
collected under the agreement, the program's operating expenses, a 
detailed accounting of fee usage and spending, a summary of complaints 
and criticisms of the program, the compliance of the stakeholders, 
recommendations for more effective use of the program, a summary of the 
benefits and challenges faced by CBP and the stakeholder, and, in the 
case of airports, a detailed account of revenue collected by CBP 
compared to CBP operating costs at airports.

    Section 481 (k)(1) of the Homeland Security Act 2002, requires CBP 
to submit an annual report identifying program activities undertaken 
and agreements entered into pursuant to the reimbursable services 
authority provided to CBP in section 481.

    Section 482 (d) of the Homeland Security Act, 2002, requires the 
Comptroller General of the United States to submit an annual report to 
Congress on the fee agreements entered into pursuant to section 481. 
CBP works closely with the U.S. Government Accountability Office in the 
development of this report.

    CBP understands the importance of these reports. However, we would 
ask that consideration be given to streamlining overlapping and 
redundant requests for information, so that CBP can maximize program 
resources.

    Congressional support for the RSP has been key to program growth. 
Continued program backing by Congress will allow CBP to ensure access 
to program benefits is available to interested parties at ports of 
entry and facilities alike moving forward.
              facilitating trade and commerce through dap
    Question. I would like to commend CBP for their willingness to 
partner with 
private-sector entities and State and local jurisdictions to address 
infrastructure and staffing needs. I understand that in Texas, the 
Anzalduas Bridge Board has submitted a proposal to partner on its 
expansion plan for the Anzalduas Bridge so that it has the necessary 
facilities to screen commercial traffic. This plan will help ensure 
that the Anzalduas Bridge remains a direct, safe, and efficient route 
between the Rio Grande Valley and Mexican cities such as Monterrey and 
Mexico City. As you know, this partnership is made possible through the 
Donations Acceptance Program.

    In your experience, how important is this program to facilitating 
trade and commerce at U.S. ports of entry?

    Answer. CBP has identified a capital-funding shortfall in order to 
fully modernize the Federal land port of entry portfolio. The Donations 
Acceptance Program remains a viable and effective tool through which to 
invest in and expedite port of entry improvements that would otherwise 
remain unfunded, potentially for years. CBP and GSA are in receipt of 
the Anzalduas Bridge Board's latest proposal and has been working with 
the Bridge Board to support and advance expansion of commercial 
screening at the McAllen Anzalduas land port of entry as expansion of 
commercial activities increases.
                        decision-making process
    Question. Projects that have been approved by CBP to participate in 
the Donations Acceptance Program (DAP) currently must seek approval 
from GSA, in addition to CBP. While this is understandable, it also 
serves as a delay to the process and in some cases has become a 
critical hindrance in lining up private-sector partners.

    Is there a way to centralize the decision-making process of 
projects under the Donations Acceptance Program for the agencies 
involved, giving full decision-making authority to CBP directly? Would 
legislation in this area be helpful to streamline the process?

    Answer. To date, CBP, with the help of GSA, has made considerable 
strides towards streamlining and making more agile its processes and 
timeframes for receiving, evaluating, and determining proposal 
viability. GSA's continued role in DAP-related decisions is an 
important one given that most, if not all, infrastructure-
related proposals submitted for consideration impact facilities and/or 
real estate that are under the custody and control of GSA and occupied 
by CBP.
                             missing drugs
    Question. Since the beginning of FY 2018, OFO has seized 41,445 
pounds of cocaine, 3,782 pounds of heroin, 228,782 pounds of marijuana, 
and 52,613 pounds of meth. Most concerning, OFO also seized over 1,165 
pounds of the synthetic opioid fentanyl. We all know that only a few 
milligrams of fentanyl is deadly, so the fact that the cartels and 
transnational criminal organizations are trying to smuggle in such 
large quantities should be alarming to all.

    Am I correct in saying that we are probably missing far massive 
quantities of drugs coming into the United States because you don't 
have the number of officers necessary to conduct all inspections 
necessary to detect the drugs?

    Answer. CBP uses its Workload Staffing Model (WSM) to analyze and 
provide recommendations for changes to CBP officer (CBPO) staffing 
requirements. The WSM is a decision support tool that calculates 
recommended staffing levels for each port of entry based on current and 
projected enforcement and facilitation workload, including recognizing 
emerging threats. CBP assesses threats through a risk-based strategy 
and multilayered security approach, and aligns resources to meet its 
mission and ensure that threats are mitigated. As CBP continues to fill 
current funded staffing vacancies, it will be able to dedicate 
additional officers to drug enforcement activities. CBP also continues 
to aggressively pursue new Business Transformation Initiatives to 
reduce administrative burden and allow CBP officers to focus on 
enforcement activities. By automating forms collection, streamlining 
current processes and deployment of new technology, CBP expects to save 
an additional 500,000 inspection hours through FY 2019, which equates 
to 400 full time CBP officer equivalents.

    CBP's Office of Field Operations, which has primary responsibility 
at the ports of entry, has never wavered in the priorities of its 
mission: (1) counterterrorism; (2) counter-narcotics, including 
fentanyl and opioids; (3) safeguarding our Nation's economic future; 
(4) facilitating lawful trade and travel, and (5) migrant processing. 
CBP's Office of Field Operations remains focused on our national 
security while protecting our country, our communities and neighbors. 
CBP works continuously to improve processes and transform the way it 
does business. In addition, CBP works to balance competing priorities 
maintaining frontline and trade and revenue personnel versus sustaining 
programs and investments that act as force multipliers. CBP is also 
self-critical and develops business transformation initiatives that 
streamline processes and identify efficiencies that save man-hours and 
return CBP Officers to front-line duties. This allows CBP to fulfill 
its mandatory and non-discretionary missions in the most effective and 
efficient manner possible. CBP remains committed to working with 
Congress to manage resources as efficiently as possible to best enable 
mission success at and between the ports of entry.
                            demand reduction
    Question. Over half of the 64,000 overdose deaths caused by opioids 
in 2016 were the result of heroin and illicitly manufactured synthetic 
opioids, not prescription drugs. These drugs are coming into the United 
States through the southern border and transnational criminal 
organizations will stop at nothing to exploit those struggling with 
substance use disorders.

    Can you outline what demand reduction strategies CBP is engaged in 
with regards to heroin and synthetic opioids?

    Answer. As America's front-line border security agency, CBP is 
uniquely responsible--and uniquely positioned--for disrupting the 
influx of narcotics. CBP leverages targeting and intelligence-driven 
strategies, and works in close coordination with our partners as part 
of our multi-layered, risk-based approach to enhancing the security of 
our borders and our country. We are fully committed to disrupting the 
illicit opioid supply chain and utilizing a broad strategy to combat 
opioids with four primary goals: (1) enhance collaboration and 
information sharing; (2) produce actionable intelligence; (3) target 
the opioid supply chain; and (4) protect CBP personnel from exposure to 
opioids.

    Question. What additional resources would strengthen CBP's ability 
to halt the flow of these drugs?

    Answer. With continued support from Congress, CBP, in coordination 
with our partners, will continue to refine and further enhance the 
effectiveness of our detection and interdiction capabilities to combat 
transnational threats and the entry of illegal drugs into the United 
States. Your continued support of CBP's current efforts to identify new 
and innovative technology to aid in the layered enforcement strategy 
efforts, including safety measures for frontline personnel and 
procurement of additional chemical screening, detection, and 
identification instruments, will be instrumental in the fight against 
this threat.

    In addition, to enhance our ability to interdict this threat across 
the southern land border, CBP is establishing the Model Port concept as 
a guiding framework to streamline the cargo and passenger vehicle 
inspection process to increase the volume of vehicles examined. CBP is 
actively working with DHS S&T and technology vendors to assess 
capabilities of drive-through Non-Intrusive Inspection (NII) systems in 
these environments. The goal of these technology assessments/pilots is 
to determine the feasibility of reducing scanning time to increase 
throughput.
                               oig report
    Question. A recent 2017 DHS Inspector General report found that 
CBP's IT systems and infrastructure were not supporting its objective 
of preventing unauthorized persons from entering the country. The 
report stated: ``The slow performance of critical pre-screening systems 
greatly reduced OFO's ability to identify passengers who may represent 
concerns and/or national security threats.''

    What steps are being taken by CBP to alleviate and address the 
concerns outlined by the OIG?

    Answer. CBP has resolved the specific issue raised by the OIG 
through multiple technological updates, including application, 
infrastructure, network and monitoring changes. CBP has developed a 
technical refresh strategy for end-user devices, network equipment and 
infrastructure that has informed budget requests, as well as assisted 
with prioritizing current year requirements.

    There were seven recommendations resulting from the OIG report 
focusing on system performance issues affecting several CBP pre-
screening functions. CBP used the recommendations to develop action 
plans addressing each of the findings, and we are well on our way to 
accomplishing all corresponding actions resulting from this report. 
These actions include:

          Conducting a survey of TECS users, the results of which are 
        being analyzed to inform future enhancements.
          Executing a technology refresh strategy for end-user 
        devices, network equipment, and infrastructure that has 
        informed budget requests as well as assisted with prioritizing 
        current year requirements.
          Increasing system and network resiliency through improved 
        disaster recovery capabilities, system outage mitigation modes, 
        and network redundancy for critical sites and services.
          Improving system monitoring efforts through new tools and 
        procedures in order to more quickly resolve outages.
                       prioritizing expenditures
    Question. Texas ports of entry are some of the busiest in the 
United States. Three of the five busiest land ports of entry are in 
Texas, and amazingly, one-half of all U.S.-Mexico trade moves through 
Texas ports of entry. In addition, Texas is home to four of the top ten 
busiest pedestrian ports of entry, as well. These numbers are showing 
no sign of slowing down.

    How does CBP and DHS determine the priority rank of needs on the 
northern versus southern border?

    Answer. CBP is responsible for managing the flow of lawful trade 
and travel through its 328 air, land, and maritime ports of entry. CBP 
also manages more than 6,000 miles of land border, more than 12,000 
miles of coastline border, and works to prevent the illegal movement of 
people and contraband crossing U.S. airspace. When examining port of 
entry requirements across the northern and southern borders, CBP must 
always consider the complex set of threats, risks, and challenges that 
are unique to each regional area. Prioritization of requirements across 
the southern and northern border regions is determined by certain 
criteria such as staffing numbers, operational needs/risks, traffic 
volumes, and facility conditions and functionality. This regional 
prioritization is built on data that reflects the threats, risks and 
operational needs dictated by the ever-changing environment along the 
U.S. borders. CBP budgets are designed to account for addressing 
priority areas at and between the ports of entry without regard to 
whether they are northern or southern borders, or whether it is an air, 
land, or sea environment.

    CBP uses its Workload Staffing Model (WSM) to analyze and provide 
recommendations for changes to CBP officer (CBPO) staffing 
requirements. The WSM is a decision support tool that calculates 
recommended staffing levels for each port of entry based on current and 
projected enforcement and facilitation workload, including recognizing 
emerging threats. CBP assesses threats through a risk-based strategy 
and multilayered security approach, and aligns resources to meet its 
mission and ensure that threats are mitigated.

    With regard to CBP facilities, CBP and the GSA utilize a 
comprehensive nation-wide scoring methodology to prioritize operational 
needs across the entire Land Port of Entry (LPOE) portfolio. This 
multi-step process starts with gathering data using the Strategic 
Resource Assessment methodology, in which CBP uses 60 distinct criteria 
in four categories that CBP weighs to calculate each facility's 
criticality of need for modernization:

          Mission and Operations;
          Security and Life Safety;
          Space and Site Deficiencies; and
          Personnel and Workload Growth.

    CBP then applies two additional analyses to the initial needs 
assessment to develop a prioritized investment plan for LPOE 
modernization projects:

          CBP applies a sensitivity analysis of the initial ranking 
        that considers factors such as binational border agreements, 
        Federal, State, and local interests, and unique regional 
        conditions.
          CBP evaluates the feasibility and risk associated with 
        project implementation, including environmental, cultural, and 
        historic preservation requirements.

Finally, CBP arrives at a final prioritization of proposed projects. 
This prioritization does not distinguish between northern and southern 
border LPOEs, but represents the prioritized investment need across the 
entire LPOE portfolio.

    Question. More specifically, how does CBP determine the needs and 
prioritize expenditures for upgrades at each Port of Entry?

    Answer. CBP and the GSA use the same comprehensive nation-wide 
scoring methodology outlined in the response to the prior question to 
prioritize the operational needs across the Land Port of Entry (LPOE) 
portfolio.

    Capital improvements to the LPOE inventory are made in priority 
order, guided by a defined CBP LPOE prioritization methodology, and to 
the extent available under Federal appropriations. The design and 
construction of these projects are funded predominantly through GSA's 
Federal Buildings Fund while CBP is responsible for paying for the one-
time turnkey furniture, fixtures, and equipment, and recurring rent and 
staffing costs at these facilities.

    CBP prioritizes expenditures for upgrades at the ports of entry 
(POEs) based on several factors:

          Department and agency priorities--with current focus on 
        southwest border;
          Volume of traffic processed at a given POE--high-volume POEs 
        over low-
        volume POEs (return on investment for facilitation and 
        security);
          Operational reliability of the deployed technology--
        unreliable/failing technology refreshed first;
          Age of the deployed technology--oldest first; and
          Affordability.

    In 2008, under the Western Hemisphere Travel Initiative (WHTI) 
program, CBP began the deployment of Radio Frequency Identification 
(RFID) and License Plate Reader (LPR) technology as well as improved 
vehicle processing software at the land border ports of entry.

    In 2010, the WHTI program became the Land Border Integration (LBI) 
program and began implementing the Triangle Strategy, which entailed 
the deployment of LPR technology for Pedestrian, Outbound, and USBP 
Checkpoint processing and the sharing of information between these 
areas and Inbound processing.

    CBP continues to improve land border integration by procuring and 
implementing the latest, most effective facilitative technology 
available to monitor and intercept vehicles crossing its borders. LPR 
technology is an integral part of CBP's border security plans. The FY 
2018 funding bill included $23 million for facility and infrastructure 
upgrades at the land border POEs. The LBI program received a portion of 
this funding to begin a technology refresh and will prioritize those 
upgrades using the above-referenced factors.

    CBP recognizes the critical role Texas plays supporting legitimate 
trade and travel. Eleven (11) of the first 39 POEs, encompassing 22 
border crossing locations, that received facilitative technology under 
the initial WHTI deployment are in Texas and will be prioritized for 
refresh based on the criteria outlined above.

    Other technology upgrades funded by the $23 million enacted by 
Congress in the FY 2018 budget included upgrades and updates to primary 
booths, installation of circuits, Wi-Fi, and updated phone systems at 
ports of entry, as well as procuring additional radios for frontline 
personnel.

    The Non-Intrusive Inspection (NII) Systems Program is actively 
sustaining operations through a comprehensive logistics and maintenance 
support strategy and replacing technology as systems reach their 
service life. With CBP's current stand-alone large-scale NII 
technology, CBP is capable of examining approximately 10-20 vehicles 
per hour in secondary inspection operations; these scans are largely 
conducted on high-risk conveyances. On the southwest land border, that 
translates to scanning approximately one percent of privately owned 
vehicles and approximately 17 percent of commercial trucks. These scans 
result in over 95 percent of all NII seizures and over 98 percent of 
the total weight of narcotics seized (with NII) nationwide.

    CBP is actively assessing commercially available NII technology 
that offers automation capabilities to streamline the NII examination 
process. Automating and streamlining the process will allow CBP to 
increase throughput and/or redirect personnel to other high-priority 
missions at POE's, where feasible. Overall, this approach will increase 
security and facilitation of trade and travel across the Nation's 
borders.

    An instrumental effort to achieve this approach is to determine the 
feasibility of utilizing drive-through NII systems in pre-primary or 
primary lanes. Currently CBP is conducting an operational assessment 
with new, commercially available, Multi-Energy Portal (MEP) x-ray 
systems in our Laredo Field Office. The assessment objective is to 
determine the technological and operational feasibility of utilizing 
NII in pre-primary or primary operations, thereby allowing CBP to 
examine a greater portion of commercial trucks in pre-primary or 
primary lanes. The multi-energy capability of the MEP allows the driver 
to remain in the vehicle, as the cab is scanned at a lower dosage, and 
the trailer is scanned at a higher dosage. To further automate and 
streamline the process, the assessment will look at integrating the new 
NII technology and imaging data with other automated processing 
technology utilized at our land borders, such as license plate readers, 
Radio Frequency Identification Device (RFID), Automated Commercial 
Environment, eManifest and Optical Character Recognition on box 
trailers to support command center operational concepts. The assessment 
is being conducted at three ports of entry, including the World Trade 
Bridge in Laredo, TX, Veterans Bridge in Brownsville, TX, and the 
Savannah, GA seaport of entry. The results of the operational 
assessments conducted at these locations will be utilized to refine 
operational requirements for future expansion to other port of entry 
locations as resources permit.

    To prioritize NII needs between Northern and Southern land border 
locations, CBP looks at a variety of factors, including operational 
utility of existing technology, field needs, emerging trends, 
infrastructure requirements and plans, and resources.
                        recruiting and retention
    Question. One impediment to hiring and retention within OFO has 
been the fact that CBP must compete for the same pool of talent as 
other law enforcement agencies (LEA). Often times, we are told that CBP 
loses out on these candidates because such LEAs can offer higher 
salaries and recruitment bonuses, in addition to less dangerous locales 
that are not as remote.

    What steps is CBP taking to address pay parity and retention?

    Answer. CBP continues to review the compensation of law 
enforcement, including the classification/career ladders of the 
position; utilizes recruitment, relocation and retention incentives to 
address critical hiring and retention issues; and has participated in 
the Department of Homeland Security Office of Chief Human Capital 
Officer Pay Parity Workgroup.

    Question. What can Congress do legislative to help CBP recruit and 
retain new talent?

    Answer. CBP has provided technical assistance to the drafting of 
several pieces of legislation that have suggested numerous initiatives 
that would support existing recruitment and retention programs. These 
initiatives include:

          Authorization to issue recruitment/retention incentives in 
        hard-to-fill/remote locations. Many of CBP's duty station are 
        in remote communities that lack many of the conveniences 
        associated with urban locations. Such incentives would assist 
        with the placement and retention of agents and officers in 
        these locations.
          Authorization to waive CBP's mandatory polygraph examination 
        to expedite the hiring of candidates who meet stringent 
        criteria, including current Federal law enforcement officers 
        who have passed a polygraph administered by another Federal 
        agency, and separating service members/recent veterans with 
        certain military clearances.

    CBP appreciates Congress's support of amendments to the Anti-Border 
Corruption Act of 2010. The House has supported CBP's efforts to 
develop a risk-based approach to extend polygraph waiver eligibility to 
certain categories of applicants, and we will continue to work with the 
Senate to do the same. The flexibility to waive the polygraph for 
individuals in these limited populations, such as current Federal law 
enforcement officers or transitioning military service members, would 
potentially expedite their onboarding and allow CBP to direct more 
resources toward the processing of other groups of applicants, 
preventing potential bottlenecks in the hiring pipeline.
                           polygraph testing
    Question. Another impediment to CBP hiring is the rigorous 
polygraph testing. My understanding is that CBP has recently 
streamlined the polygraph testing to address the failure rate.

    Have you seen an increase in the number of new hires who are now 
able to clear the polygraph exam?

    Answer. To better streamline the polygraph testing process, CBP 
implemented numerous program efficiencies including a more efficient 
polygraph testing format (the NCCA-approved Test for Espionage, 
Sabotage, and Corruption), a staffing model based on applicant flows 
and the removal of unsuitable applicants earlier in the hiring process. 
These efficiencies resulted in a 54 percent increase of applicants 
processed through polygraph in FY 2018 (14,263 applicants compared to 
9261 applicants in FY 2017). They also resulted in an 89 percent 
increase in applicants who successfully completed the polygraph during 
the year (4,457 passes compared to 2,360 passes in FY 2017).
                               k-9 units
    Question. CBP uses K-9 units on the primary inspection lanes at 
several ports of entry. These units have proven to be very effective at 
identifying drugs and other illegal contraband and have helped reduce 
the time required for manual inspections.

    How many additional units would CBP need to cover the ports of 
entry on the southern border?

    Answer. We appreciate congressional support of CBP's canine 
program. The FY 2019 President's budget request sustains current canine 
staffing levels across the CBP frontline.
                      new preclearance facilities
    Question. Expansion of CBP's preclearance program has been a 
priority of CBP in recent years and of yours, both as Deputy 
Commissioner and now as Commissioner. In 2015 CBP identified 10 
airports as top candidates for preclearance and, in 2016, Congress 
granted CBP additional reimbursement authority to more efficiently 
reach preclearance agreements with foreign countries.

    Can you please update the committee on your efforts to establish 
new preclearance facilities? Specifically, which foreign countries are 
you currently in negotiations with, which have signed, or may soon 
sign, a preclearance agreement, and does the list of 10 airports from 
2015 still represent the most viable candidates for a CBP preclearance 
site?

    Answer. CBP conducted two rounds of open period solicitations for 
preclearance expansion, which resulted in identifying 21 potential 
preclearance locations as of 2017. The most recent countries to sign an 
agreement with CBP were Sweden and the Dominican Republic, which signed 
in November and December 2016, respectively.

    CBP is actively negotiating with several countries prioritized 
during the open periods of expansion. Negotiations on a bilateral 
agreement are at an advanced stage with a number of the priority 
locations.
                             laredo project
    Question. I understand that the city of Laredo is currently in 
discussions with both CBP and the General Services Administration to 
develop a regional conference center near the Rio Grande riverfront on 
property which is owned by the Federal Government. I also understand 
that the proposed project improvements adjacent to the port of entries, 
in exchange for the land, are in progress.

    Will you please keep my staff updated on any developments related 
to this project and commit to giving the city full and fair 
consideration in these proceedings?

    Answer. The city of Laredo is interested in acquiring land at the 
Laredo Land Port of Entry (LPOE) for a convention center. GSA, who owns 
the land, expressed willingness to work with the city to exchange a 
portion of this footprint in return for improvements needed at the 
port. CBP has worked to identify requirements for these improvements, 
which served as the basis for a preliminary cost estimate. A meeting 
with the city took place in August 2018 to discuss the conditions of 
the land transfer, requirements for the facility, and initial costs. 
The city's budget for the project is much less than the government's 
estimated costs. GSA and CBP are currently engaged with the city to 
identify alternative design and exchange scenarios.

    In a parallel yet connected project, the city is offering land/
improvements to collocate other CBP/DHS components, and possibly some 
port functions, such as general use CBP training facilities, on a 
centralized campus close to the airport. CBP is working with the city 
of Laredo to draft a Memorandum of Understanding (MOU) that will allow 
the city to collect requirements from CBP so that it can develop a 
high-level proposal to address some or all of CBP's needs.

    GSA will continue to work closely with CBP and the city of Laredo 
to determine next steps regarding the city's proposals.

                                 ______
                                 
                 Questions Submitted by Hon. John Thune
                          low-value shipments
    Question. In 2015, I worked with Senator Wyden to increase the de 
minimis threshold for low-value imports to the current $800 level. I 
understand that CBP is using a portion of its increased FY 2018 
appropriations to enhance the inspections of these types of low-value 
shipments through risked-based analytics.

    Can you describe these efforts in more detail and how they will 
help facilitate the process for our importers and exporters of low-
value products?

    Answer. Current Automated Commercial Environment (ACE) manifest 
procedures will be expanded to all modes of transportation to allow 
carriers to request section 321 clearance for low-value shipments as an 
optional business decision. ACE Electronic Data Interchange manifest-
level processing will not be available for goods requiring complex 
admissibility processes (e.g., goods subject to Partner Government 
Agency (PGA) requirements addressing health and safety concerns). 
Rather, CBP will provide an additional pathway for clearance via the 
development of an Automated Broker Interface (ABI) submission, known as 
a ``Type 86'' entry. This filing option will be available to all ABI 
filers, and will be required for goods subject to complex admissibility 
processes. These new automated solutions will allow us to manage risk 
in this space while maintaining the velocity of e-commerce. In 
addition, CBP is exploring several advanced data analytics projects 
using new data techniques/algorithms to identify and segment specific 
areas of trade risks, including e-commerce and low value shipments. 
These project trials are very promising and CBP's Office of Trade is 
making enhancements in this area for FY 2019 to integrate these 
concepts and processes into our ACE systems.
                               e-commerce
    Question. In your written testimony you discuss the dramatic 
increase in the volume of shipments coming into the United States as a 
result of e-commerce. The growth of this sector of the economy and its 
intersection with international trade obviously create new challenges 
for CBP to carry out its national-security and trade-enforcement 
responsibilities.

    In addition to the steps that CBP has already taken to address the 
growth in e-commerce, like the E-Commerce and Small Business Branch, 
are there additional actions that CBP is considering that you believe 
would require new statutory authority or changes to existing law, which 
this committee should consider?

    Answer. On March 6, 2018, CBP issued its E-Commerce Strategy that 
focuses on creating a more agile CBP that can adapt to challenges in 
the e-commerce environment. As we continue to advance implementation of 
the E-Commerce Strategy, we are considering what regulatory, statutory, 
and policy amendments would further enhance CBP's ability to carry out 
its national security and trade enforcement responsibilities. CBP will 
continue to work with interagency partners and the Commercial Customs 
Operations Advisory Committee (COAC) E-Commerce Working Group 
throughout implementation of the strategy, and will keep this committee 
apprised of our developments and findings.
                      joint-processing initiative
    Question. You note in your testimony recent efforts by the CBP and 
the Mexican government to further the existing uniform cargo processing 
by both agencies along the U.S.-Mexican border. Witnesses on our second 
panel have also noted the benefits of this joint-processing initiative 
in their testimony.

    Can you expand on CBP's plans for expanding the initiative along 
our southern border and whether CBP is giving any consideration to 
initiating a similar effort with Canada for trade along our northern 
border?

    Answer. Unified Cargo Processing (UCP) is an innovative concept in 
which CBP and the Servicio de Administracion Tributaria (SAT) perform 
joint cargo clearance and examinations, in the United States, at nine 
major commercial ports of entry. By conducting joint cargo processing, 
CBP and SAT have reduced duplicate cargo inspections and wait times at 
the border. This in turn has significantly lowered the cost of doing 
business in the region as well as enhanced the national security for 
both countries.

    CBP used this model and signed a UCP agreement with Canadian Border 
Services Agency (CBSA) in November 2017. The CBSA then began a 6-month 
pilot utilizing CBP's x-ray technology to inspect trains destined to 
Canada. The pilot has been extended an additional six months, at which 
time CBSA and CBP will evaluate the pilot.

    CBP, SAT, and CBSA are working on tri-lateral criteria for future 
expansion of UCP in the air cargo environment. Once the tri-lateral 
criteria is complete, CBP will post a notice in CBP.gov for interested 
parties to respond via a letter of interest.

                                 ______
                                 
              Questions Submitted by Hon. Claire McCaskill
                      non-parental family members
    Question. Please provide the number of children that were 
accompanied by a family member other than a parent that arrived at a 
port of entry or were apprehended by the Border Patrol each month 
between fiscal year (FY) 2016 and FY 2018 (i.e., grandparent, aunt, 
uncle, cousin).

    Were any of these children separated from that family member and 
processed as unaccompanied?

    If so, under what circumstances?

    Answer. Consistent with the William Wilberforce Trafficking Victims 
Protection Reauthorization Act of 2008 (TVPRA) and the Homeland 
Security Act of 2002 (at 6 U.S.C. 279(g)), an alien child who has no 
lawful immigration status in the United States and for whom there is no 
parent or legal guardian in the United States, or for whom there is no 
parent or legal guardian in the United States who is available to 
provide care and physical custody, is processed as an unaccompanied 
alien child, regardless whether the child is accompanied by a family 
member who is not a parent or legal guardian. CBP does not maintain 
statistics on the number of alien children who are accompanied by a 
family member other than a parent or legal guardian.

    All alien minors that meet the definition of unaccompanied alien 
children are processed consistently with the requirements of the TVPRA, 
and in most cases are transferred to the custody of the Department of 
Health and Human Services.
                             adult siblings
    Question. Please provide the number of children that were 
accompanied by an adult sibling that arrived at a port of entry or were 
apprehended by the Border Patrol each month between FY 2016 and FY 
2018.

    Answer. An alien child who meets the definition of an Unaccompanied 
Alien Child is processed pursuant to the TVPRA, regardless whether the 
child is accompanied by a family member who is not a parent or legal 
guardian. CBP does not maintain statistics on the number of alien 
children who are accompanied by a family member other than a parent or 
legal guardian.

    Question. What is the policy of Customs and Border Protection (CBP) 
for processing a child who arrives with an adult sibling?

    Answer. The Homeland Security Act of 2002 defines an unaccompanied 
alien child (UAC) as a child who has no lawful immigration status in 
the United States, has not attained the age of 18, with respect to whom 
there is no parent or legal guardian in the United States, or for whom 
no parent or legal guardian in the United States is available to 
provide care and physical custody. As such, children who arrive with 
non-custodial adult sibling(s) are UACs, not family unit aliens. In 
most cases, UACs must be transferred to the custody of the Department 
of Health and Human Services (HHS) as outlined in the TVPRA.

    Question. Are they separated and processed separately or are they 
processed as a family unit?

    Answer. As outlined in the TVPRA, all UAC from non-contiguous 
countries are placed in removal proceedings pursuant to section 240 of 
the Immigration and Nationality Act and transferred to the custody of 
HHS within 72 hours of being determined to be a UAC.

    Question. Under the Zero Tolerance policy, are the adult siblings 
that arrive with a child sibling referred for prosecution?

    Answer. The Zero Tolerance policy, which took effect April 6, 2018, 
applies to all offenses referred for prosecution under 8 U.S.C. section 
1325(a), ``Improper entry by alien,'' and supersedes any existing 
policies. So accompanying adult siblings, who entered the United States 
illegally, are referred for prosecution.
                           guidance provided
    Question. Please provide any guidance provided by the Department of 
Homeland Security to CBP on the implementation of the zero-tolerance 
policy or family separations.

    Answer. On May 4, 2018, the Secretary of Homeland Security, 
Kirstjen Nielsen, directed CBP officers and agents to ensure that all 
adults deemed prosecutable for improper entry in violation of 8 U.S.C. 
Sec. 1325(a) are referred to the Department of Justice for criminal 
prosecution.

    Question. Please provide any operational guidance that was provided 
by each Border Patrol sector to subordinates and front-line personnel 
on the separation of children from their families.

    Answer. USBP did not issue any operational guidance to the field 
that fits the description above.
                        asylum seekers processed
    Question. How many asylum seekers does CBP process each day at 
ports of entry?

    Answer. For the southwest border, CBP referred for processing on 
average 90 asylum seekers per day at the ports of entry (POEs) from May 
1, 2018, through August 13, 2018.

    Question. How long does this process take?

    Answer. CBP policy is to process applicants for admission in an 
expeditious manner. POEs have to balance an array of critical mission 
priorities; including counterterrorism, counter-narcotics, safeguarding 
the Nation's economic future, facilitation of lawful trade and travel, 
and processing travelers to determine whether they are permitted to 
enter the United States. With that in mind, the number of potentially 
inadmissible individuals CBP is able to process varies based upon case 
complexity, available resources, medical needs, interpretation 
requirements, holding/detention space, overall port volume, and ongoing 
enforcement actions.
                  access to a credible fear interview
    Question. Do CBP Officers have the authority to deny an individual 
access to a credible fear interview?

    If so, what are the circumstances under which that authority is 
used and what training do CBP Officers receive on their authority to 
deny individuals access to a credible fear interview?

    Answer. No. Any alien who arrives in the United States and is 
subject to expedited removal who asserts fear of persecution or 
torture, or indicates an intention to apply for asylum is referred to 
USCIS for a credible fear determination. Aliens who arrive in the 
United States, but are not subject to expedited removal, may seek other 
forms of protection or relief, depending on the manner of their 
arrival, with either U.S. Citizenship and Immigration Services (USCIS) 
or an immigration judge.
                             daily reports
    Question. In response to questions at the hearing, you described a 
daily report that you receive that details the number of migrants 
waiting to be admitted at ports of entry. Please provide copies of this 
report for each day between Jan 1, 2017 and August 1, 2018.

    Answer. The documents requested are subject to ``deliberative 
process privilege,'' and respectfully, are not appropriate for release 
to Congress.
                  asylum claims on the southern border
    Question. Please provide a breakdown of the number of asylum claims 
made at each port of entry along the southern border in FY2016--FY2018.


                                 Answer
------------------------------------------------------------------------
  SW Land Border Total Inadmissible
   Aliens and Credible Fear Claims      FY 2016     FY 2017    FYTD 2018
      (Through August 2, 2018)
------------------------------------------------------------------------
Total Inadmissible Aliens               153,931     111,248     105,661
------------------------------------------------------------------------
Percent of Credible Fear Claims of       21.99%      24.13%      35.77%
 the Total Inadmissible Aliens
------------------------------------------------------------------------



------------------------------------------------------------------------
                                             Asylum Claims
        Port of Entry        -------------------------------------------
                               FY 2016    FY 2017    FY 2018      SUM
------------------------------------------------------------------------
Andrade, CA (2502)                    4         60         18         82
------------------------------------------------------------------------
Brownsville, TX (2301)            1,494      1,273      l,192      3,959
------------------------------------------------------------------------
Calexico, CA (2503)                 604      1,236      1,487      3,327
------------------------------------------------------------------------
Calexico-East (2507)                  5        148        243        396
------------------------------------------------------------------------
Columbus, NM (2406)                  26         12         25         63
------------------------------------------------------------------------
Del Rio, TX (2302)                   44        132         87        263
------------------------------------------------------------------------
Douglas, AZ (2601)                  343        180        l42        665
------------------------------------------------------------------------
Eagle Pass, TX (2303)               503        655      1,148      2,306
------------------------------------------------------------------------
El Paso, TX (2402)                9,268      7,118      8,328     24,714
------------------------------------------------------------------------
Hidalgo, TX (2305)                5,016      3,084      4,027     12,127
------------------------------------------------------------------------
Laredo, TX (2304)                 1,802      2,345      4,611      8,038
------------------------------------------------------------------------
Lukeville, AZ (2602)                  1         20         12         33
------------------------------------------------------------------------
Naco, AZ (2603)                       2          5          3         10
------------------------------------------------------------------------
Nogales, AZ (2604)                  836      2,156      2,688      5,680
------------------------------------------------------------------------
Otay Mesa (2506)                  1,658        133        642      2,433
------------------------------------------------------------------------
Presidio, TX (2403)                 230        185        149        564
------------------------------------------------------------------------
Progreso, TX (2309)                  72        123         89        284
------------------------------------------------------------------------
Rio Grande City, TX (2307)           45         17        166        228
------------------------------------------------------------------------
Roma, TX (2310)                     298        680      1,351      2,329
------------------------------------------------------------------------
San Luis, AZ (2608)                 911      2,089      1,774      4,774
------------------------------------------------------------------------
Santa Teresa (2408)                 255        408        542      1,205
------------------------------------------------------------------------
San Ysidro (2504)                10,527      4,421      9,564     24,512
------------------------------------------------------------------------
Sasabe, AZ (2606)                                           1          1
------------------------------------------------------------------------
Tecate, CA (2505)                     3          2         16         21
------------------------------------------------------------------------
Tornillo, TX (2404)                 628        359         58      1,045
------------------------------------------------------------------------
    Sum:                         33,855     26,841     38,363     99,059
------------------------------------------------------------------------

                     increasing processing capacity
    Question. Given the increasing asylum claims at San Ysidro, what 
steps if any have you taken to add additional processing capacity in 
the San Diego area.

    Answer. CBP is committed to our complex and multifaceted mission 
set, which includes the safe, secure, and orderly processing of all 
travelers as expeditiously as possible without compromising safety or 
national security. The number of inadmissible individuals CBP is able 
to process varies depending on case complexity, available resources, 
medical needs, interpretation requirements, holding/detention space, 
overall port volume, and ongoing enforcement actions. San Ysidro 
management conducts daily assessments of their operational capacities 
to ensure all of CBP's core mission sets are achieved. Currently, all 
available resources are being deployed to process asylum cases without 
detrimentally impacting critical operational elements.
                      trade act penalty provision
    Question. Phase three of the TRADE Act implementation was supposed 
to include penalties for deficient descriptions of package contents. 
CBP has assured me that ``The Trade Act of 2002 has been implemented 
and does include a penalty provision for bad description of package 
contents for all modes of transportation.''

    For the past 3 years, please provide a list of the penalties that 
have been levied, including the companies that they have been levied 
against, the amount of the fine that was proposed, and the amount that 
was collected.

    Answer. Please see table below. There are several reasons the 
assessed amounts differ from the amount collected on all penalty data. 
First, the collection of monies assessed on these penalties do not 
routinely occur within the same fiscal year as assessed because 
violators are afforded the ability to file a petition/supplemental 
petition on stating that a violation did not occur or there were 
mitigating factors that caused the violation. Second, when considering 
petitions/supplemental petitions, CBP reviews both mitigating and 
aggravating factors, which may result in a reduction of the penalty 
amount based on our Mitigation Guidelines. Finally, upon exhausting all 
avenues available to collect these penalties, CBP begin will close the 
case out as a write-off.

    Most penalties assessed against violators are not covered by a 
bond, as are our liquidated damages claims. This has been identified as 
an obstacle to collection.


----------------------------------------------------------------------------------------------------------------
                                                               Number of
                                                               Violations                  Sum of       Sum of
                           Carrier                            per  Fiscal  Fiscal Year    Assessed    Collected
                                                                  Year                     Amount       Amount
----------------------------------------------------------------------------------------------------------------
A & M TRANSPORT                                                         1         2017       $1,066       $1,066
ABF FREIGHT SYSTEM, INC.                                                3         2017      $12,600       $2,000
ACTION AIRPORT EXPRESS INC.                                             1         2017         $199         $199
AIRTIME EXPRESS INC.                                                    1         2017      $10,000       $1,000
AIRWAY AUTO BROKER, LLC                                                 1         2017       $1,810         $181
ALBERTS LTD                                                             1         2017       $1,000       $1,000
ALVARADOS TRUCKING LLC                                                  1         2017      $10,000            -
ALWEST TRANSPORT LTD                                                    1         2017      $10,000       $1,000
AMAN LOGISTICS LTD                                                      1         2017         $909            -
AMERICAN PRESIDENT LINES LTD                                            2         2017       $2,000            -
ANL SINGAPORE PTE LTD                                                   1         2017      $10,000       $2,000
ARV TRANSPORTE                                                          1         2017       $1,000         $500
ATLAS DIVISION TRANSPORTE                                               1         2017      $10,000       $1,000
AVIV TRANSPORT                                                          1         2017       $1,000         $200
BARTEL BULK FREIGHT INC.                                                1         2017       $2,919            -
BERTS TRUCK EQUIPMENT                                                   1         2017      $10,000         $200
BIG SKY AUTO TRANSPORT, INC.                                            1         2017       $1,000       $1,000
BISON TRANSPORT INC.                                                    3         2017       $3,000       $2,500
BNSF RAILWAY                                                            7         2017      $70,000       $6,000
BOREAS LOGISTICS                                                        1         2017      $10,000       $1,000
BULLS TRANSPORT                                                         1         2017       $1,000       $1,000
BURLINGTON NORTHERN RAILWAY                                             6         2017      $51,000       $5,200
CANADIAN NATIONAL RAILWAY                                              17         2017     $161,000      $16,200
CANADIAN PACIFIC RAILWAY                                               11         2017      $73,630       $5,900
CARGO NORTHWEST                                                         1         2017      $10,000            -
CASTOR TRANSPORT LLC                                                    1         2017       $8,231         $500
CHINA SHIPPING CONTAINER LINES                                          3         2017       $3,000         $600
CMA CGM LOGISTICS USA LLC                                               2         2017      $11,000       $1,200
CON-WAY FREIGHT INC.                                                    2         2017       $2,000       $1,000
COOPER BROTHERS TRUCKING LLC                                            1         2017      $10,000       $1,000
COSCO SHIPPING LINES, CO                                                1         2017       $1,000       $1,000
CP RAIL                                                                 1         2017       $1,000         $200
CROSSBORDER EXPRESS                                                     1         2017         $225            -
CROWLEY CARIBBEAN LOGISTICS LLC                                         4         2017       $4,000       $1,200
CROWN EXPRESS TRANSPORT, INC.                                           1         2017      $10,000       $1,000
D'ALLIANCE MOTORS                                                       1         2017         $234         $234
DAS LOGISTICS                                                           1         2017       $1,000         $200
DHL EXPRESS (USA), INC.                                                 9         2017       $9,000            -
DJ KNOLL TRANSPORT LTD                                                  1         2017       $1,000         $200
DLH TRUCKING INC.                                                       1         2017       $2,109         $211
DOUBLE V TRUCKING LTD                                                   1         2017       $1,000         $200
DOWNTON'S TRANSPORT LTD                                                 2         2017      $13,048       $1,304
DURAN FREIGHT CORPORATION                                               3         2017      $10,640       $1,090
EASTLAND TRANSPORT LTD                                                  1         2017       $1,000         $200
EKUAM TRANSPORT INC.                                                    1         2017       $1,000       $1,000
EL CHICURAL SPR DE RL                                                   1         2017        $1,00       $1,000
ELT TRANSPORT LTD                                                       2         2017       $2,000         $200
EMMANUEL TRANSPORT                                                      1         2017       $1,000         $500
EVERGREEN LINE                                                          1         2017       $1,000         $225
EXPRESS SERVICE TRANSPORT, INC.                                         1         2017         $925         $925
FAVEL TRANSPORTATION                                                    1         2017       $1,000         $500
FED EX FREIGHT CANADA CORP                                              1         2017       $1,000         $200
FERROL TRUCKING SERVICES, INC.                                         62         2017      $62,000      $18,600
FERROL TRUCKING SERVICES, INC.                                         68         2017      $68,000      $20,400
FLAGSTAFF EXPRESS INC.                                                  1         2017       $1,000         $500
FREEWAY TRUCKING INC.                                                   1         2017         $599            -
FROCO S DE RL DE CV                                                     1         2017       $5,538         $500
G P S GALAXY PACIFIC SERVICES LTD.                                      1         2017       $1,000         $500
GATEWAY CARRIERS LTD                                                    3         2017       $3,893         $684
GILL WORLD LOGISTICS                                                    1         2017       $1,000       $1,000
GPS GALAXY PACIFIC                                                      1         2017      $10,000       $1,000
GRACE ROAD LINES LTD                                                    2         2017       $1,448         $700
GREAT WHITE FLEET LTD                                                   1         2017       $5,000         $500
GUERREROS TRUCKING                                                      1         2017       $1,000            -
H & R TRANSPORT LTD                                                     1         2017       $1,000         $500
HAMBURG SUD NORTH AMERICA                                               2         2017       $2,000       $2,000
HAMBURG SUDAMERIKANISCHE DAMPFSC                                        7         2017       $7,000       $7,000
HEYS TRANSPORT LTD                                                      1         2017       $1,000       $1,000
HIGHLIGHT MOTOR FREIGHT INC.                                            2         2017       $2,000         $400
HJM INTERNATIONAL TRANSPORT                                             1         2017       $2,302       $2,302
HYUNDAI MERCHANT MARINE (AMERICA)                                       2         2017       $2,000       $1,700
INTERNATIONAL STEAMSHIP AGENCY                                          1         2017   $2,211,429     $150,000
JADE EXPRESS INC.                                                       1         2017       $1,000            -
JFG INTERNATIONAL INC.                                                  1         2017       $3,164       $1,000
JOHAL'S TRUCKING INC.                                                   1         2017       $6,293            -
K LINE AMERICA INC.                                                     3         2017      $12,000       $1,150
K LINE AMERICA INC.                                                     9         2017      $18,000       $2,750
K LINE AMERICA, INC.                                                    5         2017       $5,000       $1,200
KC EXPRESS LTD                                                          1         2017         $858         $200
KCATT TRUCKING                                                          1         2017       $9,697            -
K-DAC ENTERPRISES, INC.                                                 1         2017      $10,000       $1,000
K-LINE AMERICA                                                         10         2017      $25,520       $3,100
KOOTENAY WOOD TRANSPORT LTD                                             1         2017       $4,194         $200
LAND ROUTE TRUCKLINES, INC.                                             1         2017      $10,000       $1,000
LANDSTAR INWAY INC.                                                     1         2017       $1,000       $1,000
LAPARKAN TRADING LTD                                                    1         2017      $10,000            -
LAX FREIGHT SERVICES INC.                                               1         2017         $912         $912
LEAVITTS FREIGHT SERVICE INC.                                           1         2017       $1,000       $1,000
LEN DUBOIS TRUCKING                                                     1         2017       $1,000         $200
LIGHT SPEED LOGISTICS INC.                                              2         2017       $2,000       $1,500
LINEA AEREA CARGUERA DE COLOMBIA LANCO                                  1         2017       $1,000         $500
LIVING WATERS                                                           1         2017         $198         $198
LOGISTIC INTL MT INC.                                                   1         2017      $10,000            -
LORAS TRUCKING                                                          1         2017      $10,000         $500
LTC INTERNATIONAL INC.                                                  1         2017         $399         $399
MAERSK AGENCY USA INC.                                                 14         2017      $33,081       $7,581
MARINE EXPRESS INC.                                                     7         2017       $7,000       $2,400
MARTHA RUTH DELGADO VALDEZ                                              1         2017       $1,000         $500
MATSON NAVIGATION COMPANY INC.                                          1         2017       $1,000         $500
MAYER, YVONNE M.                                                        1         2017       $1,000         $500
MCD TRANSPORTATION INC.                                                 1         2017         $132         $132
MEDITERRANEAN SHIPPING CO.                                              3         2017       $3,000         $200
MERCER TRANSPORTATION CO.                                               1         2017         $609         $609
MESTON LIVESTOCK TRANSPORT                                              1         2017       $1,000         $200
MITSUI O.S.K. LINES LTD.                                               41         2017      $59,000      $34,000
MORGAN HOLDINGS                                                         1         2017       $1,000         $500
MSC MEDITERRANEAN SHIPPING CO                                           2         2017       $2,000         $300
MULLEN TRUCKING INC.                                                    1         2017       $1,000         $200
NORFOLK TRANSPORT LTD                                                   1         2017       $1,000       $1,000
NYK LINE (NORTH AMERICA) INC.                                           2         2017       $7,009       $3,403
OLD DOMINION FREIGHT LINE INC.                                          1         2017       $2,227         $223
ONTINE TRANSFREIGHT                                                     1         2017       $1,000       $1,000
OPTIMISTIC ENTERPRISES LTD                                              1         2017       $1,000         $200
ORIENT OVERSEAS CONTAINER LINE                                          4         2017       $4,000       $1,000
PACIFIC BROKERAGE CO                                                    1         2017       $1,000         $500
PASKAL VAN RAAY FARMS LTD                                               1         2017       $1,000            -
POLARIS TRANSPORT                                                       7         2017       $9,912       $5,982
PUDONG PRIME INTL LOGISTICS INC.                                        1         2017       $1,000       $1,000
R.S.GILL EXPRESS, LTD                                                   1         2017       $3,027         $303
RDK TRANSPORTATION CO INC.                                              1         2017      $10,000       $1,000
ROCK TRUCKING LTD                                                       1         2017         $704            -
ROCKPORT CARRIER CO INC.                                                1         2017      $10,000       $1,000
SBJS TRANSPORT INC.                                                     1         2017       $1,000         $200
SCOTLYNN COMMODITIES INC.                                               1         2017      $10,000         $500
SEVEN HORSE TRANSPORT LTD                                               1         2017       $1,000         $500
SHANNON BROKERAGE CO.                                                   1         2017       $1,000         $500
SILVER STALLION ENTERPRISE                                              2         2017       $1,040         $200
SMOOT BROS TRANSPORTATION                                               1         2017       $1,000         $200
SNOWY OWL TRANSPORTATION INC.                                           1         2017      $10,000         $500
SOCIETE AIR FRANCE                                                      1         2017       $1,000         $500
STEELHORSE FREIGHT SERVICES INC.                                        1         2017       $1,000       $1,000
STEVENSON FORMEL FREIGHT SERVICE                                       25         2017      $25,000      $10,600
SUNRISE TRANSPORT LTD                                                   2         2017       $2,000       $2,000
SUPERDAVE'S SUPERSTORE                                                  1         2017         $503         $503
SWIFT TRANSPORTATION COMPANY INC.                                       2         2017       $2,050         $200
SYSTEM TRANSPORT INC.                                                   2         2017       $2,000       $2,000
T.E.A.M.S. TRUCKING                                                     1         2017       $1,000         $200
TDX LOGISTICS INC.                                                      1         2017       $1,740         $200
THE WAGGONERS TRUCKING                                                  1         2017       $1,000            -
TMV                                                                     1         2017       $1,000       $1,000
TNT SKYPAK                                                              1         2017       $1,000            -
TRANSPORTES JTH                                                         1         2017       $1,000         $500
TRANSPORTES LEGASPY E HIJOS                                             2         2017      $20,000       $2,000
TRANSPORTES LOGSOON                                                     1         2017       $1,000            -
TRANSX LIMITED                                                          2         2017      $10,262       $1,262
TRIPLE EIGHT TRANSPORT INC.                                             3         2017      $11,884       $2,084
TST OVERLAND EXPRESS                                                    2         2017       $3,561         $456
TURK ENTERPRISES LTD                                                    1         2017      $10,000       $1,000
UNITED AIRLINES                                                         1         2017     $120,955      $12,096
UNITED ARAB SHIPPING CO                                                11         2017      $11,000       $1,700
UNITED PARCEL SERVICE                                                   1         2017         $382         $200
VERSA COLD NORTH AMERICA TRANS                                          1         2017       $1,000         $200
VM GLOBAL TRANSPORT LLC                                                 1         2017      $10,000            -
VM TRANSPORT LTD                                                        1         2017       $1,000         $200
WAGGONERS TRUCKING                                                      1         2017         $200         $200
WAN HAI LINES (AMERICA) LTD                                             2         2017       $2,000         $850
WERNER ENTERPRISES INC.                                                 1         2017       $1,000       $1,000
WESTERN TRADE WINDS LTD                                                 1         2017       $1,000         $200
WILDWOOD TRANSPORT INC.                                                 1         2017      $10,000       $1,000
XPO LOGISTICS FREIGHT CANADA                                            1         2017       $1,340         $200
YRC DBA ROADWAY EXPRESS                                                 4         2017       $4,000       $1,700
ZIM AMERICAN INTEGRATED SHIPPING                                        1         2017       $1,000       $1,000
----------------------------------------------------------------------------------------------------------------



------------------------------------------------------------------------
                                                        2017
------------------------------------------------------------------------
Penalties                                                            506
------------------------------------------------------------------------
Assessed Amount                                            $3,546,605.45
------------------------------------------------------------------------
Collected Amount                                             $405,012.73
------------------------------------------------------------------------

                          tariff act penalties
    Question. Please provide the penalties and collections under 19 
U.S.C. 1436 for FY 2015-FY 2018. Please include a breakdown of the 
penalties by carrier and by violation.

    Answer. Please see table below. There are several reasons the 
assessed amounts differ from the amount collected on all penalty data. 
First, the collection of monies assessed on these penalties do not 
routinely occur within the same fiscal year as assessed because 
violators are afforded the ability to file a petition/supplemental 
petition on stating that a violation did not occur or there were 
mitigating factors that caused the violation. Second, when considering 
petitions/supplemental petitions, CBP reviews both mitigating and 
aggravating factors, which may result in a reduction of the penalty 
amount based on our Mitigation Guidelines. Finally, upon exhausting all 
avenues available to collect these penalties, CBP begin will close the 
case out as a write-off.

    Most penalties assessed against violators are not covered by a 
bond, as are our liquidated damages claims. This has been identified as 
an obstacle to collection.


----------------------------------------------------------------------------------------------------------------
                                                                            Number of
                                                                            Violations     Sum of       Sum of
                           Carrier                            Fiscal Year  Per  Fiscal    Assessed    Collected
                                                                               Year      Amount ($)   Amount ($)
----------------------------------------------------------------------------------------------------------------
``K'' LINE AMERICA INC.                                              2017            5    25,000.00     7,000.00
5289514 MANITOBA LTD.                                                2017            1     5,000.00       500.00
7784813 CANADA CORPORATION                                           2017            1     5,000.00       500.00
ABX AIR                                                              2017            2    10,000.00     2,000.00
ACE Quantum                                                          2017            1     5,000.00         0.00
AER LINGUS                                                           2017            2    10,000.00     1,500.00
AEROLINEAS ARGENTINAS                                                2017            1     5,000.00       500.00
AEROTRANSPORTE DE CARGA                                              2017            1     5,000.00     5,000.00
AGAM HOLDINGS LTD.                                                   2017            1     5,000.00       500.00
AIKAM TRANSPORT                                                      2017            1     5,000.00       500.00
AIR BERLIN                                                           2017            1     5,000.00     1,000.00
AIR CANADA                                                           2017            3    15,000.00       500.00
AIR FRANCE                                                           2017           17   105,000.00    10,750.00
AIR SERV CORPORATION                                                 2017            2    10,000.00     2,000.00
AIR TAHITI                                                           2017            1     5,000.00     5,000.00
AIRBRIDGE CARGO AIR                                                  2017            5    25,000.00     2,500.00
ALITALIA AIR                                                         2017            1     5,000.00     1,000.00
ALKAN AIR LIMITED                                                    2017            1     5,000.00      5000.00
ALL NIPPON                                                           2017            7    35,000.00     7,000.00
AMAZON.COM                                                           2017            4     4,000.00         0.00
AMERICAN AIRLINES                                                    2017           15    72,000.00    14,500.00
AMERICAN PRESIDENT LINE                                              2017           28   140,000.00    6,9850.00
AMSA USA INC.                                                        2017            2    10,000.00     1,000.00
ANDY TRANSPORT INC.                                                  2017            1     5,000.00       500.00
ANKER INTERNATIONAL LLC                                              2017            1     5,000.00     1,500.00
ANL CONTAINER LINE PTY LIMITED                                       2017           25   125,000.00    61,250.00
ANL SINGAPORE PTE LTD.                                               2017            8    40,000.00    19,650.00
ARACOR, INC.                                                         2017            3    15,000.00     2,250.00
ARANSAS PILOTS                                                       2017            1     5,000.00     5,000.00
ARI-SON TRUCKING                                                     2017            1     5,000.00       500.00
ARNOLD BROS TRANSPORT LTD.                                           2017            4    20,000.00     2,000.00
ATLANTIC CONTAINER LINE AB                                           2017            1     5,000.00       500.00
ATLAS AIR                                                            2017            5    25,000.00     3,500.00
AUSTRIAN AIRLINES                                                    2017            1     5,000.00     1,400.00
AUTOTRANSPORTE DE CARGA HCC                                          2017            1     5,000.00       500.00
AVJET CORPORATION                                                    2017            1     5,000.00       500.00
BARTEL BULK FREIGHT INC.                                             2017            3    15,000.00     1,000.00
BENIPAL BROTHERS LTD.                                                2017            1     5,000.00       500.00
BIEHL & CO.                                                          2017            1       500.00       500.00
BIRKETT FREIGHT SOLUTIONS INC.                                       2017            1     5,000.00       500.00
BISON TRANSPORT                                                      2017            3    15,000.00     1,500.00
BLUE ANCHOR AMERICA LINE                                             2017            8    40,000.00    21,650.00
BLUE CARGO GROUP                                                     2017            1     5,000.00     1,500.00
BNSF RAILWAY COMPANY                                                 2017            1     5,000.00     5,000.00
BOA OFFSHORE A S                                                     2017            1     5,000.00         0.00
BONANZA GROUP                                                        2017            1     5,000.00       270.00
BP SHIPPING LTD                                                      2017            1     5,000.00       500.00
BRITISH AIRWAYS PLC                                                  2017            7    35,000.00    11,250.00
BRUSSELS AIRLINES NV                                                 2017            2    10,000.00     2,000.00
BTC-EXPRESS                                                          2017            1       500.00       500.00
BTI CARTAGE                                                          2017            1       500.00       500.00
BULKSHIP MARITIME                                                    2017            1     5,000.00         0.00
BURLINGTON NORTHERN                                                  2017            4    30,000.00     9,400.00
C2C, INC.                                                            2017            1     5,000.00       150.00
CANADIAN FREIGHTWAYS LTD.                                            2017            1     5,000.00       500.00
CANADIAN NATIONAL RAILWAY                                            2017            9    56,000.00    16,000.00
CANAMEX TRUCKING SYSTEM, INC.                                        2017            1     1,353.13     1,353.13
CANEDA FOREST PRODUCTS SALES                                         2017            1     5,000.00       500.00
CARGO CONTAINER LINE LIMITED                                         2017            4    20,000.00     6,500.00
CARGOLUX AIRLINES                                                    2017            4    25,000.00    12,000.00
CARNIVAL CORPORATION                                                 2017            6    32,100.00     5,700.00
CATHAY PACIFIC                                                       2017            2    10,000.00     2,000.00
CAYMAN AIRWAYS, LTD..                                                2017            1     5,000.00       250.00
CCNI                                                                 2017            1     5,000.00         0.00
CELEBRITY CRUISES INC.                                               2017            2     1,500.00     1,500.00
CHALLENGER MANUFACTURING                                             2017            1     5,000.00       500.00
CHALLENGER MOTOR FREIGHT                                             2017            1     5,000.00       500.00
CHARTRIGHT AIR                                                       2017            1     5,000.00       500.00
CHEVAL TRANSPORT LTD.                                                2017            1     5,000.00         0.00
CHINA AIRLINES                                                       2017            1     5,000.00       500.00
CHINA BUFFET                                                         2017            2     2,000.00       100.00
CHINA EASTERN AIRLINES                                               2017           18    90,000.00    18,000.00
CHINA OCEAN SHIPPING COMPANY                                         2017           12    60,000.00    10,300.00
CHINA SOUTHERN AIRLINES CO.                                          2017            1     5,000.00     1,000.00
CINCO AIR CHARTER                                                    2017            1     5,000.00     1,000.00
CLEARFREIGHT                                                         2017            1     5,000.00     5,000.00
CMA CGM (AMERICA) INC.                                               2017           33   165,000.00    72,587.00
COLUMBIA SHIP MGT                                                    2017            1     5,000.00       500.00
COMPANIA PANAMENA DE AVIACION                                        2017            1     5,000.00         0.00
CONDOR FLUGDIENST                                                    2017            2    10,000.00     1,000.00
COPA AIRLINE                                                         2017            1     5,000.00       500.00
COSCO SHIPPING LINES CO.                                             2017           35   175,000.00    15,000.00
COTTONWOOD LOGISTICS INC.                                            2017            1     5,000.00       500.00
CRANE WORLDWIDE LOGISTICS LLC                                        2017            2    10,000.00     2,000.00
CRAWLEY LATIN AMERICA SERVICES                                       2017            1     5,000.00       550.00
CROWLEY CARIBBEAN SERVICES                                           2017           30    15,000.00    14,950.00
CROWN EXPRESS TRANSPORT, INC.                                        2017            1       305.00         0.00
CRUCES INTERNACIONALES                                               2017            1     5,000.00     1,400.00
CRYSTAL CRUISES LLC                                                  2017            1     1,200.00     1,200.00
CSX TRANSPORTATION                                                   2017            6    55,000.00    10,500.00
CUSTOM TRANSPORT LTD.                                                2017            2    10,000.00       500.00
DARCOL INTERNATIONAL INC.                                            2017            2    10,000.00       500.00
DECKX TRANSPORT                                                      2017            1     5,000.00       500.00
DEEPLAND EXPRESS                                                     2017            1     5,000.00       500.00
DELTA AIRLINES                                                       2017           16    80,000.00     5,000.00
DEVA JATT TRANSPORT LTD.                                             2017            1     5,000.00       500.00
DJ KNOLL TRANSPORT, LTD.                                             2017            1    10,000.00       500.00
DM TRANSPORT                                                         2017            1     5,000.00       500.00
DOMINGO LAN NAC.                                                     2017            1     5,000.00     1,000.00
DYNAMIC AIRWAYS                                                      2017            2    10,000.00     5,500.00
EASTERN MARITIME                                                     2017            1     5,000.00         0.00
EBD ENTERPRISES INC.                                                 2017            1     5,000.00       500.00
EIFFEL TRANSPORT                                                     2017            1     7,862.73       500.00
EMIRATES AIRLINES                                                    2017           10    50,000.00     8,500.00
EMPRESAS                                                             2017            1     5,000.00         0.00
ESSEN TRANSPORT LTD.                                                 2017            1     5,000.00       500.00
ETIHAD AIRWAYS, P.J.S.C.                                             2017            2    10,000.00     1,500.00
EVERGREEN LINE                                                       2017            5    25,000.00         0.00
EW WYLIE CORPORATION                                                 2017            1     5,000.00     5,000.00
EXECAIRE                                                             2017            1    10,000.00         0.00
EXPRESS LOGISTICS LA HUERTA                                          2017            1     5,000.00       500.00
EXPRESSJET                                                           2017            1     5,000.00     1,500.00
FAVEL TRANSPORTATION INC.                                            2017            1     5,620.00       500.00
FEDEX                                                                2017           16   115,671.00     7,000.00
FLAGSTAFF EXPRESS INC.                                               2017            1     5,000.00       500.00
FLORIDA BARGE CORP                                                   2017            1     5,000.00       500.00
FOUR HANDY LTD.                                                      2017            1     5,000.00       750.00
FRONTIER AIRLINES                                                    2017            1     5,000.00       500.00
G D T ENTERPRISES LTD.                                               2017            2    10,000.00     1,000.00
GAC SHIPPING (USA) INC.                                              2017            3    15,000.00     2,000.00
GANNET SHIPPING LLC                                                  2017            1     5,000.00       750.00
GENERAL MARITIME                                                     2017            1     5,000.00     1,500.00
GENERAL STEAMSHIP                                                    2017            5    40,000.00     7,250.00
GOJET AIRLINES                                                       2017            1     5,000.00     5,000.00
GREAT WHITE FLEET LTD.                                               2017           49   245,000.00    24,800.00
GRIMALDI DEEP SEA S.P.A.                                             2017            1   100,000.00         0.00
GS TRANSPORT                                                         2017            1     5,000.00         0.00
GULF HARBOR SHIPPING                                                 2017            1     5,000.00     1,760.00
GURU GLOBE MOVING SYSTEMS                                            2017            1     5,393.88         0.00
HAMBURG SUD                                                          2017           21   105,000.00    73,687.00
HANJIN SHIPPING                                                      2017            2    10,000.00    10,000.00
HAPAG-LLOYD (AMERICA) INC.                                           2017           10    50,000.00    16,250.00
HAPPY CHINA                                                          2017            1     1,000.00       100.00
HEYL TRUCK LINES INC.                                                2017            1     5,000.00       500.00
HIGHLIGHT MOTOR FREIGHT INC.                                         2017            2    20,000.00     1,000.00
HILLSIDE TRUCKING LTD.                                               2017            1    10,000.00       500.00
HISAMOTO KISEN CO. LTD.                                              2017            1     5,000.00       750.00
HONOUR LANE SHIPPING LTD.                                            2017            2    10,000.00     6,000.00
HOST AGENCY                                                          2017            2    10,000.00     2,500.00
HYNDMAN TRANSPORT LIMITED                                            2017            1     5,000.00       500.00
HYUNDAI MERCHANT MARINE (AMERICA)                                    2017            7    35,000.00    10,500.00
ICELAND AIR                                                          2017            1    10,000.00     1,000.00
IDEAL TRANSPORT & DRIVING                                            2017            1     5,000.00         0.00
INCHCAPE SHIPPING SERVICES                                           2017            7    35,000.00     3,200.00
INTERNATIONAL TRADE SOLUTIONS                                        2017            1     5,000.00         0.00
JAGJOT EXPRESS INC.                                                  2017            1       500.00       500.00
JAPAN AIRLINES CO. LTD.                                              2017            1     5,000.00         0.00
JET AVIATION                                                         2017            1     5,000.00       650.00
JET METHODS INC.                                                     2017            1     5,000.00       600.00
JETLEASE                                                             2017            1     5,000.00       600.00
K LINE AMERICA INC.                                                  2017            7    35,000.00    16,000.00
K3 MARITIME AGENCY INC.                                              2017            2     5,500.00     5,500.00
KALITTA CHARTERS, LLC                                                2017            1     5,000.00     1,000.00
KARRIERS INC.                                                        2017            1     5,000.00       500.00
KENYA AIRWAYS LTD.                                                   2017            1     5,000.00     5,000.00
KEYSTONE AUTOMOTIVE                                                  2017            2     8,292.00     2,000.00
KEYSTONE AVIATION LLC                                                2017            1     5,000.00       500.00
KING OCEAN SERVICES                                                  2017            2     5,500.00     2,250.00
KING OF THE ROADS                                                    2017            6    46,378.00         0.00
KIRBY OFFSHORE                                                       2017            2    10,000.00     1,000.00
KLM ROYAL DUTCH AIRLINES                                             2017            6    30,000.00     4,500.00
KOREAN AIRLINES                                                      2017            5    25,000.00       800.00
LAN CARGO                                                            2017            2    10,000.00     3,500.00
LANDSTAR INWAY                                                       2017            2    10,500.00     1,000.00
LANDSTAR RANGER INC.                                                 2017            1       500.00       500.00
LATAM AIRLINES                                                       2017            1     5,000.00         0.00
LAWRENCE GIESBRECHT TRANS INC.                                       2017            2    10,000.00       500.00
LCS LOGISTICS INC.                                                   2017            1     5,000.00     1,500.00
LIGHTHOUSE SHIPPING AGENCY                                           2017            1       500.00       500.00
LIGHTWAY TRANSPORT INC.                                              2017            2    10,000.00     1,000.00
LOFTY INC.                                                           2017            1       500.00       500.00
LOGISTICA DE CARGA DEL NOROESTE                                      2017            1     5,000.00       500.00
LOGISTICA ROCHA SA DE CV                                             2017            1     5,000.00       500.00
LONGVIEW LOGISTICS LTD.                                              2017            1     5,000.00       500.00
LOTT SHIP AGENCY                                                     2017            2    10,000.00     1,250.00
LUFTHANSA CARGO                                                      2017            3    15,000.00     3,500.00
LYON AVIATION                                                        2017            1     5,000.00         0.00
MAERSK                                                               2017           73   365,000.00   312,075.00
MANN, R TRUCKING LTD.                                                2017            1     5,000.00         0.00
MARIANA EXPRESS LINES                                                2017            1     5,000.00     3,500.00
MATSON NAVIGATION                                                    2017            2    10,000.00     2,500.00
MEDITERRANEAN SHIPPING CO.                                           2017           21   200,000.00    35,150.00
MESA AIRLINES INC.                                                   2017            2    10,000.00     2,000.00
MITSUI O S K LINES                                                   2017           56   280,000.00   181,400.00
MNG AIRLINES CARGO                                                   2017            1     5,000.00     5,000.00
MORAN SHIPPING AGENCIES                                              2017            1     5,000.00       750.00
NANAK TRUCK TRANSPORT                                                2017            1       500.00       500.00
NATIONAL SHIPPING CO. OF SAUDI ARABIA                                2017            6    30,000.00    10,500.00
NAVIOS TANKERS MGT                                                   2017            1     5,000.00       500.00
NAVKIN TRANSPORT LTD.                                                2017            1     5,000.00       500.00
NEOCON INT.                                                          2017            1     5,000.00         0.00
NIPPON CARGO AIRLINE                                                 2017            2    10,000.00     1,000.00
NORD SUD SHIPPING, INC.                                              2017            1    10,000.00     1,500.00
NORFOLK TRANSPORT LTD.                                               2017            3    15,000.00     1,500.00
NORTON LILLY                                                         2017           12    40,000.00     4,000.00
NORWEGIAN AIR SHUTTLE                                                2017            2    10,000.00     6,000.00
NORWEGIAN CRUISE LINE                                                2017            9     8,400.00     4,500.00
NSC SHIPPING                                                         2017            1     5,000.00       500.00
NSN TRANSPORT                                                        2017            2    93,888.00         0.00
NYK LINE                                                             2017            9    45,000.00    29,800.00
OCEAN BLUE XPRESS, LTD.                                              2017            1     7,104.00         0.00
OCEANIA CRUISE LINES                                                 2017            2     1,500.00     1,500.00
OLD DOMINION FREIGHT                                                 2017            7   138,000.00     4,500.00
ONE CALL LOGISTICS INC.                                              2017            2    10,000.00     1,000.00
ORIENT OVERSEAS CONTAINER LINE                                       2017           13    65,000.00     8,000.00
OS TVM LOGISITICS                                                    2017            1     5,000.00       500.00
P & D LOGISTICS LTD.                                                 2017            1    10,000.00       500.00
PACIFIC BUFFET                                                       2017            1     1,000.00       100.00
PACIFIC COAST JET CHARTER INC.                                       2017            1     5,000.00         0.00
PACIFIC INTERNATIONAL LINES (PTE) LTD.                               2017            6    30,000.00    16,200.00
PARACLETE TRANSPORT LTD.                                             2017            1     5,000.00       500.00
PAUL BRANDT TRUCKING                                                 2017            2    10,000.00       500.00
PEARL TRANSPORT INC.                                                 2017            1    10,000.00       500.00
PEEL CARTAGE SYSTEM                                                  2017            1     7,104.00         0.00
PENNER INTERNATIONAL                                                 2017            2    10,000.00       500.00
PETES GENERAL FREIGHT                                                2017            1     5,000.00         0.00
PHILIPPINE AIRLINES INC.                                             2017            1     5,000.00     1,000.00
PJSC AIRLINE UKRAINE AIR ALLIANCE                                    2017            1     5,000.00     1,000.00
POLYNESIA LINE LTD.                                                  2017            3    15,000.00     8,000.00
PRAIRIE GOLD TRANSPORT LTD.                                          2017            1     5,000.00         0.00
PROMAR AGENCY LTD.                                                   2017            1       500.00       500.00
QANTAS AIRLINES                                                      2017            9    45,000.00     6,000.00
QATAR AIRWAYS                                                        2017           13    65,000.00    39,500.00
R M LOGISTICS INC.                                                   2017            1     5,000.00         0.00
R&T LOGISTICS INC.                                                   2017            2    23,628.00     2,000.00
REIMER EXPRESS LINES                                                 2017            1     5,000.00     1,000.00
RITTERMAN TRUCKING LLC                                               2017            1     5,000.00       500.00
ROSEDALE TRANSPORT LTD.                                              2017            1     5,000.00       500.00
ROYAL AIR MAROC                                                      2017            2    10,000.00     1,000.00
ROYAL CARIBBEAN                                                      2017           12    16,900.00     4,700.00
ROYAL DUTCH AIRLINES                                                 2017            2    10,000.00     2,000.00
RPM TRANSIT                                                          2017            1     5,000.00       500.00
RSB LOGISTICS                                                        2017            1     5,000.00       500.00
RUBY TRUCK LINE INC.                                                 2017            2    10,000.00     1,000.00
RYDER INTEGRATED LOGISTICS                                           2017            1    10,000.00       500.00
S AND S TRANSPORT LTD.                                               2017            1     5,000.00       500.00
S B TRUCKING LTD.                                                    2017            1    10,000.00       304.00
SAFMARINE CONTAINER LINES                                            2017            6    30,000.00    13,200.00
SAUDI ARABIAN AIRLINES                                               2017            1     5,000.00     1,000.00
SCANDINAVIAN AIRLINES                                                2017            6    30,000.00     8,500.00
SCOTLYNN COMMODITIES, INC.                                           2017            1     1,371.60       500.00
SEA MARK MANAGEMENT INC.                                             2017            1       500.00       500.00
SEALAND                                                              2017            8    40,000.00    16,287.00
SEAMAX NORWALK                                                       2017            1     5,000.00     3,000.00
SEARCY TRUCKING LTD.                                                 2017            2    10,000.00     1,000.00
SEATRADE GROUP NV                                                    2017            1     5,000.00     1,500.00
SERVICIOS AEREOS ACROSS S.A.                                         2017            1     5,000.00         0.00
SETA TRANSPORTATION                                                  2017            2    10,000.00         0.00
SHIPCO TRANSPORT INC.                                                2017            1     5,000.00     1,000.00
SILK WAY WEST AIRLINES                                               2017            1     5,000.00         0.00
SILVER AIRWAYS                                                       2017            2    10,000.00    10,000.00
SILVERSEAS CRUISES LTD.                                              2017            1     5,000.00     1,000.00
SKELTON TRUCK LINES, LTD.                                            2017            1       500.00       500.00
SKY REGIONAL AIR                                                     2017            2    10,000.00     1,000.00
SM LINE CORPORATION                                                  2017            1     5,000.00     1,000.00
SOCIETE AIR FRANCE                                                   2017            3    15,000.00    10,500.00
SOUTHPORT AGENCIES INC.                                              2017            2    10,000.00     2,000.00
SOUTHWEST AIRLINES                                                   2017            4    20,000.00         0.00
SOUTHWEST CARRIERS, INC.                                             2017            1       500.00       500.00
STARTECK TRANSPORT                                                   2017            1    10,000.00       500.00
SUNQUEST EXEC AIR CHARTER                                            2017           12    60,000.00     6,000.00
SUNSET EXPRESS INC.                                                  2017            2    10,000.00       500.00
SWAG TRANSPORT LTD.                                                  2017            1     5,000.00       500.00
SWISS INTERNATIONAL AIR                                              2017            3    15,000.00     1,500.00
SYSTEMS TRANSPORT, INC.                                              2017            2     5,771.00     1,000.00
T. PARKER HOST, INC.                                                 2017            1    10,000.00     2,500.00
TACA AIRLINES                                                        2017            1     5,000.00         0.00
TAMPA CARGO S.A.                                                     2017            1     5,000.00     2,500.00
TANDET LOGISTICS INC.                                                2017            1     5,000.00       500.00
TANGO LIMA LLC                                                       2017            1    10,000.00     1,100.00
TDX LOGISTICS INC.                                                   2017            1    10,000.00       500.00
TEAMS 3163601 MANITOBA LTD.                                          2017            1     5,000.00       500.00
TERMINAL SHIPPING CO., INC.                                          2017            1     5,000.00     2,000.00
TEUTONIC TRANSPORT INC.                                              2017            1     5,000.00       500.00
THE CHINA NAVIGATION CO. PTE LTD.                                    2017            1     5,000.00     1,500.00
TOP WAY LOGISTICS                                                    2017            2    20,000.00     1,000.00
TRACTORES Y CAMIONES DE NOGALE                                       2017            2    15,000.00     1,500.00
TRAILER BRIDGE INC.                                                  2017            1     5,000.00       500.00
TRANS STATES AIR                                                     2017            2    10,000.00     5,500.00
TRANS-EXEC AIR SERVICE, INC.                                         2017            1     5,000.00     5,000.00
TRANSFRUT EXPRESS LIMITED                                            2017            6    30,000.00     1,000.00
TRANSMARINE NAVIGATION                                               2017            2    10,000.00     1,500.00
TRANSPORTES                                                          2017           11    65,000.00     5,500.00
TRANSX LTD.                                                          2017            2    15,000.00     1,500.00
TRAVEL SERVICE A.S.                                                  2017            1     5,000.00         0.00
TRIDAN TRANSPORT LLC                                                 2017            1    10,000.00         0.00
TRIPLE O TRANSPORT                                                   2017            1     5,000.00       500.00
TURK ENTERPRISES                                                     2017            1     5,000.00       500.00
TURKISH AIRLINES INC.                                                2017           27   140,000.00    30,500.00
UNIDOS TRANSPORT                                                     2017            1     5,000.00       500.00
UNION COMMERICAL                                                     2017            1     5,000.00       750.00
UNION PACIFIC RAILROAD COMPANY                                       2017            6    58,254.00         0.00
UNIPAC SHIPPING INC.                                                 2017            1     5,000.00       500.00
UNITED AIRLINES                                                      2017           51   304,000.00    49,500.00
UNITED ARAB SHIPPING CO.                                             2017            5    25,000.00    14,500.00
UPS                                                                  2017           13   151,389.00     9,500.00
V SHIPS LTD.                                                         2017            1     5,000.00     1.000.00
VICTORIA SHIP MANAGEMENT                                             2017            1       500.00         0.00
VIRGIN ATLANTIC AIRWAYS                                              2017            5    25,000.00     7,500.00
VITESSE TRUCKING SERVICE                                             2017            2    56,526.00     2,000.00
VOLARIS                                                              2017            1     5,000.00     5,000.00
VOLGA DNEPR CARGO AIRLINES                                           2017            1     5,000.00         0.00
VULICA SHIPPING CO. LTD.                                             2017            1     5,000.00     2,000.00
WAN HAI LINES (AMERICA) LTD.                                         2017            3    15,000.00     6,000.00
WAYNE TRANSPORTS INC.                                                2017            1     5,000.00       500.00
WESTERN GLOBAL AIRLINES LLC                                          2017            2    10,000.00       500.00
WESTERN OVERSEAS CORP                                                2017            1     5,000.00       500.00
WESTERN SHIPPING AMERICA INC.                                        2017            2    10,000.00     8,700.00
WESTJET                                                              2017            1     5,000.00     1,000.00
WHITERIVER LOGISTICS                                                 2017            1     5,000.00       500.00
WILHELMSEN SHIPS SERVICE INC.                                        2017            2    10,000.00     5,000.00
WORLD TANKERS MANGEMENT                                              2017            1     5,000.00     1,250.00
WORLDWIDE CARRIERS LTD.                                              2017            1     5,000.00       500.00
YANG MING MARINE TRANSPORT                                           2017            2    10,000.00     5,000.00
YANGTZE RIVER AIRLINES                                               2017            1     5,000.00         0.00
YUSEN LOGISTICS (AMERICAS) INC.                                      2017            1     5,000.00     2,450.00
ZETTA JET USA                                                        2017            1     5,000.00         0.00
ZIM INTEGRATED SHIPPING SERVICES                                     2017            8    40,000.00    30,000.00
----------------------------------------------------------------------------------------------------------------


------------------------------------------------------------------------
                                                        2017
------------------------------------------------------------------------
Penalties                                                       1,216.00
------------------------------------------------------------------------
Assessed Amount                                            $6,568,511.34
------------------------------------------------------------------------
Collected Amount                                           $1,780,923.13
------------------------------------------------------------------------

                           detailed employees
    Question. Please provide an updated list of all employees that have 
been temporarily detailed to another assignment in FY 2018. Please 
include the area of responsibility that they were detailed from, the 
location that they were detailed to, the dates of the detail, and the 
justification for that detail.

    Answer. The level of detail requested is not available. However, 
CBP has a flexible workforce, and personnel may be given temporary duty 
assignments as events warrant.
                          tactical checkpoints
    Question. Please provide the number of tactical checkpoints that 
have been implemented between FY 2016 and FY 2018 broken down by area 
of responsibility. Please include a brief description of the 
operational necessity for each checkpoint.

    Answer. From fiscal year 2016 to fiscal year 2018, the U.S. Border 
Patrol implemented tactical immigration checkpoints at 93 locations 
throughout the United States. These checkpoints, part of USBP's 
defense-in-depth strategy, support overall enforcement efforts and are 
based on intelligence, operational tempo, and available resources. All 
checkpoint operations occurred at preapproved locations in the 
following sectors: San Diego, El Centro, Yuma, El Paso, Tucson, Big 
Bend, Del Rio, Laredo, Rio Grande Valley, Swanton, and Houlton.

                                 ______
                                 
               Questions Submitted by Hon. Maria Cantwell
                             tariff impact
    Question. I am concerned that the administration's trade war will 
jeopardize the jobs and economic impacts supported by our ports. 
Roughly $13.5 billion of goods moving through the ports of Seattle and 
Tacoma are now subject to increased tariffs. In retaliation, China has 
also imposed tariffs on U.S. wheat; roughly 10 percent of America's 
wheat destined for international markets moves through the port of 
Vancouver.

    Has the Trump administration considered the negative economic 
impact retaliatory tariffs will have on American ports across our 
country?

    What steps is the administration taking to mitigate the negative 
impacts that tariffs will have on port jobs and impacts?

    Answer. The Office of the United States Trade Representative (USTR) 
is responsible for developing and coordinating U.S. trade policy on 
behalf of the President of the United States. U.S. Customs and Border 
Protection (CBP) ensures these policies--inclusive of trade remedies--
are reflected, where appropriate, in the enforcement of U.S. Customs 
laws. As such, USTR is better positioned to provide a fulsome response 
to your question about the economic impacts of retaliatory tariffs.
                             port staffing
    Question. Last time you were before this committee, for your 
confirmation hearing, I asked you about staffing at our ports. You 
pointed out the impacts of increased innovation and programs like the 
AQUA Lane program, which allows sea carriers who are in good standing 
with the Customs-Trade Partnership Against Terrorism program to 
expedite their clearance process and unload their goods immediately 
upon arrival. While these programs are important, they do not replace 
the need for adequate staffing at our ports. More Customs officers are 
needed to ensure the smooth shipment of goods and to help our airports 
access additional international routes. The fiscal year 2017 staffing 
model indicated there was a need for over 2,500 additional Customs 
officers in FY 2018.

    How many of those positions have been filled at this time?

    Answer. The most recent congressional appropriation added funding 
for 328 additional CBPOs, increasing the authorized CBPO staffing level 
to 24,475. As of September 1, 2018 CBP employs 23,279 CBPOs, a net 
increase of 200 officers since the beginning of the fiscal year (FY).

    CBP has made significant progress toward filling vacant positions 
in FY 2018, and our budget requests continue to include additional 
recruitment and hiring initiatives to meet full staffing requirements 
not just to secure the border, but also to address critical emergent 
needs at the ports. CBP has focused its hiring efforts not just on 
CBPOs who perform law enforcement functions, but also on personnel who 
enhance CBP's travel and trade facilitation functions. These include 
customs auditors, international trade specialists, import specialists, 
Regulations and Rulings attorneys and Trade Facilitation and Trade 
Enforcement Act (TFTEA) implementation positions, as well as textile 
specialists, chemists and other personnel with specific skillsets that 
are essential to trade facilitation.
                       shortened hiring timeline
    Question. In your testimony you pointed to steps you have taken to 
improve the timeline of new hires from 469 days to 294 days. Has this 
shortened hiring timeline resulted in a meaningful increase in staffing 
or are additional steps needed to boost hiring?

    Answer. The referenced 469-day time to hire baseline dates back to 
January 2016, and the reduction to 291 days coincided with significant 
improvement in applicant-to-hire ratios, which in combination has 
resulted in meaningful increases in hiring. This was the result of 
multiple concurrent efforts, including process improvements, increased 
levels of engagement with applicants, enhanced data analytics, and 
continued investments in marketing, advertising, and recruitment. 
Because of these efforts and investments, CBP is on track to nearly 
double the number of Border Patrol Agent (BPA) hires and increase CBPO 
hires by more than 40 percent from FY16 to FY18. CBP is committed to 
continuing the refinement and improvement of our recruiting and hiring 
practices in order to further increase staffing levels.
                customs officers on the southern border
    Question. Earlier this year, there were reports that Customs 
officers were being taken from ports across the country and sent to the 
southern border. Which ports were these officers taken from?

    Answer. CBP Officers (CBPOs) are deployed to the southern border 
from across all field offices, with the exception of Preclearance. Each 
quarter approximately 100 CBPOs are detailed from across the country, 
minimizing the impact for any one port of entry. The rotational CBPOs 
are used for processing immigration cases and augmenting passenger 
processing in an attempt to minimize the impacts on the facilitation of 
legitimate trade and travel.

    Question. What metrics were used to make those decision?

    Answer. CBP's Office of Field Operations (OFO) analyzes the ratio 
of onboard personnel compared to the number of total authorized, the 
historical seasonal workload, and the number of current personnel in a 
training status for each field office. Using the analysis, OFO 
determines which field offices are best positioned to temporarily 
deploy staff as necessary.
                         vulnerable populations
    Question. U.S. and international law gives people fleeing violence 
and persecution the right to pursue asylum in the United States. In 
your testimony before the committee you state that over 1,000 asylum 
seekers have been turned away at the border and are waiting between 7-
14 days before their claims can be processed. In your testimony you 
stated that these wait times depend ``on ICE's capacity to pick people 
up who are in our custody.''

    What about the problem of families waiting to claim asylum and 
waiting in makeshift shelters at the border, which is especially 
difficult for vulnerable populations?

    Answer. CBP carries out its mission of border security while 
adhering to U.S. law and international legal obligations for the 
protection of vulnerable and persecuted persons. The laws of the United 
States, as well as international treaties to which we are a party, 
allow people to seek asylum and related forms of relief and protection 
on the grounds that they fear being persecuted in their country of 
nationality or last habitual residence because of their race, religion, 
nationality, membership in a particular social group, or political 
opinion, or where it is more likely than not that they would be 
tortured if removed to the proposed country of removal. CBP understands 
the importance of complying with these laws, and takes its legal 
obligations seriously. Accordingly, CBP has designed policies and 
procedures based on these legal standards, in order to protect 
vulnerable and persecuted persons in accordance with these legal 
obligations. CBP strives to process cases in an expeditious manner and 
there are several factors which affect how long case processing takes. 
These factors include, for instance, availability of translation 
services, traffic volume, and enforcement activity occurring at the 
port of entry (POE).

    Question. What is the current guidance for how CBP officers and 
border agents treat vulnerable populations like the disabled, elderly, 
children, and pregnant women both crossing the border and at ports of 
entry?

    Answer. CBP strives to process the traveling public in an 
expeditious manner and there are several factors that affect how long 
it may take. These factors include, for instance, availability of 
translation services, traffic volume, and enforcement activity 
occurring at the POE.
                       identifying asylum seekers
    Question. CBP officers and Border Patrol agents are often the first 
U.S. officials an asylum seeker meets when they enter the United 
States. They serve an important role in the processing of asylum 
seekers in the United States.

    How do CBP officers and Border Patrol agents determine whether or 
not an individual is an asylum seeker?

    Answer. Individuals who seek asylum or other forms of relief or 
protection may present themselves at any port of entry (POE). If an 
individual arriving in the United States at a POE or apprehended within 
14 days of entry and 100 miles of the border is inadmissible to the 
United States due to a lack of proper documents or engaging in fraud or 
misrepresentation, the individual may be placed in expedited removal 
proceedings. However, if the individual expresses an intention to apply 
for asylum, a fear of persecution or torture, or a fear of return to 
his or her country of origin, his or her case is referred to U.S. 
Citizenship and Immigration Services (USCIS) for a credible fear 
determination. Certain individuals who are ineligible for asylum 
because they are subject to the reinstatement of a prior removal order 
or to streamlined administrative removal proceedings as aggravated 
felons, may nevertheless be entitled to protection from removal to a 
country where they face a likelihood of persecution or torture. Such 
individuals are referred to USCIS for a reasonable fear screening if 
they express a fear of return to their country of origin. Such 
individuals are referred to USCIS for a reasonable fear screening if 
they express a fear of return to the country of removal.

    Question. What guidance have they been given regarding identifying 
and processing asylum seekers?

    Answer. Agents have been instructed to refer all individuals to 
USCIS who express an intention to apply for asylum, a fear of 
persecution or torture of return to his or her country of origin. 
Agents do not make credible fear determinations nor weigh the validity 
of the claim.
                             data recording
    Question. How is data recorded regarding the questions CBP officers 
and Border Patrol agents ask and the responses they receive from 
apprehended individuals?

    Answer. CBP maintains systems of records, which have publicly 
available Systems of Records Notices and Privacy Impact Assessments. In 
general, information obtained from aliens during processing will become 
part of the alien's Alien file, known as an ``A file.''

    Question. How do CBP officers and Border Patrol agents ensure that 
individuals apprehended at the border understand the questions being 
asked of them?

    Answer. All charging documents are translated to a language the 
alien can understand. In addition, U.S. Border Patrol (USBP) agents 
receive Spanish language training at the academy and are required to be 
proficient as a condition of employment.

    Question. What kind of translation services are provided?

    Answer. CBP maintains a contract for telephone interpretation 
services for instances where an alien who does not speak English or 
Spanish is apprehended as well as the language translation from agents 
at the border and CBP Officers and other personnel.

    Question. What information is recorded about the apprehended 
individual's ability to understand the questions they are being asked?

    Answer. CBP maintains systems of records, which have publicly 
available Systems of Records Notices and Privacy Impact Assessments. In 
general, information obtained from aliens during processing will become 
part of the alien's A file.

    Question. Do CBP officers and Border Patrol agents give apprehended 
individuals a chance to review any data record for accuracy?

    Answer. Yes, before any Sworn Statement or Notice to Appear (NTA) 
is signed, data integrity questions are asked by the processing agent. 
Once verbally approved, the alien is asked to sign agreeing to the 
accuracy and service.

    CBP maintains systems of records, which have publicly available 
Systems of Records notices and Privacy Impact Assessments. In general, 
information obtained from aliens during processing will become part of 
the alien's A file.

    Question. If so, are they provided translation services to ensure 
they understand the recorded data?

    Answer. Yes, if translation or interpretation services are needed, 
they are provided.

    Question. If the individual is illiterate, does someone read the 
data recorded aloud to them?

    Answer. Yes, both the data and all charging documents and official 
correspondence is read to the alien in a language that he or she can 
understand. In cases where a sworn statement is provided, aliens are 
required to review their statement for accuracy and sign as 
verification.

    Question. Is the data recorded verified by another officer or by a 
supervisor?

    Answer. There are multiple checks and balances built into the 
system to ensure accuracy, legal sufficiency, and completeness of all 
data collected. This includes reviews by first and second line 
supervisors.

    Question. How many CBP officers or Border Patrol agents are 
required to be present when questioning an apprehended individual?

    Answer. Each apprehension is unique and agents assess the alien's 
criminal history, demeanor, age, gender, mental capacity, and other 
factors to determine the number of personnel required to interview an 
alien. There is no set policy on agent-to-alien ratio, and each 
individual is assessed on a case-by-case basis.

    Generally, the case Officer/Agent is the only one required to be 
present, but due to the facility constraints, there may be multiple 
Officers/Agents within the vicinity of the individual being processed.
                      tracking separated families
    Question. Due to the Trump administration's zero-tolerance policy, 
over 2,300 children were separated from their families. This was not a 
surprise to Trump administration officials. Statements from various 
administration officials have indicated that they were well aware that 
the policy would result in the separation of families.

    Before the implementation of the zero-tolerance policy, did you put 
into place a process to keep track of families after they were 
separated? Were you given any instructions by administration officials 
about putting a process of reunification in place?

    Answer. The U.S. Border Patrol (USBP) has records of all subjects 
that are apprehended together. Family Unit records are stored in the 
Enforcement Integrated Database (EID). Additionally, the family unit 
information is captured within the Alien Registration file that is 
provided to ICE Enforcement and Removal Operations at the time that the 
alien is transferred to their custody. Additionally, the department of 
Health and Human Services were provided with parent or legal guardian 
information at the time of placement requests through ORR's UAC Portal.
                          records of families
    Question. Does the Border Patrol have records of who entered the 
United States together? As DHS and HHS work to reunify families, how 
have these records been used and have these records been accurate?

    Answer. The U.S. Border Patrol (USBP) has records of all subjects 
that are apprehended together. Alien apprehension, intake, and 
processing data records are stored in the Enforcement Integrated 
Database (EID).
                           reuniting children
    Question. What are you doing to help reunite children with their 
parents who have already been deported?

    Answer. The U.S. Government is currently taking steps to facilitate 
reunification in cases where the parents have asked to be reunified and 
when such reunifications are appropriate. On August 16, 2018, the 
government filed a reunification plan for children with parents who 
were previously removed with the district court in the case of Ms. L. 
v. I.C.E., No. 18-cv-0428 (S.D. Cal. filed Feb. 26, 2018).

    Question. How is CBP working with other agencies to assist in this 
effort?

    Answer. CBP has provided all relevant information on apprehended 
aliens (both parents and minors) to U.S. Immigration and Customs 
Enforcement (ICE) and the Department of Health and Human Services 
(HHS).
                      tftea section 303 regulation
    Question. In the Trade Facilitation and Trade Enforcement Act of 
2015 (TFTEA), section 303 called for a new regulation regarding the 
disclosure of information upon seizure of circumvention devices to be 
promulgated within a year of the enactment of the legislation. This 
February marked 2 years since the passage of TFTEA and the regulation 
has yet to be promulgated. Circumvention devices are used to break the 
security of hardware in order to access illegal copyrighted content 
typically downloaded from the Internet. It is important for CBP to 
share information with businesses that are harmed by circumvention 
devices when they seize those devices.

    Please provide me with an update on the promulgation of the 
regulation required by TFTEA section 303. When will the promulgation of 
this regulation be completed?

    Answer. CBP has drafted a Notice of Proposed Rulemaking (NPRM) to 
implement TFTEA section 303. The NPRM has been reviewed by the 
Department of the Treasury. The Office of Management and Budget is 
currently reviewing the draft, along with interagency partners, under 
Executive Order 12866.
              Questions Submitted by Hon. Robert Menendez
                       asylum-seekers turned back
    Question. The Department of Homeland Security has repeatedly 
encouraged migrants seeking asylum to cross at ports of entry and not 
in between ports of entry. U.S. Customs and Border Protection (CBP) 
claims that no one at a port of entry is being denied an opportunity to 
make a claim of asylum. However, due to capacity issues, asylum seekers 
are being turned away at ports of entry and told to come back later.

    How many potential asylum-seekers have presented themselves 
formally at a port of entry but have been turned back by CBP officers 
due to capacity issues?

    Answer. An alien who arrives in the United States and is subject to 
expedited removal who asserts a fear of persecution or torture, or 
indicates an intention to apply for asylum is referred for a credible 
fear screening determination. Aliens who arrive in the United States, 
but are not subject to expedited removal, may seek other forms of 
protection or relief, depending on the manner of their arrival. CBP 
policy is to process all travelers, including applicants for admission, 
in an expeditious manner. All ports of entry (POEs) must balance 
resources to focus on the agency's core missions of safeguarding the 
border while promoting legitimate travel and trade.

    Question. What is the capacity at ports of entry to process people?

    Answer. CBP's Office of Field Operations (OFO) processes all aliens 
who apply for admission at U.S. POEs, and does not turn away anyone who 
is seeking asylum. At times, due to operational capacity or as 
necessary to facilitate orderly processing and maintain the security 
and safety of the traveling public, individuals may need to wait in 
Mexico before being permitted to enter the POE. Upon reaching the U.S. 
side of the border, all individuals are processed.

    Question. Please break down the data for each specific port of 
entry into the United States on the southern border, as well as a 
totality for all ports of entry on the southern border. Additionally, 
please include all data from January 1, 2018 to present day.

    Answer. OFO would need additional information to determine what 
specific data is being requested.
                               wait times
    Question. How long are the wait times at the ports of entry on the 
southern border to receive families who are claiming asylum?

    How do you monitor this wait? Please break down the data for each 
specific port of entry into the United States at the southern border, 
as well as a totality for all ports of entry on the southern border.

    Answer. Border wait times for commercial vehicles, passenger 
vehicles, and pedestrians are provided to the traveling public at 
https://bwt.cbp.gov. OFO strives to process cases in an expeditious 
manner and there are several factors which may affect how long case 
processing takes. These factors include, for instance, availability of 
interpretation services, traffic volume, and enforcement activity 
occurring at the port of entry (POE). At times, due to operational 
capacity or as necessary to facilitate orderly processing and maintain 
the security and safety of the traveling public, individuals may need 
to wait in Mexico before being permitted to enter the POE. Upon 
reaching the U.S. side of the border, all individuals are processed. 
Upon completion of inspection when the individual expressed a desire to 
apply for asylum, the individual is referred to USCIS for eligibility 
determination.
                            daily processing
    Question. How many asylum seekers are you processing daily at ports 
of entry? Please break down the data for each specific port of entry 
into the United States on the southern border, as well as a totality 
for all ports of entry on the southern border. Additionally, please 
include all data from January 1, 2018 to present day.

    Answer. For the southwest border, CBP referred on average 90 asylum 
seekers per day at the POEs from May 1, 2018 through August 13, 2018. 
Data prior to May is unavailable, and CBP is unable to provide port 
specific data.
                           family processing
    Question. Do you currently have a protocol to process families that 
arrive at a port of entry, including prioritizing on a humanitarian 
basis for groups like pregnant women? If not, are you developing one?

    Answer. CBP policy is to process both applicants for admission and 
the traveling public in an expeditious manner, and there are several 
factors that affect how long case processing takes. These factors 
include, for instance, availability of translation services, traffic 
volume, and enforcement activity occurring at the port of entry. CBP 
prioritizes the inspection of those inadmissible applicants for 
admission who are high-risk (e.g., unaccompanied alien children, 
pregnant women).
                            designated ports
    Question. Advocates have reported that in some ports people are 
being told to go to designated ports.

    Do you have ``designated'' ports where asylum seekers are 
processed?

    If CBP is designating ports for asylum processing, please provide a 
complete list of these designated ports, along with the legal 
justification for such a process.

    Answer. No, any alien who arrives in the United States at any POE 
may seek asylum pursuant to U.S. law.
                           families separated
    Question. Please provide a monthly breakdown of the number of 
family units separated by U.S. Border Patrol and U.S. Office of Field 
Operations since January 2017. Include when and where all family 
separations occurred.

    Answer. The U.S. Border Patrol (USBP) did not start tracking family 
separations in the official system of record until April 19, 2018. CBP 
is currently working closely with U.S. Immigration and Customs 
Enforcement (ICE) to compile a complete and accurate list.


------------------------------------------------------------------------
  Activity-Person-Juvenile Created
                Date                    Activity-Person-Juvenile Count
------------------------------------------------------------------------
August                                                                 5
------------------------------------------------------------------------
July                                                                  20
------------------------------------------------------------------------
June                                                                   6
------------------------------------------------------------------------
May                                                                    5
------------------------------------------------------------------------



            Total Apprehensions Separated From a Family Unit
------------------------------------------------------------------------
 Border   Sector    Apr     May     Jun     Jul     Aug     Sep    Total
------------------------------------------------------------------------
             BBT             126       5                       1     132
         ---------------------------------------------------------------
             DRT       7     147      60       2       2             218
         ---------------------------------------------------------------
             ELC       2       4      14       4       2      14      40
         ---------------------------------------------------------------
             EPT       6     998     437       7      12      15   1,475
         ---------------------------------------------------------------
SBO          LRT               4      10                              14
         ---------------------------------------------------------------
             RGV      85   1,189   1,415      67      85      73   2,914
         ---------------------------------------------------------------
             SDC       9      12       9       2       9       8      49
         ---------------------------------------------------------------
             TCA       4     154      61       4       4      19     246
         ---------------------------------------------------------------
             YUM      73   1,113     211      14      19      34   1,464
------------------------------------------------------------------------
    SBO              186   3,747   2,222     100     133     164   6,552
     Tot
     al
------------------------------------------------------------------------

    Question. Please provide a breakdown of total family separations 
since January 2017 reflecting the reasons for the separation, whether 
the separation occurred at or between a port of entry, and whether the 
parent was referred for prosecution and if so for what offense.

    Answer. USBP did not start tracking family separations in the 
official system of record until April 19, 2018. CBP is currently 
working closely with ICE to reconcile a complete and accurate list.
                        referred for prosecution
    Question. Please provide data on the number of asylum seekers who 
arrived at ports of entry who were referred for prosecution in FY 2018. 
Please provide data on the number of asylum seekers who arrived in 
between ports of entry who were referred for prosecution in FY 2018.

    Answer. CBP does not maintain statistics of all individuals who 
seek relief or protection, particularly given that these claims may be 
made before an immigration judge or affirmatively to U.S. Citizenship 
and Immigration Services (USCIS). However, for inland cases, we can 
provide information about those individuals who were subject to 
expedited removal at the time of processing and claimed a fear of 
return. As of August 9, 2018, the U.S. Border Patrol (USBP) apprehended 
43,260 aliens who were subject to expedited removal and who claimed a 
fear of return. Of those 43,260 apprehensions, 7,545 were referred for 
prosecution. CBP does not maintain records with respect to such 
referrals at ports of entry, where such referrals would be rare and 
limited to cases where someone either attempts to drive or run through 
a POE without inspection.
                              allegations
    Question. There have been reports of inhumane conditions and 
treatment of children and families in short-term CBP detention.

    What steps is DHS/CBP taking to investigate the numerous 
allegations of unsafe conditions and coercive or abusive treatment of 
children and their families in short-term CBP custody?

    Answer. DHS/CBP takes all allegations of employee misconduct 
seriously. Under a uniform system, misconduct allegations involving CBP 
agents, officers, and other employees are recorded and immediately 
referred to the DHS Office of Inspector General (OIG) for independent 
review and assessment. Cases are either retained by the DHS OIG for 
investigation or referred back to CBP for assessment/investigation. 
Upon completion of an investigation, the findings are referred to 
management for review and any appropriate action.

    Question. There have been reports of inhumane conditions and 
treatment of children and families in short-term CBP detention.

    Have any CBP personnel been disciplined in any way relating to 
their interactions with children or parents since the beginning of the 
Trump administration?

    Answer. As noted above, DHS/CBP takes all allegations of employee 
misconduct seriously. However, the Privacy Act generally precludes CBP 
from releasing information on disciplinary or other corrective action 
taken against employees.

    Question. Will the results of any investigation into these 
allegations be made public?

    Answer. CBP does not release results of any individual 
investigations. In addition, the Privacy Act generally precludes CBP 
from releasing information on disciplinary or other corrective actions 
taken against employees.
                           exclusion requests
    Question. In mid-April, a New Jersey manufacturer applied for 
exclusions from the steel 232 tariffs because they were unable to find 
a U.S. supplier that could meet their need for imported steel. It is my 
understanding that Commerce and other agencies first reviewed their 
applications to ensure they were accurate and complete. After that 
review, their applications underwent public comment, during which no 
U.S. company objected to their exclusion requests. Then the 
applications went through another month of interagency review. The 
company finally learned on July 10th that Commerce denied their 
applications because the company did not provide sufficient information 
to verify the product description and tariff code. Commerce recommended 
my constituent work with CBP to identify the correct product 
classification for their imports and reapply. So now my constituent 
will have to go through this entire process again, and in the mean time 
they will continue paying the tariffs and may have to lay off workers 
or import the fully finished product, which is not subject to the steel 
tariffs.

    Did CBP conduct a preliminary review of any exclusion requests 
prior to the initial public posting by Commerce?

    Answer. CBP does not receive the section 232 exclusion requests 
prior to public posting by the Department of Commerce, and hence did 
not conduct a preliminary review.

    Question. If so, why didn't CBP flag applications like these 
earlier so that our constituents could get Commerce the appropriate 
information before going through this time-consuming process?

    Answer. CBP does not receive exclusion requests prior to public 
posting by Commerce.

    Question. If my constituent now works with CBP to identify the 
correct product description and tariff code for their exclusion 
request, refiles their application, and as before, doesn't receive any 
objection from any domestic steel suppliers, will the administration 
grant their exclusion request?

    Answer. If the constituent works with CBP and corrects its product 
description and refiles its request, a final determination will then be 
issued by Commerce.
                     product classification rulings
    Question. How many requests for product classification rulings has 
CBP received related to the 232 exclusion process? On average, how long 
has it taken CBP to issue a ruling for these cases?

    Answer. CBP has received approximately 115 requests for rulings 
related to the 232 exclusion process. On average, it has taken 
approximately 30 days to respond to a request.
                         gift package screening
    Question. Commissioner McAleenan, as you noted in your testimony, 
approximately 90 percent of CBP's seizures of counterfeit goods in FY 
2017 were shipped through express carriers or international mail. The 
Trade Facilitation and Trade Enforcement Act that Congress passed in 
2016 contained report language that I authored with Chairman Hatch to 
raise the enforcement priority for fake products, specifically those 
shipped as ``gifts'' to evade Customs duties and detection.

    Does a package marked as a ``gift'' that originates from a business 
address in a country like China, which is documented by CBP and other 
sources as being a major source of counterfeits, trigger any red flags 
for our agents?

    How has CBP changed its screening of packages marked as ``gifts'' 
since the passage of the Trade Facilitation and Trade Enforcement Act?

    Answer. CBP targeting practices take many pieces of information 
into consideration, including the description of the package and the 
originating address. CBP officers are trained to recognize the patterns 
illicit actors use to evade detection, and are continuously 
incorporating those trends into targeting algorithms that aid in 
identifying shipments that are potentially in violation of the law. 
However, CBP reserves the right to examine any goods that raise 
suspicion based on available information or the disposition of the 
package itself.
                              case review
    Question. Commissioner McAleenan, one of my constituents wrote to 
you in October of last year asking you to reevaluate determinations 
that my constituent believes CBP made in violation of a court ruling. 
While I appreciate your effort in reviewing this case, it has been 
nearly 9 months since my constituent began this process with CBP and 
they have yet to receive a substantive response.

    When do you expect to complete your review of this case?

    Answer. This constituent provided a list of 465 entries for which 
it claimed duty refunds and interest in specified amounts. None of 
these entries was the subject of the court decision; therefore, whether 
refunds may be owed depends on whether the entries were properly 
protested. CBP's Regulations and Rulings directorate within the Office 
of Trade has coordinated extensively with CBP's Office of Field 
Operations on this matter, and it was determined that a response to the 
constituent would not be provided until a response could be provided as 
to all of the entries at once. CBP anticipates responding to the 
constituent as soon as this information is available.

    Given the age of the entries, many documents have been purged from 
the Automated Commercial System (ACS), and reviewing many of the 
entries has required looking into ACS systems procedures in place for 
purging of records. For example, if the importer filed a protest, the 
protest was denied, and the importer did not file a timely summons at 
the Court of International Trade, the protest and entry records would 
have been purged. Similarly, if no protest was filed, after a certain 
period of time the entry records are purged. If protests were denied 
and no court summons was timely filed by the importer, or if no protest 
was timely filed by the importer with respect to the liquidation of a 
specific entry, that entry is finally liquidated with no further 
administrative remedy.
                           court obligations
    Question. Do you believe that CBP, during case-specific Court of 
International Trade (CIT) or Court of Appeals for the Federal Circuit 
(CAFC) litigation, is obligated to suspend entries, pending the outcome 
of the litigation, especially if an importer and/or its customs broker 
has notified the ports to do so?

    Answer. CBP follows all orders issued by the CIT and CAFC to 
suspend liquidation of entries. CBP has no legal obligation to suspend 
liquidation of entries pending the outcome of litigation as a general 
matter, absent a court order or instructions from the Department of 
Commerce in cases involving the administration of antidumping or 
countervailing duty orders. Importers may request extensions of 
liquidation under 19 U.S.C. 1504(b), but CBP is not legally obligated 
to grant such a request, absent a court order.
                      instructions from the court
    Question. If a port improperly liquidated entries, do you agree 
that Customs is still obliged to review and refund collected duties as 
instructed by court orders?

    Answer. Generally, although CBP may reliquidate an entry within 90 
days from the date on which notice of the original liquidation is 
transmitted to the importer, see 19 U.S.C. Sec. 1501, liquidated 
entries are otherwise final and conclusive upon all persons (including 
the United States and any officers) unless a protest is filed within 
180 days from the date of liquidation, or a civil action contesting the 
denial of a protest is commenced at the Court of International Trade. 
See 19 U.S.C. Sec. 1514. Any court orders that result from a civil 
action contesting the denial of a protest apply only to the liquidated 
entries covered by that protest and the summons challenging the denial 
of that protest. Therefore, if instructed by court order, CBP must 
reliquidate and refund collected duties for the specific liquidated 
entries that are identified in the court decision. See 19 CFR 
Sec. 176.31.

    Conversely, if a liquidated entry is not identified as the subject 
of a court decision, then CBP is neither obligated to review nor 
authorized to refund collected duties even if the principles of a court 
decision apply to the finally liquidated entry. For example, in the 
classification context, if a court decision changes the classification 
of merchandise in a manner that is adverse to the government, then the 
principles of that court decision are applied only to the specific 
unliquidated entries and protested entries, where the protest has not 
been denied in whole or in part and involves the same issue. See 19 CFR 
Sec. 152.16. In this context, CBP is not obligated to review or 
authorized to refund collected duties for liquidated entries that are 
not covered by undecided protests.

                                 ______
                                 
    Prepared Statement of Kurt Nagle, President and Chief Executive 
           Officer, American Association of Port Authorities
    Thank you for inviting the American Association of Port Authorities 
to testify at this hearing on Trade and Commerce at U.S. Ports of 
Entry. As requested, my focus today will be on infrastructure needs of 
seaports and ports' ability to support U.S. trade. At a time when the 
United States government is focused on creating American jobs, 
propelling the economy and modernizing infrastructure, the role played 
by the Nation's freight transportation system is more critical than 
ever. The importance of our Nation's infrastructure is evident in the 
President's call for $1.5 trillion to rebuild our Nation's 
infrastructure and Congress's budget agreement last year to devote an 
additional $10 billion on infrastructure in both FY 2018 and FY 2019. 
That is a good beginning and seaport infrastructure should be a high 
priority for these additional funds.

    AAPA is the unified and collective voice of the seaport industry in 
America and our U.S. member ports serve as a critical link in our 
Nation's international trade.

    Seaports are critical for the prosperity of American communities, 
regional economies and our overall standard of living. Throughout our 
Nation's history, seaports have served as vital economic engines that 
connect American farmers, manufacturers and consumers to the world 
marketplace. They deliver critical goods and services to consumers, 
ship U.S. exports, create jobs, support our military, and promote local 
and national economic growth. Cargo activity at America's seaports 
accounts for over 23 million jobs, over a quarter of the U.S. economy, 
$1.1 trillion in total annual personal income and local consumption, 
and over $320 billion in Federal, State, and local tax revenues. Now 
more than ever, seaports deliver prosperity for all Americans.

    With 95 percent of the world's population and 80 percent of global 
consumption located outside of the U.S., sustained investment in 
modern, well-maintained seaports and connecting infrastructure is vital 
to America's prosperity and global trade competitiveness. Building 
America's 21st-century seaport infrastructure requires considerable 
Federal investments. Both landside and waterside investments are 
critical to our Nation's competitiveness including our ability to 
export U.S. goods. Securing America's ports and borders and investing 
in the environment are also important to the health and safety of port 
communities and efficiency of U.S. seaports.

    To be competitive in the 21st-century global economy, our Nation 
needs a national multimodal freight network that incorporates and 
leverages every mode of freight transportation, whether on the 
waterside or the landside of seaport facilities. AAPA has projected 
that the 10-year needs of the seaport industry, including the Great 
Lakes, is $66 billion over the next 10 years. That includes $33.8 
billion for waterside projects and $32.03 billion in landside projects. 
The graphic below outlines the need and what is at risk without 
adequate investment in U.S seaport infrastructure.

[GRAPHIC] [TIFF OMITTED] T1818.007


    The key Federal programs that support seaport infrastructure are 
the U.S. Army Corps of Engineers (Corps) Navigation Program and the 
Department of Transportation's (DOT) discretionary grant programs, 
especially the TIGER/BUILD program and the freight programs established 
under the FAST Act. In regard to the Corps, it is charged with 
modernizing and maintaining the Nation's Federal navigation system, 
including those connecting to U.S. ports. Seaports and their private-
sector partners plan to spend $155 billion on infrastructure 
investments between 2016 and 2020, but seaports depend on the Corps to 
complete their projects on a timely basis. That has not always been the 
case.

    As you can see from the chart above, to fully maintain the deep-
draft navigation channels, AAPA calls for $27.6 billion over the next 
decade. This includes full use of the $9 billion in unused Harbor 
Maintenance Tax (HMT) revenues that are credited to the Harbor 
Maintenance Trust Fund as well as full use of future annual HMT 
collections. While Congress did provide some additional funds for the 
Corps in FY 2018, far more is needed. Additionally, the United States 
must establish a sustainable system for funding channel maintenance 
over the long term.

    The best way to provide needed maintenance funds for ports is to 
provide guaranteed use of HMT revenues. There also is a need to fix 
other problems with the HMT. Earlier this year, AAPA adopted a long-
term funding solution for port maintenance that represents the 
culmination of years of industry discussion to fix this broken system.

    The port industry's plan devotes 100 percent of the tax paid by 
shippers to America's ports, while providing no additional tax burden 
on the industry or taxpayers. It assures a fair, equitable, and 
reliable way to ensure the health of this critical part of America's 
transportation infrastructure. We urge Congress to enact this 
agreement, either as part of the Water Resources Development Act (WRDA) 
or any infrastructure bill that Congress considers. Adoption of this 
plan would bring much needed assurance that deep-draft navigation 
maintenance needs would have a fair, balanced and sustainable system to 
address maintenance needs both now and in the future. As one of the 
committees who created the Harbor Maintenance Tax in 1986, we hope you 
have an interest in fixing the current system's shortcomings. I have 
attached a more detailed description of this plan to my testimony and 
hope this committee and its members will be supportive of guaranteeing 
full use of the HMT and adopt the AAPA solution.

    Landside infrastructure is also important to ports. Investments in 
these connections can drive improvements in productivity, safety, and 
reduce the impact of freight transportation on local communities. The 
movement of goods through a port depends on the seamless integration of 
multiple modes of transportation. Ports must have efficient connections 
to national rail and highway networks. AAPA has identified $32.03 
billion in landside needs over the next decade. Additionally, in May 
2018, AAPA released a new report, ``State of Freight III,'' on the 
multimodal needs of U.S. seaports, which concluded that there is $20 
billion in projected needs solely for multimodal port and rail access 
needs over the next decade. Sixty-seven percent of AAPA member U.S. 
ports said that funding and financing options are the biggest obstacles 
in getting essential rail projects started to access their facilities.

    AAPA was happy to see that Congress tripled the TIGER/BUILD program 
in FY 2018, bringing it to $1.5 billion, and we urge a similar level of 
funding this year, although both the House and Senate current bills are 
lower, despite additional funding being made available for 
infrastructure this year. TIGER/BUILD is a vital program for port 
infrastructure both inside the gate and to support the connecting road 
and rail infrastructure. Since its inception in 2009, maritime projects 
have received more than $578 million in Federal TIGER funding, while 
leveraging more than $782 million in additional non-Federal funding, 
with $61.8 million in port-related grants in 2017. More is needed. AAPA 
has sought a portion of the program be set aside for ports. We commend 
the House Appropriations Committee for adopting AAPA's recommendation 
that part of this program be devoted solely to ports. Its FY 2019 bill 
mandated that one-third of the grants be allocated to ports. We hope 
the Senate will follow suit and adopt the House provision in the final 
bill.

    The FAST Act freight programs are fairly new but have the potential 
to help support port infrastructure improvements as well, and several 
ports have received funding. The INFRA grants, established under the 
FAST Act, are important but have a cap for multimodal projects broader 
than traditional highway projects, which results in limitations for 
port projects. AAPA strongly supports raising the multimodal caps on 
FAST Act programs, so that multimodal port projects have resources to 
build connecting projects. DOT financing programs are also a tool for 
ports to finance infrastructure. Both the Transportation Infrastructure 
Finance and Innovation Act (TIFIA) and Railroad Rehabilitation and 
Improvement Financing (RRIF) Program are working on being more port 
friendly, and we encourage further improvements to make these more 
useful programs to ports.

    While modern and well-maintained maritime infrastructure is 
critical to our ability to trade internationally, AAPA is concerned 
about the impact of U.S. tariffs and retaliatory response from our 
trading partners and the uncertainty they bring. To date, the announced 
Sections 232 and 301 tariffs and the responses from trading partners 
impact almost nine percent of total U.S. trade value and about 14 
percent of containerized trade.

    As noted in a recent AAPA letter to the United States Trade 
Representative, ports are concerned about potential trade sanctions 
that could result in significant losses of good paying U.S. trade-
related jobs, including those in the seaport industry. Seaports are at 
the front lines of the current uncertainties surrounding U.S. trade 
policy. It is important to recognize that international trade, both 
exports and imports, is good for American workers and our national 
economy. Recently, AAPA joined the U.S. Global Value Chain Coalition 
(USGVC). According to the USGVC, one in five American jobs are linked 
to exports and imports of goods and services, and millions of those 
jobs are tied to the global value chain. AAPA believes U.S. trade 
policy must take a comprehensive view of the millions of U.S. jobs 
related to trade and ensure that seaport and other trade-related 
employment are not negatively impacted by trade actions. In addition, 
the $155 million in planned investment by ports and their private-
sector partners is at risk, as an uncertain trade environment creates 
concerns about making these sizable port-related investments.

    Customs and Border Protection (CBP) programs are also important to 
international trade handled through seaports and have an impact on port 
efficiency to move cargo and infrastructure needs of ports. Safe and 
secure seaports are fundamental to protecting our borders and moving 
goods. Each year, roughly 1.2 billion metric tons of foreign trade 
cargo, including more than 32 million 20-foot equivalent maritime 
containers, arrive at U.S. seaports. Additionally, over 11.5 
international passengers begin their cruises via U.S. seaports. CBP is 
on the front line when cargo and passengers enter our country. CBP 
officers meet the ships at all ports of entry to check the manifests, 
screen incoming cargo, operate non-intrusive inspection equipment 
including radiation portal monitors, provide specialists to examine 
imported fruits, vegetables, and flowers for potentially harmful 
diseases, and other missions at our busy gateways. CBP is also 
responsible for screening all foreign visitors and returning American 
citizens and passenger ships that enter U.S. seaports.

    Two key programs for seaports are CBP inspections programs and 
design standards for Federal inspection stations at seaports. In 2002, 
Congress gave CBP authority to establish the Reimbursable Services 
Program to address the staffing shortages and record increases in 
passenger and cargo volumes. It allowed organizations, such as 
seaports, to enter into agreements to allow CBP to provide additional 
inspection services upon the request of stakeholders provided they pay 
for the additional CBP personnel costs. While a number of seaports have 
entered into these agreements to address immediate, short-term CBP 
resource shortages, AAPA believes that hiring additional officers is 
critically needed. While CBP has made some improvements in hiring, 
there still is a significant shortage of officers, including a shortage 
of about 500 officers in the maritime environment.

    Additionally, the Reimbursable Service Agreement is quite costly 
and sets up an uneven playing field for ports. The ability of ports to 
charge shippers security fees to help recover costs is limited. The 
industry already pays user fees to support CBP inspection activity in 
the form of the Merchandise Processing Fee. Furthermore, charging an 
additional cost exacerbates the competitive disadvantage some AAPA 
members face compared to ports in Canada and Mexico. The result is 
funding that could be going to infrastructure enhancements at a port is 
being diverted to pay for additional CBP services. Ports often are 
asked how the Federal Government can improve port performance. 
Fulfilling what has traditionally been a Federal obligation to ensure 
sufficient CBP inspection activity is a key place to start. It would 
help ports as we seek to expand or offer additional services to address 
peak cargo flows such as extended terminal hours or weekend gates. 
While the reimbursable services program is a good tool in the short 
term, it is not a long-term cost our ports can afford. The need for a 
permanent solution remains.

    CBP inspection stations at cruise ports are also a concern. For 
years, AAPA has voiced concern that CBP design standards require 
overbuilding that diverts funds from other infrastructure programs. We 
urge CBP to provide more oversight into the types and timing of 
requests for changes to a port terminal upgrade, and try to be more 
cost-minded.

    We have a chance as a Nation to make significant investments in 
infrastructure by both fixing systemic problems like the harbor 
maintenance tax and understaffing at CBP, as well as devoting more 
funding to Federal programs that support our seaport industry.

    Finally, let me end with a big ``thank you'' from the port industry 
on the tax bill and the final language that allowed private activity 
bonds to remain tax-free. These are important tools in funding port 
infrastructure projects. Similarly, we urge the committee to identify a 
fix to allow advance refunding of municipal bonds to become tax free 
again, as some ports use municipal bonds.

                                 ______
                                 

                               Attachment

            American Association of Port Authorities (AAPA)

                            1010 Duke Street

                       Alexandria, VA 22314-3589

                              703-684-5700

                             aapa-ports.org

           A Long-Term Funding Solution for Port Maintenance 
                  Good for Ports, Good for the Nation

FOR U.S. PORTS, MAINTENANCE IS THE HIGHEST PRIORITY

Responsible for over a quarter of United States GDP and more than 23 
million American jobs, a well-maintained port system is vital to the 
manufacturers, exporters, and farmers who count on U.S. ports to move 
their products to market. Eliminating the diversion of HMT funds away 
from their intended purpose is important to ensure a steady flow of 
U.S. goods to international markets.

A PORT INDUSTRY SOLUTION TO FIX A BROKEN SYSTEM

After years of underutilizing the Harbor Maintenance Tax (HMT), 
guaranteeing funds collected are dedicated to the U.S. Army Corps of 
Engineers (Corps) will result in the long-term sustainability of our 
Nation's harbor maintenance needs.

The port industry has agreed on a fair and equitable framework that 
guarantees full use of the HMT by the Corps, ensures year-to-year 
funding sustainability, and provides the most efficient use of 
collected harbor maintenance funds.

ENSURING TAX FAIRNESS

The port industry has agreed on a plan that devotes 100 percent of the 
tax paid by shippers to our ports, while providing no additional tax 
burden on the industry or taxpayers. It assures a fair, equitable, and 
reliable way to ensure the health of this critical part of America's 
transportation infrastructure.

Under this plan, HMT yearly revenues would be guaranteed to the Corps. 
The plan includes several funding phases to prioritize maintenance, 
while providing more equity for all ports.

AAPA'S HARBOR MAINTENANCE FRAMEWORK

      A permanent solution that ensures 100 percent of taxes collected 
from shippers goes to maintain our Nation's seaport infrastructure and 
international competitiveness.
      A long-term solution that fixes an unfair system and addresses 
the health and well-being of our seaport water highways that are 
critical for delivering goods to Americans.
      Applies all HMT collections to restore and maintain U.S. water 
highways that will complement the $155 billion in port-related capital 
investments planned to assure safe and efficient freight movement.
      A fair and equitable approach that enables water transportation 
cost savings to be fully realized by American consumers and U.S. 
exporters competing in the global marketplace.

[GRAPHIC] [TIFF OMITTED] T1818.008


      Six U.S. port regions receive a minimum of 10 percent of HMT 
collections for maintenance of high, moderate, and emerging harbors--
protecting historic shares.
      Emerging harbors nationwide would receive a minimum of 10 
percent of HMT collections.*
---------------------------------------------------------------------------
    * Emerging harbors are defined as those harbors that handle less 
than 1 million tons of cargo annually.

Support the AAPA plan to restore and fully maintain the Nation's water 
---------------------------------------------------------------------------
highways--with no new taxes!

                                 ______
                                 
   Prepared Statement of Hon. Pete Saenz, Mayor, City of Laredo, and 
                    Chairman, Texas Border Coalition
    Mr. Chairman and members, I am Pete Saenz, Mayor of Laredo, TX and 
chairman of the Texas Border Coalition (TBC). I am speaking on behalf 
of more than 2 million Texans in 17 border counties of the 1,250-mile 
Texas-Mexico border. TBC is comprised of Mayors and city council 
members, county judges and other county executives, and business 
leaders. Its mission is to provide vision and leadership to develop, 
encourage, promote, and protect the business, tourism, industry, and 
community interests of the Texas-Mexico border region.

    Thank you for the opportunity to speak before you today regarding 
border ports of entry, the important role they play in our Nation's 
economy, and the improvements needed to increase efficiencies in terms 
of commerce and border security.

    Automobiles, cell phones, computers, electronics, and refrigerators 
are part of our everyday life. These are just some of the consumer 
goods that come through Laredo and all of our Texas ports of entry. 
Americans depend on being able to purchase these goods and consumables. 
Americans depend on those retail, logistics, government, and 
international trade-related jobs that all connect to ports of entry. I 
ask that you keep this in mind as we talk about all the numbers and 
data today.

    Without a strong and growing economy on the border, we cannot have 
a growing national economy or achieve our security goals. Trade 
directly generates 30 percent of the U.S. economy, including 41 million 
American jobs--3.1 million of them in Texas.\1\ Interdependence is the 
way business gets done in the 21st-century economy, on the border and 
across the globe. Facilitating legitimate trade of manufactured goods, 
agriculture products, and other goods links the productivity and 
competitiveness of communities on both sides of the border and beyond. 
This creates jobs and prosperity that improve the lives of our people.
---------------------------------------------------------------------------
    \1\ ``The Impact of Trade on U.S. and State-Level Employment: 2016 
Update,'' Business Roundtable, 2017.

    As the U.S. economy enters the tenth year of expansion, the most 
important threat to sustained economic growth is the widening U.S. 
trade war with Mexico, Canada, Europe, China, and India. The U.S. has 
imposed tariffs on imported steel and aluminum, solar panels, washing 
machines, and newsprint. We have threatened new levies on automobiles, 
chemicals, equipment, and other products. Our trading partners have 
reciprocated with tariffs on U.S. exports of bourbon, blue jeans, 
steel, pork, apples, and other items. Continued economic and job growth 
depends on Congress and the White House acting to end the uncertainty 
about tariffs and improving the North American Free Trade Agreement and 
---------------------------------------------------------------------------
the World Trade Organization.

    Living on the border, we have witnessed firsthand the local 
positive economic impact of the North American Free Trade Agreement. 
Yet, the impact of NAFTA is far-reaching in that it fuels vast trade 
economic opportunities for U.S. workers, farmers, consumers, and 
businesses. The protection of NAFTA is imperative. We agree that 
modernization of the agreement is needed to address changes in economic 
climates and technology, but propose that it is done in a manner that 
does no harm.

    Since the agreement's inception, U.S. trade with Canada and Mexico 
has grown to $1.3 trillion, impacting all 50 states. Nationwide, 
approximately 14 million U.S. jobs depend on trade with Canada and 
Mexico and 43 of 50 U.S. States list Canada or Mexico as their first or 
second largest export market.\2\
---------------------------------------------------------------------------
    \2\ U.S. Chamber of Commerce, ``The Facts on NAFTA: Assessing Two 
Decades of Gains in Trade, Growth, and Jobs.''

    Texas's 20 ports of entry account for $650 billion in international 
trade and the creation of $1.6 million Texas jobs. As reported by the 
Texas State Comptroller's Office, trade through the port of Laredo 
alone contributed to the creation of 363,000 jobs and the infusion of 
---------------------------------------------------------------------------
$52 billion to the Texas gross domestic product.

    The port of Laredo is recognized as the largest U.S. inland port 
and the second ``overall port'' after Long Beach. The number of 
southbound truck commercial crossings in FY 2017 continued on an upward 
trend, increasing by 4.3 percent, totaling over 2.1 million.\3\ Also, 
shipments through rail and air remained strong: reported were 239,138 
northbound rail car crossings and air cargo weight landed of over 539 
million pounds in 2017.\4\
---------------------------------------------------------------------------
    \3\ WorldCity, Trade Numbers, 2017.
    \4\ Laredo Economic Development Corporation, 2005-2018 data.

    Moreover, the Laredo Customs District, which encompasses the Texas 
border ports inclusive of Del Rio, Eagle Pass, Laredo, McAllen, Pharr, 
and Brownsville, is recognized as the third largest U.S. Customs 
District, with a reported trade value of over $303 billion in 2017. 
Notably, trade through Laredo's Customs District accounted for over 50 
percent of the $557.5 billion in all U.S.-Mexico trade in 2017.\5\ As 
such, the impact of trade by air, land, and rail through the Laredo 
District on the U.S. economy is far-reaching and linked to industrial 
markets in the Midwest, Northeast, central states, and even the western 
seaboard.
---------------------------------------------------------------------------
    \5\ U.S. Census. Economic Indicator Database, ``Foreign Trade: 2017 
U.S. Trade in Goods With Mexico.''

    An analysis was conducted for the Texas Department of 
Transportation in 2017 by the American Transportation Research 
Institute which tracked the movement of trucks from Laredo's port of 
entry as they continued their journey northward and back again. The 
study clearly showed that the trucks that crossed through Laredo impact 
commerce in communities throughout the contiguous United States (charts 
---------------------------------------------------------------------------
attached).

    On the southwest border, we need to assure that our economic 
climate provides opportunity to the people in the region, State, and 
Nation. The three key elements of ports of entry operations revolve 
around staffing, infrastructure, and technology. To achieve our 
economic security, we need well-built, equipped, and staffed ports of 
entry that can facilitate legitimate trade and travel and interdict 
lawbreakers.

    A series of studies in the last decade estimate that border delays 
are potentially costing the American economy billions of dollars \6\--
costs that are ultimately passed on to working families and businesses.
---------------------------------------------------------------------------
    \6\ U.S. Government Accountability Office. ``U.S.-Mexico Border: 
CBP Action Needed to Improve Wait Time Data and Measure Outcomes of 
Trade Facilitation Efforts.'' 2013; see also, U.S. Customs and Border 
Protection. ``FY 2014 Report on Business Transformation Initiatives.'' 
2014; see also, report commissioned by Department of Commerce 
International Trade Administration. Conducted by Accenture in 
association with HDR Decision Economics and Crossborder Group Inc., 
2008.

    The combination of higher volumes of goods crossing our ports of 
entry and enhanced post-September 11, 2001 security procedures have led 
to longer wait times. Long wait times lead to delays and travel time 
uncertainty, which can increase supply chain and transportation 
costs.\7\ A report sponsored by the Department of Commerce detailed the 
economic impacts of border delays, finding, ``border delays result in 
losses to output, wages, jobs, and tax revenue due to decreases in 
spending by companies, suppliers, and consumers.'' The study detailed 
the causes, such as increased transportation costs for businesses and 
higher inventory costs for businesses to buffer against wait time 
uncertainty.\8\
---------------------------------------------------------------------------
    \7\ U.S. Customs and Border Protection. ``FY 2015 Report on 
Business Transformation Initiatives.'' May 13, 2015.
    \8\ Report commissioned by Department of Commerce International 
Trade Administration. Conducted by Accenture in association with HDR 
Decision Economics and Crossborder Group Inc., 2008.

    These delays create substantial costs to the American economy. The 
Joint Economic Committee of the U.S. Congress finds that border delays 
cost the U.S. economy as much as $5.8 billion each year.\9\ Customs and 
Border Protection's Office of Field Operations, which staffs the ports 
of entry, needs to hire 2,516 additional CBP Officers and 721 
Agriculture Specialists to achieve the staffing target detailed by its 
own fiscal 2018 Workload Staff Model and Agriculture Resource 
Allocation Model. As of February, the Office of Field Operations had 
23,002 CBP Officers onboard at the ports of entry--1,145 short of its 
fiscal 2018 target of 24,147. While we are behind on hiring and falling 
further backwards, the President's fiscal 2019 budget provides no new 
funding to address the current CBP Officer staffing shortage.
---------------------------------------------------------------------------
    \9\ ``Economic Impact of Understaffing U.S. Ports of Entry,'' Joint 
Economic Committee of the U.S. Congress, 2017.

    As reported by the Government Accountability Office, in fiscal year 
2015, CBP processed more than $2.4 trillion in imports in over 300 
ports of entry and collected an estimated $46 billion in revenue, thus 
making CBP the second highest revenue generating government agency in 
the United States.\10\ Yet, we share in the concern expressed by the 
National Treasury Employees Union that these revenues are utilized in 
funding other priority Federal programs, creating a lack of resources 
devoted to CBP's trade functions and ultimately an economic loss for 
American companies.\11\
---------------------------------------------------------------------------
    \10\ U.S. Government Accountability Office, ``Customs and Border 
Protection: Improved Planning Needed to Strengthen Trade Enforcement,'' 
GAO-17-618, June 12, 2017.
    \11\ The National Treasury Employees Union. ``Oversight of the U.S. 
Customs and Border Protection Agency,'' testimony presented to the 
Senate Finance Committee, May 11, 2016.

    One initiative that has proven to be effective in reducing cross-
border wait time is the operation of dual U.S./Mexico Federal 
inspection stations along the U.S.-
Mexico border. In Laredo, dual inspections stations currently exist at 
our airport, international commercial bridge crossings, and at the 
---------------------------------------------------------------------------
international railway crossing.

    Similarly, we suggest that more economic activity and trade 
efficiency would result from increased usage of certified trusted 
carrier programs (C-TPAT), which could also include pre-cleared, 
certified-mechanical truck/trailer inspections, and utilizing dedicated 
fast lanes. Furthermore, wait times could also be reduced at Border 
Patrol highway check points by increasing the number of inspection 
lanes and staff, installing state-of-the-art technology, and sharing of 
interagency data that Customs sends ``up the road'' to Border Patrol to 
reduce duplication of inspection.

    In addition to personnel, technology presents a vast opportunity to 
improve productivity by moving people and goods across the border more 
efficiently. I understand that just this past month, CBP replaced the 
operating system of the computers running the x-ray machines used to 
inspect trucks at a south Texas land port--an upgrade from MS-DOS to 
Windows. Congress needs to invest in land port technology that will at 
least bring us into this century.

    Road and highway improvements leading to and from border points of 
entry are equally important to the free flow of goods and services. I 
would also respectfully suggest that key components of continued trade 
success hinge on financing infrastructure projects. I ask the Senate 
Finance Committee to consider and support innovative financing 
mechanisms that propose public-private partnerships that offer 
opportunities to invest in the infrastructure needed using private 
funding. The infrastructure would then become an asset of the 
government. While the Donation Asset Program 559, known as DAP, has 
successfully offered and acquired donated assets at our border 
crossings, the $50-million limit set for new Federal 
Government-owned land ports of entry is a barrier that does not allow 
for that return on investment needed when considering higher-cost 
projects.

    The city of Laredo actively continues to seek funding to implement 
necessary infrastructure to meet the current and future demands of 
commerce. One such project in Laredo is the I-35/I-69W corridor leading 
to and from the World Trade Bridge port of entry. The total project 
cost is estimated to be $130 million. Of this amount, the city of 
Laredo seeks $78 million be federally funded. The city is working 
further to expand operations at the World Trade Bridge and to construct 
a fifth bridge. These projects are critical to maintaining and 
expanding Laredo's role as a predominant international border crossing, 
but also in fortifying our local economy as well as that of the State 
of Texas and our Nation (see attached graphic).

    In regard to border security, the Texas Border Coalition proposes 
that a one-size-fits-all barrier approach to border security is not the 
solution. CBP data suggests between 80 and 85 percent of smuggled 
cocaine, heroin, methamphetamine, and fentanyl enters the U.S. through 
the ports of entry. To combat the drug supply, increased personnel, 
technology, and infrastructure are needed at the ports of entry. In 
addition to utilizing state-of-the-art technology, it is vital to work 
with the border terrain, which would include a virtual barrier instead 
of a physical barrier. As proposed in the USA Act, TBC supports that a 
mile-by-mile test be conducted to provide whether a wall or other 
tactic or tactics would be the most effective security solution.

    Additionally, TBC is concerned about proposals to implement 
mandatory biometric exit systems at the international bridges and other 
land ports of entry. Currently, U.S. Customs and Border Protection is 
severely understaffed to handle incoming traffic and has been unable to 
hire sufficient officers to replace retirees, much less meet current 
workload requirements. At the international bridges in Texas, the 
infrastructure was not designed for departure inspections. Port 
infrastructure is not capable of tracking an outgoing flow of vehicle 
and pedestrian traffic with biometric systems without causing backups 
on local and State roadways. Also, none of which has been proposed 
addresses the need for land acquisition at the many ports, which have 
little space to expand. We propose that a mandatory biometric exit 
system not be pursued until Congress is able to provide the necessary 
personnel, infrastructure, and technology to handle CBP's current 
workload.

    With regard to improving the lives of our people, it is important 
to add that we support the work of ICE, which provides a much-needed 
and valuable service in helping ensure homeland security and public 
safety. It stands to reason that border communities are the most 
vulnerable by the nature of our geography. Yet, zero tolerance must be 
redefined to ensure that the humane treatment of persons and families 
be protected. In a letter submitted to congressional leaders by the 
Libre Initiative and signed onto by the Texas Border Coalition together 
with other faith, business, civic, and immigration advocacy groups, 
Congress is urged to act immediately and pass a permanent legislative 
solution protecting against the separation of families at the border 
and the indefinite detention of families. To do otherwise is contrary 
to the decency of the American people and the principles on which our 
country is founded.

    On behalf of TBC, thank you for the opportunity to contribute to 
these important matters.

[GRAPHIC] [TIFF OMITTED] T1818.009


[GRAPHIC] [TIFF OMITTED] T1818.010


[GRAPHIC] [TIFF OMITTED] T1818.011


                                 ______
                                 

                             Communications

                              ----------                              


                        Center for Fiscal Equity

                      14448 Parkvale Road, Suite 6

                          Rockville, MD 20853

                      <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9dfbf4eefefcf1f8ece8f4e9e4fef8f3e9f8efdde4fcf5f2f2b3fef2f0">[email&#160;protected]</a>

                    Statement of Michael G. Bindner

Chairman Cornyn and Ranking Member Casey, thank you for the opportunity 
to submit these comments for the record to the Committee on Finance 
Subcommittee on International Trade, Customs, and Global 
Competitiveness. This combines elements from our comments from March to 
the full committee and to the House Committee on Ways and Means from 
last year, with substantial new material regarding current 
Administration trade policy.

We suspect that port city witnesses will testify that most commerce 
passes through with minimal processing. Manufacturing for the American 
market may occur on the other side of the border or near the Chinese 
point of departure, but when goods arrive here they either keep driving 
to the point of sale or are loaded onto intramural transportation to 
it. As long as fuel prices remain relatively low, this will continue. 
The only danger is President Trump's proposed deregulation of the Dodd-
Frank reforms of the New York Mercantile Exchange Oil Futures market, 
which will cause oil prices to soar. Higher fuel prices and a trade war 
would bring manufacturing closer to consumers, but will do nothing for 
border cities. Creating more manufacturing opportunities at border 
cities going out requires tax reform.

Speaker Ryan's proposed Destination-Based Cash Flow Tax is a compromise 
between those who hate the idea of a value-added tax and those who seek 
a better deal for workers in trade. It is not a very good idea because 
it does not meet World Trade Organization standards, though a VAT 
would. It ultimately failed, although much of its failure likely is due 
to opposition by Chairman Hatch. In the end, Congress simply lowered 
rates, which did little for exports or workers.

It would be simpler to adopt a VAT on the international level and it 
would allow an expansion of family support through an expanded child 
tax credit. Many in the majority party oppose a VAT for just that 
reason, yet call themselves pro-life, which is true hypocrisy. Indeed, 
a VAT with enhanced family support is the best solution anyone has 
found to grow the economy and increase jobs. Even then, a DBCFT is 
preferable to the current corporate income tax system, so what is said 
below about VAT is at least partially applicable to the DCBFT (with any 
increased subsidies for children added to the personal income tax).

The main trade impact in our plan is the value-added tax (VAT). This is 
because (exported) products would shed the tax, i.e., the tax would be 
zero rated, at export. Whatever VAT Congress sets is an export subsidy. 
Seen another way, to not put as much taxation into VAT as possible is 
to enact an unconstitutional export tax.

Value-added taxes act as instant economic growth, as they are spur to 
domestic industry and its workers, who will have more money to spend. 
The Net Business Receipts Tax as we propose it includes a child tax 
credit to be paid with income of between $500 and $1,000 per month. 
Such money will undoubtedly be spent by the families who receive it on 
everything from food to housing to consumer electronics.

Some oppose VATs because they see it as a money machine, however this 
depends on whether they are visible or not. A receipt visible VAT is as 
susceptible to public pressure to reduce spending as the FairTax is 
designed to be, however unlike the FairTax, it is harder to game. 
Avoiding lawful taxes by gaming the system should not be considered a 
conservative principle, unless conservatism is in defense of entrenched 
corporate interests who have the money to game the tax code.

Our 10%-13% VAT rate estimates are designed to fully fund non-
entitlement domestic spending not otherwise offset with dedicated 
revenues. This makes the burden of funding government very explicit to 
all taxpayers. Nothing else will reduce the demand for such spending, 
save perceived demands from bondholders to do so--a demand that does 
not seem evident given their continued purchase of U.S. Treasury Notes.

Value-added taxes can be seen as regressive because wealthier people 
consume less; however, when used in concert with a high-income personal 
income tax and with some form of tax benefit to families, as we suggest 
as part of the NBRT, this is not the case.

The shift from an income tax based system to a primarily consumption 
based system will dramatically decrease participation in the personal 
income tax system to only the top 20% of households in terms of income. 
Currently, only roughly half of households pay income taxes, which is 
by design, as the decision has been made to favor tax policy to 
redistribute income over the use of direct subsidies, which have the 
stink of welfare. This is entirely appropriate as a way to make work 
pay for families, as living wage requirements without such a tax 
subsidy could not be sustained by small employers.

Shifting the balance to more exports will require more labor, 
considering the fact that economists call this a full employment 
economy. Any boost in either manufacturing or technology will require 
more immigration. Some business owners want employees to stay in the 
shadows and be abused, others want legal employees (though non-union--
repealing right to work laws would end illegal immigration because no 
one would hire an undocumented worker with union representation), and 
still others in the conservative camp simply hate the illegality or the 
ethnicity of the immigrants (speaking of the White House).

How would these developments impact border cities? The trend will be to 
shift international manufacturing to the border, especially if imported 
components are used.

Increased manufacturing should mean stronger unions and real 
enforcement of union rights to organize. Attacking unions for the past 
30 years has taken its toll on the American worker in both immigration 
and trade. That has been facilitated by decreasing the top marginal 
income tax rates so that when savings are made to labor costs, the CEOs 
and stockholders actually benefit. When tax rates are high, the 
government gets the cash so wages are not kept low nor unions busted. 
It is a bit late in the day for the Majority to show real concern for 
the American worker rather than the American capitalist or consumer.

Reversing the plight of the American worker will involve more than 
trade, but I doubt that the Majority has the will to break from the 
last 30 years of tax policy to make worker wages safe again from their 
bosses. Sorry for being such a scold, but the times require it.

The best protection for American workers and American consumer are 
higher marginal tax rates for the wealthy. This will also end the 
possibility of a future crisis where the U.S. Treasury cannot continue 
to roll over its debt into new borrowing. Japan sells its debt to its 
rich and under-taxes them. They have a huge Debt to GDP ratio; however 
they are a smaller nation.

We cannot expect the same treatment from our world-wide network of 
creditors, an issue which is also very important for trade. Currently, 
we trade the security of our debt for consumer products. Theoretically, 
some of these funds should make workers who lose their jobs whole--so 
far it has not. This is another way that higher tax rates and 
collection (and we are nowhere near the top of the semi-fictitious 
Laffer Curve) hurt the American workforce. Raising taxes solves both 
problems, even though it is the last thing I would expect of the 
Majority.

We make these comments because majorities change--either by deciding to 
do the right thing or losing to those who will, so we will keep 
providing comments, at least until invited to testify.

Our proposed NBRT/Subtraction VAT could be made either border 
adjustable, like the VAT, or be included in the price. This tax is 
designed to benefit the families of workers, either through government 
services or services provided by employers in lieu of tax. As such, it 
is really part of compensation. While we could run all compensation 
through the public sector and make it all border adjustable, that would 
be a mockery of the concept. The tax is designed to pay for needed 
services. Not including the tax at the border means that services 
provided to employees, such as a much-needed expanded child tax 
credit--would be forgone. To this we respond, absolutely not--Heaven 
forbid--over our dead bodies. Just no.

The NBRT could have a huge impact on trade policy, probably much more 
than trade treaties, if one of the deductions from the tax is purchase 
of employer voting stock (in equal dollar amounts for each worker). 
Over a fairly short period of time, much of American industry, if not 
employee-owned outright (and there are other policies to accelerate 
this, like ESOP conversion) will give workers enough of a share to 
greatly impact wages, management hiring and compensation and dealing 
with overseas subsidiaries and the supply chain--as well as impacting 
certain legal provisions that limit the fiduciary impact of management 
decision to improving short-term profitability (at least that is the 
excuse managers give for not privileging job retention).

Employee-owners will find it in their own interest to give their 
overseas subsidiaries and their supply chain's employees the same deal 
that they get as far as employee-ownership plus an equivalent standard 
of living. The same pay is not necessary, currency markets will adjust 
once worker standards of living rise.

Over time, this will change the economies of the nation's we trade 
with, as working in employee owned companies will become the market 
preference and force other firms to adopt similar policies (in much the 
same way that, even without a tax benefit for purchasing stock, 
employee owned companies that become more democratic or even more 
socialistic, will force all other employers to adopt similar measures 
to compete for the best workers and professionals.)

In the long run, trade will no longer be an issue. Internal company 
dynamics will replace the need for trade agreements as capitalists lose 
the ability to pit the interest of one nation's workers against the 
others. This approach is also the most effective way to deal with the 
advance of robotics. If the workers own the robots, wages are swapped 
for profits with the profits going where they will enhance consumption 
without such devices as a guaranteed income.

Thank you for the opportunity to address the committee. We are, of 
course, available for direct testimony or to answer questions by 
members and staff.

                                 ______
                                 
                National Treasury Employees Union (NTEU)

          Statement of Anthony M. Reardon, National President

    Chairman Cornyn, Ranking Member Casey, distinguished members of the 
Subcommittee, thank you for the opportunity to provide this testimony 
on ``Trade and Commerce at U.S. Ports of Entry.'' As President of the 
National Treasury Employees Union (NTEU), I have the honor of leading a 
union that represents over 25,000 Customs and Border Protection (CBP) 
Officers, Agriculture Specialists (CBPAS) and trade compliance and 
enforcement personnel stationed at 328 land, sea and air ports of entry 
across the United States (U.S.) and 16 Preclearance stations currently 
in Ireland, the Caribbean, Canada and United Arab Emirates airports.

    CBP's Office of Field Operations (OFO) is the largest component of 
CBP responsible for border security--including anti-terrorism, 
immigration, anti-smuggling, trade compliance, and agriculture 
protection--while simultaneously facilitating lawful trade and travel 
at U.S. ports of entry that are critical to our Nation's economy.

    In addition to CBP's trade and travel security, processing and 
facilitation mission, CBP OFO employees at the ports of entry are the 
second largest source of revenue collection for the U.S. government. In 
2016, CBP processed more than $2.2 trillion in imports and collected 
more than $44 billion in duties, taxes, and other fees. Customs and 
Border Protection Entry Specialists, Import Specialists, Paralegal 
Specialists who determine fines, penalties and forfeitures, Customs 
Auditors and Attorneys and other trade compliance personnel are the 
frontline in the defense against illegal imports and contraband. These 
employees enforce over 400 U.S. trade and tariff laws and regulations 
in order to ensure a fair and competitive trade environment pursuant to 
existing international agreements and treaties, as well as stemming the 
flow of illegal imports, such as pirated intellectual property and 
counterfeit goods, and contraband such as child pornography, illegal 
arms, weapons of mass destruction and laundered money. CBP is also a 
revenue collection agency. According to CBP's most recent data, CBP OFO 
employees processed more than $2.4 trillion in trade goods and 
collected more than $46 billion in revenue.

    Along with facilitating legitimate trade and enforcing trade and 
security laws, CBP trade personnel are responsible for stopping illegal 
transshipments; goods with falsified country of origin; goods that are 
misclassified; and collecting antidumping and countervailing duties.

    Today, the greatest challenge hindering trade and commerce at U.S. 
port of entry is that CBP OFO is chronically understaffed and the 
economic cost of the CBP OFO staffing shortage is staggering. According 
to the Joint Economic Committee (JEC), every day 1.1 million people and 
$5.9 billion in goods legally enter and exit through the ports of 
entry. The volume of commerce crossing our borders has more than 
tripled in the past 25 years. Long wait times lead to delays and travel 
time uncertainty, which can increase supply chain and transportation 
costs. According to the Department of Commerce, border delays result in 
losses to output, wages, jobs and tax revenue due to decreases in 
spending by companies, suppliers and consumers. JEC research finds 
border delays cost the U.S. economy between $90 million and $5.8 
billion each year.

    CBP OFO has a current need to hire 2,516 additional CBP Officers 
and 721 Agriculture Specialists to achieve the staffing target as 
stipulated in CBP's attached FY 2018 Workload Staff Model (WSM) and 
Agriculture Resource Allocation Model (AgRAM). According to CBP's 
Congressional Affairs Office, as of May 4, 2018, CBP OFO has 23,147 CBP 
Officers onboard at the ports of entry--1,328 short of the authorized 
staffing level of 24,475.

    Understaffed ports lead to long delays in travel and cargo lanes 
and also create significant hardship and safety issues for frontline 
employees. Involuntary overtime and involuntary work assignments far 
from home disrupt CBP Officers' family life and destroy morale.

    Trade and travel volume continue to increase every year, but CBP 
OFO staffing is not keeping pace with this increase. New and expanded 
federal inspection facilities are being built at the air, sea and land 
ports, yet CBP OFO staffing is not expanding.

    The state of Texas has 29 ports of entry including some of the 
nation's largest airports, seaports and land ports in the country, as 
well as two CBP trade operations Centers of Excellence and Expertise 
(CEE)--the Machinery CEE in Laredo and the Petroleum, Natural Gas and 
Minerals CEE in Houston. NTEU represents approximately 4,900 frontline 
CBP employees in Texas.

    All Texas ports are experiencing CBP staffing shortages with Laredo 
leading the pack. According to CBP, as of April Laredo land port has a 
staffing shortage of over 90 CBP Officers. At Eagle Pass port of entry, 
the shortage is around 35 and at Del Rio about 15.

    Pennsylvania also have major air and sea ports of entry in 
Philadelphia. According to NTEU members there, the Philadelphia 
International Airport is short approximately 8 to 10 CBP Officer 
positions.

    We commend Senator Cornyn for sponsoring legislation that includes 
a provision to authorize the funding and hiring of additional CBP 
employees at the ports of entry. NTEU strongly supports legislation 
recently introduced by Finance Committee member Senator McCaskill (D-
MO), S. 2314, the Border and Port Security Act. S. 2314 is stand-alone 
legislation that would authorize the hiring of 500 additional CBP 
Officers and additional OFO trade operations staff annually until the 
staffing gaps in CBP's various Workload Staffing Models are met.

    CBP employees also perform critically important agriculture 
inspections to prevent the entry of animal and plant pests or diseases 
at ports of entry. For years, NTEU has championed the CBP Agriculture 
Specialists' Agriculture Quality Inspection (AQI) mission within the 
agency and has fought for increased staffing to fulfill that mission. 
The U.S. agriculture sector is a crucial component of the American 
economy generating over $1 trillion in annual economic activity. 
According to the U.S. Department of Agriculture, foreign pests and 
diseases cost the American economy tens of billions of dollars 
annually.

    At many ports, including the port of Brownsville, there are not 
enough Agriculture Specialists to staff all shifts and CBP Officers are 
backfilling for Agriculture Specialists despite a December 10, 2007 
directive that states ``Directors, Field Operations must ensure that 
CBPAS are assigned to agricultural inspectional activities at the 
individual ports of entry. It is imperative that assignments for these 
employees are dedicated to the mission of protecting the nation's food 
supply and agricultural industry from pests and diseases absent exigent 
operational circumstances.''

    CBP's AgRAM shows a need for an additional 721 frontline CBP 
Agriculture Specialists and supervisors to address current workloads 
through FY 2018; however, even with the 2016 increase in AQI user fees, 
CBP proposed to fund 2,418 CBP Agriculture Specialist positions in FY 
2018, not the 3,149 called for by the AgRAM.

    Despite CBP's release of its risk-based AgRAM that documents an 
ongoing shortage of CBP Agriculture Specialists--by 721--at the ports 
of entry, the budget request includes no direct appropriation to hire 
these critical positions needed to fulfill CBP's AQI mission of pest 
exclusion and safeguarding U.S. agriculture and natural resources from 
the risks associated with the entry, establishment or spread of animal, 
plant pests and pathogens. NTEU urges the Committee to support a direct 
appropriation to begin to hire the 721 Agriculture Specialists as 
stipulated in their FY 2018 AgRAM.

Customs User Fees

    CBP collects Customs User Fees (CUFs) which include CUFs authorized 
by the Consolidated Omnibus Budget Reconciliation Act of 1985 (COBRA) 
to recover certain costs incurred for processing, among other things, 
air and sea passengers, and various private and commercial land, sea, 
air, and rail carriers and shipments. The source of these user fees are 
commercial vessels, commercial vehicles, rail cars, private aircraft, 
private vessels, air passengers, sea passengers, cruise vessel 
passengers, dutiable mail, customs brokers and barge/bulk carriers.

    COBRA fees are deposited into the Customs User Fee Account and are 
designated by statute to pay for services provided to the user, such as 
100% of inspectional overtime for passenger and commercial vehicle 
inspection during overtime shift hours. Of the 24,147 CBP Officers 
currently funded, COBRA user fees and COBRA FTA fund 3,825 full-time 
equivalent (FTEs) CBP Officers. Further, Immigration Inspection User 
Fees (IUF) fund 4,179 CBPO FTEs. User fees under the Senate Finance 
Committee jurisdiction fund 8,004 CBPO FTEs or one third of the entire 
CBP workforce at the ports of entry.

    For every $10 million in CUFs collected, CBP funds 92 CBP Officer 
FTEs. The Administration has proposed, starting with FY 2015 and 
through its FY 2019 budget request, an increase of at least $2 in CUFs 
and $2 in IUFs. If enacted, a $2 increase in both the CUFs and IUFs 
would support the hiring and support of 1,800 new CBP Officers per 
fiscal year.

Diversion of Customs User Fees

    NTEU strongly opposes the diversion of Customs User fees. Any 
increases to the CUF Account should be properly used for much-needed 
CBP staffing and not diverted to unrelated projects.

    Unfortunately, under Section 52202 of the FAST ACT, Congress 
indexed CUFs to inflation, but diverted this funding from the Customs 
User Fees Account to the General Fund to pay for unrelated 
infrastructure projects. Indexing COBRA user fees to inflation would 
have raised $1.4 billion over ten years--a potential $140 million per 
year funding stream to help pay for the hiring of additional CBP 
Officers to perform CBP's border security, law enforcement and trade 
and travel facilitation missions.

    Hijacking the indexed portion of the CUFs to inflation and using 
these fees as a FAST ACT pay-for has cost CBP Customs user fee funding 
to hire over 900 new CBP Officers since the FAST Act went into effect. 
These new hires would have significantly alleviated the current CBP 
Officer staffing shortage.

FY 2019 CBP Budget Request

    The President's FY 2019 budget request does support the hiring of 
new CBP Officers to meet the current staffing need of 2,516, but seeks 
to fund these new positions by increasing user fees. The President's 
budget proposal only provides appropriated funding to hire 60 new CBP 
Officer positions at the National Targeting Center. The President's 
request seeks no appropriated funding to address the current CBP 
Officer staffing shortage of 2,516 additional CBP Officers as 
stipulated by CBP's own FY 2018 WSM or to fund the additional 721 CBP 
Agriculture Specialists as stipulated by CBP's own FY 2108 AgRAM.

    As in the past, the Administration's budget proposes significant 
realignment of user fees collected by CBP. Currently, 33 percent of a 
CBP Officer's compensation is funded with a combination of user fees, 
reimbursable service agreements, and trust funds. The FY 2019 budget 
proposes to reduce OFO appropriated funding by realigning and 
redirecting user fees, including redirecting the Electronic System for 
Travel Authorization (ESTA) fee that would require a statutory change. 
The FY 2019 budget proposal would redirect approximately $160 million 
in ESTA fees from Brand USA to CBP. Rather than redirecting the ESTA 
fees to fund the additional 2,516 CBP Officer new hires needed to fully 
staff CBP Officer positions in FY 2019 and beyond, as stipulated by 
CBP's WSM, the budget would in fact reduce CBP's appropriated funding 
by $160 million. Therefore, while the budget proposes to increase the 
number of CBP Officer positions funded by ESTA user fees by 1,093, it 
decreases appropriated funding by $160 million, and reduces the number 
of CBP Officer positions funded by appropriations by 1,093 positions.

    Once again, the President's FY 2019 budget includes CBP Officer 
staffing numbers that are dependent on Congress first enacting changes 
to statutes that determine the amounts and disbursement of these user 
fee collections. To accomplish the ESTA fee change in the President's 
budget, Congress must amend the Travel Promotion Act of 2009 (Pub. L. 
111-145). The President's request also proposes fee increases to the 
Immigration and Consolidated Omnibus Budget Reconciliation Act of 1985 
(COBRA) user fees, not a direct up-front appropriation, to fund CBP 
Officer new hires as stipulated by the WSM. However, Immigration and 
COBRA user fees cannot be increased without Congress first enacting 
legislation. A proposal to increase user fees has been part of the 
Administration's annual budget submission since FY 2014 to fund the 
hiring of new CBP Officers. These user fee increase proposals are again 
in the FY 2019 budget request, but it is NTEU's understanding that the 
Senate Finance Committee is not currently planning to act on this long-
standing CBP legislative proposal.

    Therefore, to address CBP OFO staffing shortages and to address the 
ever-
increasing volume of trade through the ports of entry in the future, 
NTEU strongly supports S. 2314, the standalone CBP Officer staffing 
authorization bill and urges Senators to cosponsor and advance this 
bill.

    NTEU is seeking up to $100 million in Fiscal Year (FY) 2019 direct 
appropriations for the hiring of 500 CBP Officers, 100 CBP Agriculture 
Specialists, and additional needed non-uniformed Trade Operations and 
support staff. NTEU commends the Senate Appropriations Committee for 
approving a bill for floor action that provides an additional $49 
million above the FY 2019 Budget request to add 375 CBP Officers.

CBP Officer Overtime

    Also due to the ongoing current staffing shortage at the ports, CBP 
Officers nationwide are working excessive overtime to maintain basic 
port staffing. Currently, CBP Officer overtime pay is funded 100% 
through the COBRA user fee and is statutorily capped at $45,000 per 
year. All CBP Officers are aware that overtime assignments are an 
aspect of their jobs. However, long periods of overtime hours can 
severely disrupt an officer's family life, morale and ultimately their 
job performance protecting our nation.

    Because of the ongoing staffing shortages, CBP Officers can be 
required to regularly work overtime which results in individual 
Officers hitting the overtime cap very early in the fiscal year. This 
leaves no overtime funding available for peak season travel, holidays 
and other times when CBP Officers are expected to work overtime 
resulting in critical staffing shortages in the third and fourth 
quarter of the fiscal year that usually coincide with peak travel at 
the ports.

    At many ports, CBP has granted overtime exemptions to over one half 
of the workforce to allow managers to assign overtime to Officers that 
have already reached the statutory overtime cap, but cap waivers only 
force CBP Officers already working long daily shifts to continue 
working these shifts for more days. Officers are required to come in 
hours before their regular shifts, to stay an indeterminate number of 
hours after their shifts (on the same day) and are compelled to come in 
for more overtime hours on their regular days off as well. Both 
involuntary overtime--resulting in 12 to 16 hour shifts, day after day, 
for months on end--and involuntary work assignments far from home 
significantly disrupt CBP Officers' family life, erode morale and are 
not a solution for staffing shortages at the ports.

Temporary Duty Assignments at Southwest Land Ports of Entry

    Due to CBP's ongoing staffing shortage, since 2015, CBP has been 
diverting CBP Officers from other air, sea and land ports to severely 
short-staffed Southwest land ports for 90day temporary duty assignments 
(TDYs). Since November 1, 2015 between 80 and 200 CBP Officers per 
quarter have been TDYed to the San Diego and Tucson land ports. Owing 
to the failure to fill CBP Officer positions, neither the San Ysidro 
nor Nogales land ports can safely function without these TDYs.

    The continuing lack of CBP Officer staffing at these ports of entry 
results in forced overtime shifts, multiple deployments away from home, 
and low morale. Phase 4 of TDYs began June 24, 2018 with 100 CBP 
Officers being sent from other short-staffed ports to the critically 
short-staffed ports of Nogales and San Ysidro for 90-day temporary duty 
assignments.

Reimbursable Service Agreements

    In recent years, in order to find alternative sources of funding to 
address serious CBP Officer and Agriculture Specialist staffing 
shortages, CBP received authorization for and has entered into 
Reimbursable Service Agreements (RSAs) with the private sector as well 
as with state and local governmental entities. These stakeholders 
reimburse CBP for additional inspection services including overtime pay 
and the hiring of new CBP Officer and Agriculture Specialist personnel 
that in the past have been paid for entirely by user fees or 
appropriated funding. According to CBP, since the program began in 
2013, CBP has entered into agreements with 36 stakeholders, providing 
more than 106,000 additional processing hours for incoming commercial 
and cargo traffic.

    NTEU believes that the RSA program would be entirely unnecessary if 
Congress, when it authorized CBP user fees collected to be indexed to 
inflation, had provided that the $140 million a year funding stream be 
used to increase CBP overtime, staffing and other resources, rather 
than fund highway and other infrastructure projects authorized by the 
2016 highway bill. NTEU also believes that the RSA program is a band 
aid approach and cannot replace the need for Congress to either 
appropriate new funding or authorize an increase in customs and 
immigration user fees to adequately address CBP staffing needs at the 
ports.

    RSAs simply cannot replace CBP appropriated or user fee funding--
making CBP a ``pay to play'' agency. NTEU also remains concerned with 
CBP's new Preclearance expansion program that also relies heavily on 
``pay to play.'' Further, NTEU believes that the use of RSAs to fund 
CBP staffing shortages raises significant equity issues between larger 
and/or wealthier ports and smaller ports, which calls for an engaged 
Congress conducting active oversight.

Opioid Interdiction

    CBP OFO is the premier DHS component tasked with stemming the 
nation's opioid epidemic--a crisis that is getting worse. In a report 
released on May 10, 2019, by the Senate Homeland Security and 
Governmental Affairs Committee Minority titled ``Combatting the Opioid 
Epidemic: Intercepting Illicit Opioids at Ports of Entry,'' CBP 
Officers at the ports of entry were found to ``play a key role in 
stopping opioids and that CBP has significant shortages of Port 
Officers that may be compromising efforts to seize additional opioids 
before they can reach U.S. communities.''

    The smuggling of fentanyl and other opioids has increased markedly. 
According to the report, ``between 2013 and 2017, approximately 25,405 
pounds, or 88% of all opioids seized by CBP, were seized at ports of 
entry. The amount of fentanyl seized at the ports of entry increased by 
159% from 459 pounds in 2016 to 1,189 pounds in 2017.''

    The scourge of synthetic opioid addiction is felt in every state 
and is a threat to the nation's economic security and well-being. The 
majority of fentanyl is manufactured in other countries such as China, 
and is smuggled primarily through the ports of entry along the 
southwest border and through international mail and express consignment 
carrier facilities (e.g., FedEx and UPS). CBP Officers are, ``in the 
majority of cases, the last line of defense in preventing illicit 
opioids from entering the United States. . . . CBP's current shortage 
of over 4,000 Port Officers is directly influencing operations and 
staffing these positions could increase CBP's ability to interdict 
opioids.''

    According to CBP, over the last three years, there were 181 CBP 
employees assigned to the five Postal Service International Service 
Centers and 208 CBP employees assigned to the Private Express Carrier 
Facilities.

    On average, CBP Officers only inspect 100 of the 1.3 million 
inbound international packages that arrive daily by international mail. 
In 2016, 65 million packages arrive via express carriers, which are 
required by law to provide advanced electronic data. However, this data 
can be incomplete. The Committee report found, ``for example, from 2014 
and 2016, CBP issued over five thousand penalties for incomplete 
manifest information and assessed over $26 million in fines. However, 
express shippers successfully negotiated penalties down to just over $4 
million.''

    In the past year, the FedEx hub in Memphis processed 38 million 
imports and 48 million exports--equaling 86 million in total package 
volume. There are approximately 24 CBP Officers in total screening all 
86 million shipments, and on average, about 15 CBP Officers are working 
the main overnight FedEx ``sort'' shift. Considering the volume at the 
FedEx hub, NTEU has been told that the port requires a minimum of 60 
CBP Officers to facilitate the flow of legitimate freight and ensure 
successful interdiction of these synthetic chemicals. NTEU's CBP OFO 
appropriation request supports both the critical need at the air, sea 
and land ports of entry, but also at international postal and express 
consignment hubs.

    Also, under the Trade Act of 2002 as amended, Congress required all 
cargo, including express cargo, but not including inbound international 
mail, subject to requirements for electronic advance data (EAD). For 
cargo arriving by aircraft, express consignment operators are required 
to provide EAD to CBP prior to the scheduled arrival of express cargo 
in the U.S. Express consignment operators accept items for delivery to 
the U.S. at points of sale in foreign countries and maintain control of 
items until they are delivered to the addressees.

    GAO reports that express consignment operators say that ``they are 
able to individually scan each item upon arrival, providing an 
opportunity to identify and set aside express cargo targeted for CBP 
inspection based on EAD'' (GAO-17-606, page 29). However, CBP Officers 
tell NTEU that this is not the case for ``overages'' that arrive 
unmanifested or for mislabeled packages. They also tell us that too 
many people rely on electronic manifests to be accurate when they 
frequently are not.

    According to GAO, ``although CBP has been using EAD to target 
express cargo for inspection since approximately 2004, it has not 
evaluated whether this method results in benefits relative to other 
methods of choosing express cargo . . . for inspection'' (GAO-17-606, 
page 28).

    For these reasons, NTEU commends Senator Portman (R-OH) for 
including language in section 8 of S. 3057, the STOP Act, requiring CBP 
to provide a report on an annual basis on the individuals and companies 
that violate the Trade Act to the Senate Committee on Finance, among 
others. Congress, by requiring CBP to annually report this useful 
information on violators and violator penalty assessments, would 
enhance CBP's interdiction of prohibited items from entering the U.S. 
through express consignment operators.

    Lastly, the nation's busiest land port of entry San Diego, along 
with the Tucson area land ports, account for ``57% of all opioids 
seized by ports of entry, including 75% of all fentanyl and 61% of all 
heroin seized.'' These two land ports are also the most critically 
understaffed. According to CBP, ``these long-term staffing shortfalls 
continue to stretch the limits of operational, enforcement and training 
capabilities at the San Diego and Tucson ports of entry.''

Non-uniformed Trade Enforcement and Compliance Staffing

    When CBP was created in 2003, it was given a dual mission of not 
only safeguarding our nation's borders and ports from terrorist 
attacks, but also the mission of regulating and facilitating 
international trade. CBP is responsible for collecting import duties 
and ensuring importers fully comply with all applicable laws, 
regulations, quotas, Free Trade Agreement (FTA) requirements, and 
intellectual property provisions.

    Customs revenues are the second largest source of federal revenues 
collected by the U.S. Government after tax revenues, and this revenue 
funds other federal priority programs. NTEU is deeply concerned with 
the lack of resources, both in terms of dollars and manpower, being 
devoted to CBP's trade functions. Lack of sufficient focus and 
resources not only cost the U.S. Treasury in terms of customs duties 
and revenue loss, but also cost American companies in terms of lost 
business to unlawful imports.

    As of February 2018, there are 2,496 CBP revenue occupation 
personnel onboard, 272 positions short of the CBP revenue staff 
authorized by Congress. These occupations include Import (883), Entry 
(389), Drawback (34), Fines, Penalties and Forfeiture (271), National 
Import (84) and International Trade Specialists (155), Customs Auditors 
(308), and Attorneys (112).

    The Senate Finance Committee has primary jurisdiction over CBP's 
trade and commercial operations mission. Since CBP was established in 
March 2003, however, there has been no increase in non-uniformed CBP 
trade enforcement and compliance personnel even though inbound trade 
volume grew by more than 24 percent between FY 2010 and FY 2014. 
Additionally, CBP trade operations staffing has fallen below the 
statutory floor set forth in the Homeland Security Act of 2002 and 
stipulated in the FY 2017 CBP Resource Optimization Model for Trade 
Positions.

    Also, continuing staffing shortages, inequitable compensation, and 
lack of mission focus, are the main reasons why experienced CBP 
commercial operations professionals at all levels, who long have made 
the system work, are leaving or have left the agency. Further, twenty-
five percent of CBP Import Specialists will retire or be eligible to 
retire within the next few years. For these reasons, NTEU strongly 
supported CBP's FY 2018 direct appropriations request to hire 140 
additional positions at the CBP Office of Trade to support 
implementation of Trade Enhancement and Facilitation Act (Pub. L. 114-
125) requirements.

Conclusion

    Increasing CBP OFO staffing at the ports of entry is an economic 
driver for the U.S. economy. According to JEC, ``every day 1.1 million 
people and $5.9 billion in goods legally enter and exit through the 
ports of entry,'' but border delays cost the U.S. economy upwards of $5 
billion each year. CBP estimates that the annual hiring of an 
additional 500 CBP Officers at the ports of entry would increase yearly 
economic activity by $1 billion and result in an additional 16,600 jobs 
per year to the U.S. economy.

    Thank you for the opportunity to submit this statement on the CBP 
OFO resources needed to secure and protect trade and commerce at U.S. 
ports of entry on behalf of the men and women represented by NTEU at 
the nation's ports of entry.

                   U.S. Customs and Border Protection

                 Workload Staffing Model (WSM) Results

OFO's staffing requirement approach identifies the WSM baseline 
results, requirements for facility enhancements, and technology 
deployments through FY 2018 and requirements for conservatively 
projected growth through FY 2018 (3 percent).

        OFO CBPO and CBPAS Staffing Requirments Through FY 2018

Current CBPO Staffing Requirment--2,516

Staffing Gap Indentified by the WSM +727

Facility/Technology Requirements +621

Volume Growth +1,593

BTI savings -(425)

Net CBPO Staffing Requirements Calculation:

(727 + 621 + 1,593) - 425 = 2,516

Current CBPAS Staffing Requirement 721

                                 ______
                                 
                        U.S. Travel Association

                  1100 New York Avenue, NW, Suite 450

                          Washington, DC 20005

The U.S. Travel Association is the national, non-profit organization 
representing all facets of the travel industry which generates $2.4 
trillion in economic output and supports 15.6 million American jobs.

The U.S. Travel Association believes without security, there can be no 
travel. Security, which includes the infrastructure, personnel, and 
processes at America's ports of entry (POEs), is vital not only to 
protect the American homeland, but also to facilitate the efficient 
movement of people to and from our country.

The U.S. Travel Association supports investing in America's ports of 
entry for both facilities and with regard to manpower. Doing so would 
have extraordinarily positive results for the security of our border 
regions, as well as economic benefits that result from efficient travel 
facilitation. Congress should prioritize the investment of significant 
resources to hire new Customs and Border Protection agents to fill its 
vacancies and hire new personnel the agency badly needs. Further, 
Congress should invest in port of entry facilities to enhance security 
and facilitate the increasing volume of visitors. Additionally, the 
advent of new technologies could be used to make ports of entry both 
more secure and easier for known and low risk travelers to navigate 
without sacrificing or risking exploitation by bad actors.

In 2017, the U.S. welcomed 17.8 million visitors from Mexico and 20.2 
million from Canada, all of which were screened through one of our 
ports of entry. This generated nearly $40 billion in travel spending 
within the U.S. ($20.3 billion from Mexican and $19B from Canadian 
travelers). It is imperative to both our national security and economic 
growth that America's ports of entry efficiently facilitate business 
and leisure travelers. The U.S. Travel Association welcomes the 
opportunity to help Congress develop policies that promote America.

U.S. Travel commends Chairman Cornyn and Ranking Member Casey for 
convening this hearing and looks forward to working with the 
subcommittee to improve ports of entry infrastructure.

                                  [all]


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
